<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the American Geological Institute
    To the chairwoman and members of the subcommittee: The American 
Geological Institute (AGI) supports Earth science research sustained by 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA), the National Institute of Standards 
and Technology (NIST) and the National Aeronautics and Space 
Administration (NASA). Frontier research on the Earth, energy, and the 
environment has fueled economic growth, mitigated losses and sustained 
our quality of life. The subcommittee's leadership in supporting 
geoscience-based research is even more critical as our Nation competes 
with rapidly developing countries, such as China and India, for energy, 
mineral, air, and water resources. Our Nation needs skilled 
geoscientists to help explore, assess, and develop Earth's resources in 
a strategic, sustainable, and environmentally sound manner and to help 
understand, evaluate and reduce our risks to hazards. AGI supports the 
President's budget request of $7.767 billion for NSF; $1.101 billion 
for NIST, $5.498 billion for NOAA, and $1.797 billion for Earth Science 
at NASA.
    AGI is a nonprofit federation of 49 geoscientific and professional 
societies representing more than 120,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    NSF.--AGI supports an overall budget of $7.767 billion for NSF. AGI 
greatly appreciates the Congress' support for science and technology in 
recent appropriations and through the America COMPETES Reauthorization 
Act of 2010. The forward-looking investments in NSF are fiscally 
responsible and will pay important dividends in future development that 
drives economic growth, especially in critical areas of sustainable and 
economic natural resources and reduced risks from natural hazards. 
Support for science will save jobs, create new jobs, support students 
and provide training for a twenty first century workforce.
    NSF Geosciences Directorate.--The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic Earth scientists 
and their students who are seeking to understand the processes that 
sustain and transform life on this planet. About 63 percent of support 
for university-based geosciences research comes from this directorate 
and more than 14,300 people will be directly supported through GEO in 
fiscal year 2012 with thousands of others deriving support indirectly.
    The President's request for fiscal year 2012 asks for $286 million 
for Atmospheric and Geospace Sciences, $207 million for Earth Sciences, 
$385 million for Ocean Sciences and $101 million for Integrative and 
Collaborative Education and Research (ICER) within GEO. Much of the 
geosciences research budget is for understanding that is critical for 
current national needs, such as water and mineral resources, energy 
resources, environmental issues, climate change, and mitigation of 
natural hazards. AGI asks the subcommittee to strongly support these 
funding levels.
    GEO supports infrastructure and operation and maintenance costs for 
cutting edge facilities that are essential for basic and applied 
research. Ultimately the observations and data provide knowledge that 
is used by researchers and professionals in the public, government, and 
private sector. GEO research and infrastructure helps drive economic 
growth in a sustainable manner. Geoscience-based research tools and 
academic expertise helped to end the BP Deepwater Horizon oil spill, 
saving billions of dollars for industry and untold costs to the 
environment. Research funding continues to help the gulf coast recover 
environmentally and economically.
    Among the major facilities that NSF supports, the Academic Research 
Fleet would receive $69 million, EarthScope Operations would receive 
$26 million, Incorporated Research Institutions for Seismology (IRIS) 
would receive $12 million, Ocean Drilling Activities would receive $45 
million, the Ocean Observatories Initiative would receive $36 million, 
and the National Center for Atmospheric Research would receive $100 
million. AGI strongly supports robust and steady funding for 
infrastructure and operation and maintenance of these major facilities.
    NSF's Office of Polar Programs (OPP) funds basic research in the 
Arctic and Antarctica that helps the United States' maintain strategic 
plans, international efforts, security goals, natural resource 
assessments, cutting-edge polar technology developments and 
environmental stewardship of extreme environs. OPP's funding helps 
support researchers and students, the U.S. military, and the private 
sector. OPP is estimated to directly support almost 3,000 people in 
fiscal year 2012 and thousands of others indirectly. AGI supports the 
President's request of $477.4 million for this important program.
    Now is the time to boost geosciences research and education to fill 
the draining pipeline of skilled geoscientists and geo-engineers 
working in the energy and mining industries; the construction industry; 
the environmental industry; the risk management and insurance 
industries; the academic community; K-12 education; the Federal, State 
and local governments; and the communications and tourism industries.
    NSF Support for Earth Science Education.--The Congress can grow the 
depleted geosciences workforce; stimulate economic growth in the 
energy, natural resources and environmental sectors; and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGI strongly supports the Math and Science 
Partnerships (MSP), the Graduate Research Fellowships (GRF) and the 
Research Experiences for Undergraduates (REU) within NSF's Education 
and Human Resources Division. These programs are effective in building 
a science and engineering workforce for the 21st century.
    Improving geoscience education, one of the goals of NSF-EHR, to 
levels of recognition similar to other scientific disciplines is 
important in the following ways:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water and environmental stewardship. All 
        students should be required to take a geoscience course in 
        primary and secondary school.
  --Geoscience exposes students to a range of interrelated scientific 
        disciplines. It is an excellent vehicle for integrating the 
        theories and methods of chemistry, physics, biology, and 
        mathematics. A robust geoscience course would make an excellent 
        capstone for applying lessons learned from earlier class work.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. Informal 
        geoscience education that leads to reducing risks and preparing 
        for natural events should be a life-long goal.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally sound natural resources development. There are 
        not enough U.S.-trained geoscientists to meet current demand 
        and the gap is growing. Support for geoscience research and 
        education is necessary to stay competitive and to wisely manage 
        our natural resources.
    NOAA.--AGI supports the President's request for a budget of $5.498 
billion for NOAA. We hope the subcommittee will continue to support the 
National Weather Service; the Oceanic and Atmospheric Research program; 
the National Climate Service; and the National Environment Satellite, 
Data and Information Service. All four programs are critical for 
understanding and mitigating natural and human-induced hazards in the 
Earth system while sustaining our natural resources. These four 
programs at NOAA prevent billions of dollars of losses, keep the 
private and public sectors growing and save lives. For example, drought 
forecasts are worth up to $8 billion to the farming, transportation, 
tourism and energy sectors while NexRad radar has prevented more than 
330 fatalities and 7,800 injuries from tornadoes since the early 1990s.
    NIST.--We support the President's request of $1.101 billion for 
NIST in fiscal year 2012. Basic research at NIST is conducted by Earth 
scientists and geotechnical engineers and used by the public and 
private sector on a daily basis. The research conducted and the 
information gained is essential for understanding climate change and 
natural hazards in order to build resilient communities and stimulate 
economic growth with reduced impact from risk. In particular, we 
support Measurements and Standards to Support Increased Energy 
Efficiency and Reduced Environmental Impact and Measurements and 
Standards to Support Advanced Infrastructure Delivery and Resilience. 
Energy efficiency and reduced environmental impact research will 
improve the health of our planet and reduce energy costs. The advanced 
infrastructure research will help to reduce the estimated average of 
$52 billion in annual losses caused by floods, fires and earthquakes.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but has received only a small portion of 
authorized and essential funding in the past. AGI strongly supports the 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) in 2012. We hope the appropriations subcommittee will continue 
to support this effective and cohesive program, even if the authorizing 
legislation takes more time to complete. NEHRP is an excellent example 
of how to coordinate different entities for the safety and security of 
all. NEHRP develops effective practices and policies for earthquake 
loss reduction and accelerates their implementation; improves 
techniques for reducing earthquake vulnerabilities of facilities and 
systems; improves earthquake hazards identification and risk assessment 
methods and their use; and improves the understanding of earthquakes 
and their effects.
    NASA.--AGI supports the vital Earth observing programs within NASA. 
AGI strongly supports the President's request of $1.797 billion for 
Earth Science programs within the Science Mission Directorate at NASA. 
The investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
Earth observations are used every day, not just for research, but for 
critical information to aid society in mundane tasks, like weather 
forecasting and emergency services, such as tracking volcanic ash 
plumes or oil spills that disrupt the economy and the environment. The 
requested increase for fiscal 2012 and proposed increases for future 
years are wise and well-planned investments that affect everyone.
    We appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a nonprofit, nonpartisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the President's fiscal year 2012 budget request for the 
National Aeronautics and Space Administration (NASA), the National 
Oceanic and Atmospheric Administration (NOAA), and the National Science 
Foundation (NSF). The AGU, on behalf of its more than 60,000 Earth and 
space scientist members, would like to respectfully requests that the 
Congress appropriates at least $1.797 billion for earth science at 
NASA, $5.498 billion overall for NOAA, and $7.767 billion overall for 
NSF.
                                  nasa
Earth Science
    AGU supports the vital Earth observing programs within NASA. AGU 
strongly supports the President's request of $1.797 billion for Earth 
Science programs within the Science Mission Directorate at NASA. The 
investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier, and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
Earth observations are used every day, not just for research, but for 
critical information to aid society in routine tasks, such as weather 
forecasting, emergency services, and tracking volcanic ash plumes or 
oil spills that disrupt the economy and the environment. The requested 
increase for fiscal year 2012 and proposed increases for future years 
are wise and well-planned investments.
Planetary Science
    AGU supports the President's request for fiscal year 2012 of $1.54 
billion for the Planetary Science programs within the Science Mission 
Directorate at NASA. Planetary science examines the origin, content, 
and evolution of the solar system and the potential for life elsewhere. 
There are more practical applications for planetary sciences as well. 
The science data from many planetary missions provides scientists with 
critical information for future human spaceflight missions, which 
furthers NASA's exploration agenda. Additionally, Robotic Mars orbiters 
are mapping natural resources such as water and minerals on Mars.
Plutonium-238
    AGU is concerned about the absence of past funding for restarting 
production of Plutonium-238 (Pu-238) and how it will negatively impacts 
NASA's planetary sciences missions. We request production of Pu-238 be 
restarted immediately, as there is no viable alternative method to 
power deep space missions (solar panels cannot produce enough 
electricity far from the Sun). Currently, NASA's only option for 
obtaining Pu-238 is to purchase it from Russia. Without Pu-238, NASA 
cannot carry out future planetary missions.
    If Pu-238 production starts immediately, there will still be a 5-
year delay before enough Pu-238 is produced to power a spacecraft. Full 
scale Pu-238 production is unlikely until 2018, which is too late to 
meet all of NASA's needs. The delay will push back 12 proposed 
planetary space missions. This delay could cause missions to reach 
prohibitively high costs, which in turn could cause job losses, 
diminish the United States leadership role in planetary science, and 
prevent us from expanding human knowledge of the universe. Given the 
magnitude of the funds necessary to regain our production capability, 
AGU strongly asks that restart production of Pu-238 be funded fully at 
the President's requested level of $10 million. AGU also supports the 
Department of Energy Office of Science request for $5.416 billion and 
the Office of Nuclear Energy Pu-238 production restart for $10 million.
Heliophysics
    AGU supports the President's request for fiscal year 2012 of $622 
million for the Heliophysics Science programs within the Science 
Mission Directorate at NASA. Heliophysics research is critical because 
it results in a better understanding of the Sun and how its activities 
affect Earth. Not only due solar activities affect Earth's climate, 
they also account for space weather, which impacts satellites, radio 
and radar transmission, gas and oil pipelines, and electrical power 
grids.
Joint Polar Satellite System (JPSS)
    AGU supports the President's request of $1.07 billion for JPSS in 
fiscal year 2012. Because the fiscal year 2011 funds that were 
necessary to launch JPSS on time were not appropriated, there will be a 
data gap beginning in 2017. It is critical that the Congress 
appropriate the President's request for JPSS in fiscal year 2012 in 
order to minimize the length of that gap.
    Polar satellites provide the only weather and climate information 
for large portions of the planet and are particularly important for a 
whole host of end users. For military planners, overseas U.S. military 
operations will be greatly affected by the data gap. JPSS will provide 
critical information for long-term forecasts, which are imperative for 
troop deployments and planning operations. Additionally, weather 
forecasts for oil and gas companies doing work in Alaska, as well as 
cargo and cruise ships carrying billions of dollars worth of goods and 
millions of passengers, will be compromised. Furthermore, our ability 
to forecast weather in Alaska will be severely compromised. Others 
impacted by a data gap include the aviation industry, as JPSS will 
observe volcanic eruptions and track the movement of ash clouds; 
agriculture, as farmers rely on polar satellites for drought, extreme 
temperature, and length of growing season information; the fishing 
industry, as fishermen check sea-surface data from polar satellites to 
find fish stocks before heading out for their daily catch; and finally 
weather forecasting, as forecasters' ability to accurately project the 
intensity and trajectory of severe weather events, such as hurricanes, 
will be greatly diminished.
National Weather Service (NWS)
    AGU hopes the subcommittee will continue to support NWS and will 
fund it at the President's request for $988 million in fiscal year 
2012. NWS is critical to protecting American lives, property, and 
commerce. Weather observations provide information that is vital for 
weather modeling and functions like accurate tornado watches and 
warnings and storm forecasting must be preserved. Furthermore, buoy and 
surface weather observations are the backbone of most of the weather 
warning systems. Because at least one-third of U.S. GDP is concentrated 
in weather-sensitive industries, it is critical that the Congress 
maintains the United States' robust weather forecasting infrastructure.
Climate Service
    AGU supports the formation of a Climate Service within NOAA and 
supports the President's request in fiscal year 2012 for $346.2 
million. The Climate Service is a budget-neutral reorganization within 
NOAA that will better integrate its functionalities in order to improve 
NOAA's ability to provide data and information to those communities 
affected by climate. As the Nation struggles to address the economic 
and national security-related impacts of climate on everything from 
agriculture to energy and transportation, it is now more important than 
ever that we leverage and coordinate our efforts to provide related 
information and scientific data. NOAA's proposed Climate Service would 
create the necessary framework to provide such support. The potential 
impacts of climate change and its influence on extreme weather events 
are pervasive and considerable. Climate change forecasts have the 
potential to provide a $507-$959 million per year benefit to the U.S. 
agriculture industry alone.
    Due to this widespread impact, there has been exponential growth in 
the demand for climate information from business, industry, 
agriculture, government, and the public. This need can only be 
addressed with easily accessible and timely scientific data and 
information about climate that helps people make informed decisions in 
their lives, businesses, and communities. While NOAA already responds 
to millions of requests annually, its distributed network of 
laboratories, data centers and programs limits the agency's ability to 
fully anticipate, develop, and deliver the needed services.
                                  nsf
    AGU supports the President's request of an overall budget of $7.767 
billion for NSF. AGU greatly appreciates the Congress' support for 
science and technology in past appropriations and through the America 
COMPETES Reauthorization Act of 2010. Investments in NSF provide for 
America's future in a responsible manner. These investments pay out 
vitally important dividends in future development that drives economic 
growth, especially in critical areas of sustainable and economic 
natural resources and reduced risks from natural hazards. Support for 
science will maintain our economic and industrial leadership in the 
global marketplace, ensure economic progress, grow jobs, and uphold 
society's advancement.
Geosciences Directorate
    The Geosciences Directorate (GEO) is the principal source of 
Federal support for academic Earth scientists and their students who 
are seeking to understand the processes that sustain and transform life 
on this planet. Approximately 63 percent of support for university-
based geosciences research comes from this directorate and more than 
14,300 people will be directly supported through GEO in fiscal year 
2012 with thousands of others deriving support indirectly.
    The President's request for fiscal year 2012 asks for $286 million 
for Atmospheric and Geospace Sciences, $207 million for Earth Sciences, 
$385 million for Ocean Sciences and $101 million for Integrative and 
Collaborative Education and Research (ICER) within GEO. Much of the 
geosciences research budget leads to a better understanding of critical 
national needs, such as water and mineral resources, energy resources, 
environmental issues, climate change, and mitigation of natural 
hazards. AGU asks the subcommittee to strongly support these funding 
levels.
    GEO supports infrastructure, operation, and maintenance costs for 
cutting edge facilities that are essential for basic and applied 
research. Geoscience-based research tools and academic expertise helped 
to end the BP Deepwater Horizon oil spill, saving billions of dollars 
for industry and untold costs to the environment. Among the major 
facilities that NSF supports, the Academic Research Fleet would receive 
$69 million, EarthScope Operations would receive $26 million, 
Incorporated Research Institutions for Seismology (IRIS) would receive 
$12 million, Ocean Drilling Activities would receive $45 million, the 
Ocean Observatories Initiative would receive $36 million, and the 
National Center for Atmospheric Research would receive $100 million. 
AGU strongly supports robust and steady funding for this infrastructure 
as well as operation and maintenance of these major facilities.
Office of Polar Programs (OPP)
    NSF's OPP funds basic research in the Arctic and Antarctica that 
helps the United States maintain strategic plans, international 
efforts, security goals, natural resource assessments, cutting-edge 
polar technology developments and environmental stewardship of extreme 
environs. OPP's funding helps support researchers and students, the 
U.S. military, and the private sector. OPP is estimated to directly 
support almost 3,000 people in fiscal year 2012 and thousands of others 
indirectly. AGU supports the President's request of $477.4 million for 
this important program.
Earth Science Education
    The geosciences workforce is aging and being quickly depleted. The 
Congress can grow this workforce, stimulate economic growth in the 
energy, natural resources and environmental sectors, and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGU strongly supports the Math and Science 
Partnerships (MSP), the Graduate Research Fellowships (GRF) and the 
Research Experiences for Undergraduates (REU) within NSF's Education 
and Human Resources Division. These programs are effective in building 
a science and engineering workforce for the 21st century. Improving 
geoscience education, one of the goals of NSF-EHR, to levels of 
recognition similar to other scientific disciplines is critical.
    AGU appreciates this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. We thank you for your thoughtful 
consideration of our request.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2012 
appropriations for the National Science Foundation (NSF). We encourage 
the Congress to provide the $7.767 billion requested by the 
administration.
    AIBS is a nonprofit 501(c)(3) scientific association dedicated to 
advancing biological research and education for the welfare of society. 
Founded in 1947 as a part of the National Academy of Sciences, AIBS 
became an independent, member-governed organization in the 1950s. AIBS 
is sustained by a robust membership of some 200 professional societies 
and scientific organizations whose combined individual membership 
exceeds 250,000. AIBS advances its mission through coalition activities 
in research, education, and public policy; publishing the peer-reviewed 
journal BioScience and the education Web site ActionBioscience.org; 
providing scientific peer-review and advisory services to government 
agencies and other clients; convening meetings; and managing scientific 
programs.
    NSF is a vital engine that can help drive our Nation's economic 
growth. The agency's support for scientific research and education 
programs fosters innovation, improves science education, and maintains 
our scientific infrastructure. Through its competitive, peer-reviewed 
research grants, NSF is leading the development of new knowledge that 
will help to solve the most challenging problems facing society. The 
agency's education programs are preparing the next generation of 
skilled workers in science, technology, engineering, and math (STEM). 
NSF's investments in research equipment and facilities will enable our 
Nation to continue to innovate and compete globally. These efforts, 
however, require a sustained and predictable Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    NSF is a sound investment that pays dividends. The use of peer-
review to evaluate and select the best research proposals means that 
NSF is funding the most promising research. Recent discoveries that 
stem from NSF-funded research include the development of a faster and 
less expensive method for identifying bacteria in water and food 
samples; the identification of a high-yielding biofuel that can grow on 
degraded lands; the creation of tomatoes that provide increased levels 
of the essential nutrient folate; and insight into the spread of the 
West Nile virus.
    As the primary Federal funding agency for fundamental research in 
the nonmedical sciences at our Nation's universities and colleges, NSF 
is responsible for generating new scientific discoveries, patents, and 
jobs. For many scientific disciplines, NSF is the primary funding 
source for basic research. For instance, NSF provides approximately 68 
percent of extramural Federal grant support for fundamental research in 
the areas of nonmedical and environmental biology.
    Importantly, the fiscal year 2012 budget request would allow NSF to 
fund nearly 2,000 additional research grants, thereby supporting more 
than 6,000 additional researchers and students. This added support 
would build upon the agency's central role in science and STEM 
education. In fiscal year 2010, NSF programs reached almost 300,000 
scientists, teachers, and students across the Nation. NSF provides 
vitally important research support to early career scientists, helping 
them to initiate their research programs. Support for the scientific 
training of undergraduate and graduate students is also critically 
important to our research enterprise. Students recruited into science 
through NSF programs and research experiences are our next generation 
of innovators and educators. In short, NSF grants are essential to the 
Nation's goal of sustaining our global leadership in science, 
technology, engineering and mathematics, and reigniting our economic 
engines.
    The Biological Sciences Directorate (BIO) funds research in the 
foundational disciplines within biology. These fields of study further 
our understanding of how organisms and ecosystems function. 
Additionally, BIO supports innovative interdisciplinary research that 
improves our understanding of how human social systems influence--or 
are influenced by--the environment, such as the NSF-wide Science, 
Engineering, and Education for Sustainability program. In collaboration 
with NSF's engineering and math and physical science directorates, BIO 
is working to develop new, cutting-edge research fields. For example, 
the BioMaPS program is accelerating understanding of biological 
systems, and applying that knowledge to new technologies in clean 
energy.
    The fiscal year 2012 budget request for NSF would enable the agency 
to continue to fund highly competitive grant proposals in BIO's five 
core programmatic areas:
  --molecular and cellular biosciences;
  --integrative organismal systems;
  --environmental biology;
  --biological infrastructure; and
  --emerging frontiers.
    Equally important, BIO provides essential support for our Nation's 
place-based biological research, such as field stations and natural 
science collections. Each of BIO's program areas also contribute to the 
education and training of undergraduate, graduate, and postdoctoral 
students.
    The budget includes a request for $10 million to support the 
digitization of high-priority U.S. specimen collections. We strongly 
encourage the Congress to provide at least this level of funding. This 
investment would help the scientific community ensure access to and 
appropriate curation of irreplaceable biological specimens and 
associated data, and would stimulate the development of new computer 
hardware and software, digitization technologies, and database 
management tools. For example, this effort is bringing together 
biologists, computer and information scientists, and engineers in 
multi-disciplinary teams to develop innovative imaging, robotics, and 
data storage and retrieval methods. These tools will expedite the 
digitization of collections and, more than likely, contribute to the 
development of new products or services of value to other industries.
    The fiscal year 2012 budget request includes funding in the Major 
Research Equipment and Facilities Construction account for the 
continued construction of the National Ecological Observatory Network 
(NEON). Once completed, NEON will collect data across the United States 
on the effects of climate change, land use change, and invasive species 
on natural resources and biodiversity. This information will be 
valuable to scientists, resource managers, and government-decision 
makers as they seek to better understand and manage natural resources.
    We encourage the subcommittee to provide the requested funding for 
the successful Graduate Research Fellowship program. The budget request 
would provide 2,000 new fellowships, which are important to our 
national effort to recruit and retain the best and brightest STEM 
students. The budget would also provide a needed $1,500 increase to the 
fellowship's education allowance, which has not changed since 1998.
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                              Universities
    On behalf of the Association of Public and Land-grant Universities' 
(APLU) Board on Oceans, Atmosphere, and Climate (BOAC), and the 
national constellation of institutions of higher learning that it 
represents, we thank you for the opportunity to provide support of and 
recommendations for the proposed fiscal year 2012 budgets for the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Aeronautic and Space Administration (NASA) and the National Science 
Foundation (NSF). NOAA, NASA, and NSF each play unique roles in a 
number of high-priority U.S. and international initiatives. All three 
agencies also support research at our member institutions that provides 
critical information to policymakers and communities across the 
country. That is why we strongly support the administration's request 
of $5.498 billion for NOAA; $7.8 billion for NSF; and $5.016 billion 
for NASA's science account.

    ``Although basic science can have colossal economic rewards, they 
are totally unpredictable. And therefore the rewards cannot be judged 
by immediate results. Nevertheless, the value of [Michael] Faraday's 
work today must be higher than the capitalization of all shares on the 
stock exchange.''------Margaret Thatcher, Speech to the Royal Society, 
Sept. 27, 1988

    ``America has been consuming its seed corn: From 1970 to 1995, 
Federal support for research in the physical sciences, as a fraction of 
gross domestic product, declined 54 percent; in engineering, 51 
percent. Annual Federal spending on mathematics, the physical sciences 
and engineering now equals only the increase in healthcare costs every 
9 weeks.''------George F. Will: ``Rev the Scientific Engine'', The 
Washington Post, January 2, 2011

    In the late 1930s, at a time when the Federal Government did not 
fund basic research, Alfred Loomis, a wealthy New York industrialist 
and science geek was the benefactor of basic research pursuits of the 
world's foremost scientists and mathematicians at his mansion, which 
was partially converted into a laboratory in Tuxedo Park, New York. One 
of the scientific breakthroughs that he fostered led to the development 
of microwave radar. Via his cousin, Mr. Simpson, the Secretary of War, 
Mr. Loomis contacted President Roosevelt who contacted Mr. Churchill. 
An enormous mismatch in aircraft and vessel detection capabilities 
resulted between the Allies and the Axis, and this helped to win the 
war. This is an example of a basic scientific breakthrough that to 
great measure is responsible for the position in the world order that 
the United States has enjoyed since WWII.
    In 1946, given the radar breakthrough and given the fact that the 
United States did not know when to cross the English Channel to stage 
D-Day, the Congress realized that the Nation needed federally funded 
weather and ocean related R&D and created the Office of Naval Research; 
which was so successful that the federally funded National Science 
Foundation was created in 1949. Subsequently, the United States became 
the world leader in R&D, its universities and industries became the 
most advanced in the world and thus the United States became the 
leading economic power of the world. This was not happenstance. This 
was the Congress building enabling capacity for the U.S. economy 
through the aggressive funding of advanced, innovative research and 
development. Advances derived from solar, atmospheric, oceanic, 
hydrologic, environmental, and data and information harvesting have and 
will drive expansion of the U.S. economic enterprise.
    Space weather research and forecasting is a jewel at the NOAA Space 
Environment Center. Sun storms interfere with the normal operation of 
communications, can cause large-scale blackouts and could shut down the 
Nation's GPS satellite system and thus the U.S. spatial referencing 
network. Without research advances in Space Weather, the Nation's 
military defenses and security, transportation systems, commerce and 
competitiveness will be severely compromised.
    Recently, a NASA scientist developed a new mathematical method to 
process nonlinear and nonstationary data in his basic research and 
opened up an entire new field of data analysis and information 
harvesting. He was elected to the U.S. National Academy. However, the 
scientist has chosen to retire from NASA and has joined a university in 
Taiwan where the success rate for research proposals is 80--90 percent 
vs. United States rates of 10 percent. The United States has lost a 
National Academy member to a foreign country because of scarce U.S. 
research dollars.
    While recognizing that difficult budget decisions that must be made 
for the Nation's fiscal health, the President's proposed budget for 
these three agencies will serve the Nation well in advancing science 
and technology which will subsequently undergird the economy, security 
and well being of the citizenry of the United States. Outlays in the 
natural and earth systems' science and technology programs of NOAA, 
NSF, and NASA will serve to improve and make the Nation's surface, air 
and marine transportation safer and more efficient, advance energy 
technology, provide the scientific and technological advances to help 
the defense industry better meet its technology needs, contribute to 
advances in public health, make the country more resilient to 
environmental hazards, provide agricultural, energy, and transportation 
sectors with seasonal outlooks, and create the knowledge base upon 
which society can make wise environmental management decisions. 
Environmental data collected and distributed by NASA, NSF, and NOAA 
represent a national resource and are used by universities for 
research, education, and outreach and especially by private industry to 
produce products and services.
    Insuring homeland security, maintaining global communications, and 
informing the public of atmospheric and marine ecological health 
threats depend upon reliable science. Forecasting the onset, duration 
and effects of solar storms, atmospheric weather events, coastal 
storms, sea-level variability, toxic blooms, and seasonal climate 
conditions are dependent on sustainable growth of the science and 
technology that NOAA, NSF and NASA sponsor and conduct. In addition, 
the fiscal year 2012 budget request will lead to the expansion of the 
private sector weather and seasonal and annual climate derivatives 
industry and thus create new jobs.
    We next comment on aspects of the agency budgets and needs of the 
scientific community:
                                  noaa
    NOAA provides important services to all Americans, services that 
are vital to our economy, national security, surface, marine and air 
transportation, human safety, and the health of human and marine 
ecological systems. Extreme weather events, like tornadoes, hurricanes, 
oppressive heat, heavy precipitation both wet and frozen, dust storms 
and drought, clearly demonstrate both the immediate and long-term 
impacts that weather and seasonal climate can have on a region. About 
$3 trillion or one-third of the U.S. economy, including industries as 
diverse as agriculture, finance, energy, insurance, transportation, 
real estate and outdoor recreation, is highly weather and seasonal-
climate sensitive. We support the establishment of the NOAA Climate 
Service as an economic imperative as private enterprise, public 
agencies, decisionmakers and society require seasonal and annual 
climate outlooks based on solid science.
    NOAA's support of environmental research and education via 
Cooperative Institutes and programs such as the Oceanic and Atmospheric 
Research's Sea Grant and the Center for Sponsored Coastal Ocean 
Research are critical to university research, education and outreach. 
Similarly, NOAA's role in understanding the oceans and coastal areas 
and oceanic resources under-gird coastal economies.
    We do raise a major concern, the need for increased and sustained 
support of satellite and in situ environmental observing systems. As 
reported in several prior and recent National Research Council studies, 
(Observing Weather and Climate from the Ground Up, a Nationwide Network 
of Networks, NRC, 2009), the needs are particularly acute for urbanized 
areas as well as mountain, ocean, and coastal regions. Vertical 
profiles of variables such as water vapor, winds, and temperatures are 
virtually nonexistent over land and are nonexistent over water. Over 
land, the primary recommendation is for the placement of vertical 
profilers, vertically pointing radars, acoustic sounders and lidars 
that collect vertical observations of wind and temperature from the 
ground up through the lower atmosphere.
    For the oceans, the ARGO network needs attention and support as it 
begins to seriously age. In the case of coastal ocean regions, 
estuaries and the Great Lakes, a key recommendation is for the build-
out and major enhancement of the existing NOAA National Data Buoy 
Center (NDBC) atmospheric and coastal ocean-observing network and the 
Joint Polar Satellite System. The data collected are critical to many 
other NOAA missions, such as understanding supply of larvae of 
commercially important fisheries and trajectories of oil spills. A 
national network of profilers would greatly improve skill scores for 
forecasts, particularly for forecasts of heavy precipitation events and 
atmospheric chemistry conditions. Likewise, an enhanced and expanded 
NDBC network would address NOAA's proposed development of an ecological 
forecasting capability and also will greatly improve the skill scores 
of forecasting ocean and coastal weather-related phenomena such as 
precipitation amounts, types and durations of gulf and Atlantic 
Nor'easters and west coast cyclones and rogue waves. Coastal ocean 
observing, via the existing NDBC network, is challenged to keep 
operations at present levels and cannot be enhanced with modern 
observing sensors without major capitalization.
                                  nasa
    In 2007, the NRC issued the report, ``Earth and Science 
Applications from Space: National Imperatives for the Next Decade and 
Beyond.'' The report found that between 2000 and 2009, funding for 
Earth Sciences (ES) had fallen substantially. ES research is absolutely 
critical to understanding climate change, such as the decline of 
Earth's ice sheets and the health of the global oceans. Thus, BOAC is 
heartened by the administration's request for NASA's expanded and 
enhanced science mission. Past investments in NASA's science mission 
have funded university research, resulting in the development of new 
instruments and technologies and in valuable advances in weather 
forecasting, climate projections, and understanding of ecosystems.
    Without the tools developed at NASA or with agency support, 
scientists and the Nation would have only a fragmentary picture of the 
interconnected functioning of the planet's oceans, atmosphere and land. 
The NASA data archive is a trove of environmental information that 
researchers have come to depend upon. Through its support for young 
scientists and graduate students, the NASA science mission supports 
innovation. BOAC supports the NASA budget and applauds the special 
attention that the White House has paid to the restoration of NASA 
science.
    We also hope that the Congress will fund NASA to lead in developing 
and implementing a scatterometer mission; with fast community access to 
the data, capability to distinguish between wind and rain and a higher 
orbit for coverage of Alaskan waters.
                                  nsf
    BOAC supports funding of NSF, which is critical to U.S. basic 
research. NSF supplies almost two-thirds of all Federal funding for 
university-based, fundamental research in the geosciences. GEO-
supported research increases our ability to understand, forecast, and 
respond to and prepare for environmental events and changes. Through 
facilities such as the Oceans Observatory Initiative, the Integrated 
Ocean Drilling Program, and NCAR-Wyoming supercomputer, NSF provides 
the academic community with advanced capabilities that it would not be 
able to afford if conducted through individual institutions.
About APLU
    APLU (formerly National Association for State Universities and Land 
Grant Colleges) is the Nation's oldest higher education association. 
Currently the association has more than 200 member institutions located 
in all 50 States. The Association's overriding mission is to support 
affordable, high-quality public education through efforts that enhance 
the capacity of member institutions to perform traditional and 
innovative roles in teaching, research and public service.
About BOAC
    BOAC's primary responsibility is to advance research and education 
in the oceanic/marine and atmospheric sciences through engaging 
scholars from its member institutions and through a robust Federal 
relations program. BOAC has approximately 200 regionally distributed 
members, including some of the Nation's most eminent research 
scientists, chief executive officers of universities, oceanic, 
atmospheric and hydrologic scientists, academic deans, and directors of 
Sea Grant programs.
    Thank you for taking time to review our recommendations.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) supports adequate 
funding for staffing antitrust enforcement and oversight at the 
Department of Justice (DOJ). For the DOJ Antitrust Division we support 
the President's fiscal year 2012 request of $166 million.
    APPA is the national service organization representing the 
interests of more than 2,000 municipal and other State and locally 
owned utilities in 49 States (all but Hawaii). Collectively, public 
power utilities deliver electricity to 1 of every 7 electric consumers 
(approximately 46 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.
    The DOJ Antitrust Division plays a critical role in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry has 
experienced an increase in mergers that could result in increased 
market power in certain regions. This development, coupled with the 
volatility and uncertainty continuing to occur in wholesale electricity 
markets run by regional transmission organizations, makes the oversight 
provided by DOJ more critical than ever.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2012 funding priority within the Commerce, Justice, 
Science, and Related Agencies Subcommittee's jurisdiction.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) wishes to submit the 
following testimony on the fiscal year 2012 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization in the world with more than 38,000 members. The 
ASM mission is to enhance the science of microbiology, to better 
understand life processes and to promote the application of this 
knowledge for improved health and environmental well-being.
    The ASM strongly supports the administration's fiscal year 2012 NSF 
budget proposal of nearly $7.8 billion, a 13 percent increase more than 
the fiscal year 2010 level of spending. The ASM thanks Members of the 
Congress for their support of the NSF and asks that the Congress 
continue to recognize NSF's contributions to U.S. research and 
development in science and engineering, by approving the President's 
proposed fiscal year 2012 budget for the agency.
    The ASM recognizes the many challenges ahead in the Federal 
budgeting process. However, the ASM maintains that strong investment in 
science and technology will continue to show substantial returns on 
Federal investments. Moreover, strong investments in science are 
essential for the long-term vigor and vitality of the U.S. economy.
    For more than 60 years, NSF funding has stimulated innovation in 
the United States by providing support to researchers across the 
breadth of scientific and engineering disciplines. Approximately 95 
percent of the agency's budget goes directly to support research, 
research infrastructure and STEM education (science, technology, 
engineering, and mathematics). Importantly, three-fourths of NSF 
funding is distributed each year to U.S. colleges, universities and 
academic consortia, through merit based, competitive grants that engage 
more than 210,000 people participating in funded research and education 
programs.
    The increased budget proposed for NSF programs will strengthen the 
American Competitiveness Initiative, the President's Plan for Science 
and Innovation and the NSF's 2011-2016 strategic plan that ``envisions 
a Nation that capitalizes on new concepts in science and engineering 
and provides global leadership in advancing research and education.'' 
The NSF plays a unique role in building U.S. R&D capabilities and 
global competitiveness at a time when support from other sectors is 
shrinking. The NSF is the Nation's largest source of non-medical 
academic research funding, providing 21 percent of the total Federal 
budget for basic research.
    The NSF sponsors fundamental and transformative research that 
supports new, economically critical disciplines, such as 
nanotechnology, genomics and information technology. For some vitally 
important fields, such as computer science and environmental science, 
NSF is the dominant funding source. NSF grants catalyze scientific 
inquiry by a diverse set of recipients ranging from more than 190 Nobel 
laureates to elementary school students participating in NSF sponsored 
STEM activities. The agency estimates that in fiscal year 2012 more 
than 302,000 people will be directly involved in NSF programs, 
including a large percentage of the Nation's female and 
underrepresented minority scientists and students.
                nsf directorate for biological sciences
    The ASM endorses the fiscal year 2012 request of $794.5 million for 
NSF's Directorate of Biological Sciences (BIO), roughly 11 percent more 
than the enacted fiscal year 2010 funding level. This request includes 
support for the Directorate's Emerging Frontiers initiative, which 
recognizes high-risk, cutting-edge research with the potential to 
transform U.S. science and technology. Through Emerging Frontiers and 
its core BIO programs, NSF provides about 68 percent of Federal funding 
for basic research in life sciences at the Nation's academic 
institutions.
    Understanding living organisms and systems directly contributes to 
improving our economy, agriculture, environment and public health. 
Recent National Research Council reports have urged creative 
applications of ``the new biology'' to solve recalcitrant problems, 
such as balancing food security with clean energy needs and 
environmental impacts. BIO supported research is uniquely positioned to 
provide answers, and to address national priorities, including climate 
science, biotechnology and sustainable energy, as well as control of 
infectious diseases. BIO also maintains a capacity to respond rapidly 
to urgent research needs as they arise. In the past year, for example, 
NSF provided $20 million for critically needed research on the 
biological impacts of the Gulf of Mexico oil spill. The fiscal year 
2012 budget request also highlights the Directorate's research 
portfolio within the NSF wide Science, Engineering and Education for 
Sustainability (SEES) initiative, particularly clean energy projects 
and cross cutting projects within the research at the interface of the 
Biological, Mathematical and Physical Sciences (BioMaPS) program.
    The fiscal year 2012 BIO appropriation will help realize two of 
NSF's strategic goals, ``Transform the Frontiers'' and ``Innovate for 
Society.'' To illustrate, BioMaPS research areas will include advanced 
manufacturing techniques related to biosensors; new nano-scale 
technologies that collect data in real time; and the use of chemistry 
and engineering to build cellular systems for more efficient 
computational networks. Also in fiscal year 2012, BIO will begin 
operations of its new National Ecological Observatory Network (NEON), 
which will collect data across the United States on the impacts of 
climate change, land use change and invasive species. NEON will be the 
first observatory of its kind, able to forecast ecological change 
nationwide over multiple decades.
    Investments in the BIO Directorate consistently advance scientific 
knowledge with potential societal or economic benefits. BIO supported 
discoveries reported in the past year include:
  --soil microbes release less than expected carbon dioxide into the 
        atmosphere during climate warming;
  --bacteria communicate with chemical signals and when a critical 
        number of signaling molecules are detected on the bacteria cell 
        surface (quorum sensing), the collective bacteria coordinate 
        their attack on an infected host (suggesting new drug 
        regimens); and
  --certain methane-metabolizing bacteria can leech copper out of the 
        environment, thereby both cleaning up toxic waste and breaking 
        down the greenhouse gas methane.
    The NSF contributes to the fields of medical, agricultural and 
environmental microbiology, which are important to public health, food 
security, biotechnology and much more. An example is the Ecology of 
Infectious Disease (EID) initiative managed jointly by NSF and NIH, 
which supports research that combines ecological and biomedical methods 
to study interactions between human caused changes in the environment 
and the emergence and transmission of infectious diseases. The most 
recently funded EID projects include livestock movement in Central 
Africa as related to transmission of foot and mouth disease virus, how 
climate and human behavior influence the spread of dengue fever-
carrying mosquitoes, and biological and environmental factors that 
affect the spread of wheat stripe rust disease. In the past year, EID-
supported investigators reported results from studies that examined, 
for instance:
  --the cross-species transmission of infectious diseases using a 
        rabies model; and
  -- floating aggregates of organic material (called ``marine snow'') 
        as protective transports for pathogenic microorganisms, 
        affecting water sampling outcomes and the transmission of 
        waterborne diseases.
    Annual NSF investments deliver a steady stream of discoveries that 
help fight costly infectious diseases of humans, other animals, and 
plants. Recent NSF supported research findings include:
  --Stress-response genes in tuberculosis bacteria switch the pathogen 
        into its dormant state within an infected host, increasing 
        resistance to antibiotics and host immunity.
  --The corkscrew-shape of the bacterium Helicobacter pylori, linked to 
        ulcers and gastric cancer, is specifically tied to the 
        microbe's ability to colonize the acid-laden stomach.
  --Microbial pathogens can hijack nutrient pathways in rice plants by 
        using previously undiscovered plant cell pores that transport 
        sugar out of the plant. Other researchers found a genetic 
        mutation that allows plants to better withstand drought.
  --A nanotechnology based diagnostic test for Mycoplasma pneumoniae 
        can diagnose this common type of pneumonia within minutes, 
        versus current tests that take several days.
  --An international team will use a new technology called MHC 
        tetramers to develop novel vaccines against cattle diseases 
        that cause estimated annual losses of $40 billion in sub-
        Saharan Africa, to quickly screen potential vaccines in the 
        laboratory.
    nsf directorates for geosciences, engineering, mathematical and 
                           physical sciences
    ASM supports the administration's fiscal year 2012 proposed NSF 
funding for research activities at the Engineering Directorate (ENG), 
the Geosciences Directorate (GEO) and the Mathematical and Physical 
Sciences Directorate (MPS).
    The ENG Directorate recognizes the centrality of engineering 
principles and multidisciplinary research to national priorities, 
including sustainability, the U.S. cyberinfrastructure, next-generation 
manufacturing practices and technologies that mitigate environmental 
threats. ENG programs in clean energy and advanced manufacturing will 
also contribute to the fiscal year 2012 activities in the NSF wide 
BioMaPS investment. Within the ENG request, the Division of Chemical, 
Bioengineering, Environmental and Transport Systems (CBET) will support 
sustainability research and education related to climate, water and 
energy as part of the agency wide SEES initiative.
    Increasingly, biology and engineering are collaborating to find 
solutions to societal, environmental, and economic challenges. Recent 
NSF funded examples are:
  --computer modeling to predict how bacteria would respond to 
        different drug doses and which doses are most effective in 
        patients, to radically shorten drug development; and
  --potential drugs against HIV identified by combining optimization 
        theory from mathematics with computational biology, with a 
        formula based on statistical thermodynamics that predicts which 
        drug structure would be most effective.
    The Geosciences Directorate provides about 68 percent of Federal 
support for basic geosciences at the Nation's academic institutions, 
and is clearly a decisive player in research and education often 
ignored by other funding sources. GEO funds studies of the atmosphere 
and the oceans that increase our understanding of climate change, 
improve water quality and offer potential prediction of natural 
disasters, such as drought and earthquakes. Major fiscal year 2012 GEO 
investments will include continued participation in the SEES 
initiative, with the Division of Earth Sciences (EAR) leading GEO 
efforts toward clean energy and contributing to sustainability research 
networks. Current EAR funding opportunities also include paleobiology 
studies of past changes in the Earth's environments that might inform 
present-day challenges. In the past year, as examples, EAR supported 
studies concluded that cyanobacteria producing oxygen helped create a 
breathable atmosphere on Earth some 2.5 billion years ago; while 
comparisons of modern microbial mats with fossilized bacterial colonies 
provide clues to ancient cell biology.
    Many of today's innovations in science and technology are powered 
by increasingly complex mathematical and statistical capabilities. The 
modest fiscal year 2012 increase proposed, however, for the MPS 
Directorate is barely adequate to sustain MPS efforts that reach across 
NSF, for example, SEES and BioMaPS programs as well as the new 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21). There have been extraordinary changes in how science is done: 
explosions of data, the mandate for faster and larger networks among 
researchers, rapidly advancing technologies, many of which rely upon 
MPS funded discoveries. NSF provides more than 60 percent of Federal 
support for basic mathematics at U.S. colleges and universities; in 
certain specialties, the percentage is much higher. In addition, MPS 
frequently coordinates with other NSF directorates in activities such 
as the quest for renewable fuels, biosensors, and advanced imaging. MPS 
and BIO recently issued a joint solicitation for grant proposals 
involving collaborations among investigators from the biological, 
mathematical and physical sciences that ``foster new interactions that 
span interfaces between MPS and BIO.''
                               conclusion
    The ASM recommends that the Congress approve the administration's 
fiscal year 2012 budget for the NSF which is the only Federal Agency 
that supports all fields of science and engineering. As the principal 
sponsor of research and education in multiple disciplines, NSF 
investment undoubtedly catalyzes innovation essential our society and 
economy. The agency's focus on high-risk, interdisciplinary research 
clearly traverses the frontiers of discovery. NSF programs, such as the 
new Integrated NSF Support Promoting Interdisciplinary Research and 
Education (INSPIRE), uniquely encourage emerging fields, including 
synthetic biology. For decades, the NSF has helped train the next 
generation of scientists, engineers and mathematicians, and partnered 
industry and academia to generate a long list of new technologies and 
patented products. Congressional approval of the fiscal year 2012 
budget would sustain the NSF's many contributions to the Nation's 
scientific achievements.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this testimony for the official record to support the requested 
level of $7.767 billion for the National Science Foundation (NSF) for 
fiscal year 2012. ASPB and its members recognize the difficult fiscal 
environment our Nation faces, but believe that investments in 
scientific research will be a critical step toward economic recovery.
    ASPB would like to thank the subcommittee for its consideration of 
this testimony and for its strong support for the research mission of 
the NSF.
    Our testimony will discuss:
  --Plant biology research as a foundation for addressing food, fuel, 
        environment, and health concerns;
  --The rationale for robust funding for the National Science 
        Foundation to maintain a well-proportioned science portfolio 
        with support for all core science disciplines, including 
        biology; and
  --The rationale for continued support for NSF education and workforce 
        development programs that provide support for the future 
        science and technical expertise critical to America's 
        competitiveness.
    The ASPB is an organization of approximately 5,000 professional 
plant biology researchers, educators, graduate students, and 
postdoctoral scientists with members in all 50 States and throughout 
the world. A strong voice for the global plant science community, our 
mission--achieved through work in the realms of research, education, 
and public policy--is to promote the growth and development of plant 
biology, to encourage and communicate research in plant biology, and to 
promote the interests and growth of plant scientists in general.
    food, fuel, environment, and health--plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of energy security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of biological principles that underpin improvements in the health and 
nutrition of all Americans.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, with the increase in plant 
genome sequencing and functional genomics supported by the NSF, plant 
biologists are using computer science applications to make tremendous 
strides in understanding complex biological systems ranging from single 
cells to entire ecosystems. Understanding how plants work will 
ultimately result in better and more productive crops, new sources of 
fuel, and the development of better medicines to treat diseases like 
cancer.
    Despite the fact that basic plant biology research--the kind of 
research funded by the NSF--underpins so many vital practical 
considerations, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact plants have on our economy and in addressing some of the 
Nation's most urgent challenges such as food and energy security.
                       robust funding for the nsf
    The ASPB encourages the subcommittee to fund the NSF at robust 
levels that would keep the NSF's budget on a doubling path over the 
next several years.
    The fiscal year 2012 NSF budget request would fund the NSF at 
$7.767 billion, keeping the NSF budget on a path for doubling. ASPB 
supports this request and encourages proportional funding increases 
across all of the science disciplines supported by the NSF. As 
scientific research becomes increasingly interdisciplinary with 
permeable boundaries, a diverse portfolio at the NSF is needed to 
maintain transformational research and innovation.
    NSF funding for plant biology specifically enables the scientific 
community to address cross-cutting research questions that could 
ultimately solve grand challenges related to a sustainable food supply, 
energy security, and improved health. The idea that support for 
research in one area will impact a variety of applications is reflected 
in the National Research Council's report ``A New Biology for the 21st 
Century''.
    The NSF Directorate for Biological Sciences is a critical source of 
funding for scientific research, providing 68 percent of the Federal 
support for nonmedical basic life sciences research at U.S. academic 
institutions. The Biological Sciences Directorate supports research 
ranging from the molecular and cellular levels to the organismal, 
ecosystem, and even biosphere levels. These investments continue to 
have significant pay offs, both in terms of the knowledge directly 
generated and in deepening collaborations and fostering innovation 
among communities of scientists.
    The Biological Sciences Directorate's Plant Genome Research Program 
(PGRP) is an excellent example of a high-impact program, which has laid 
a strong scientific research foundation for understanding plant 
genomics as it relates to energy (biofuels), health (nutrition and 
functional foods), agriculture (impact of changing climates on 
agronomic ecosystems), and the environment (plants' roles as primary 
producers in ecosystems). The ASPB asks that the PGRP be restored as a 
separate funding line within the NSF budget, as in years past, and that 
the PGRP have sustained funding growth over multiple years to address 
21st century challenges. For fiscal year 2012 ASPB asks that PGRP be 
funded at the highest possible level.
    Without significant and increased support for the Biological 
Sciences Directorate and the NSF as a whole, promising fundamental 
research discoveries will be delayed and vital collaborations around 
the edges of scientific disciplines will be postponed, thus limiting 
the ability to respond to the pressing scientific problems that exist 
today and the new challenges on the horizon. Addressing these 
scientific priorities also helps improve the competitive position of 
the United States in a global marketplace.
 continued support for nsf education and workforce development programs
    The NSF is a major source of funding for the education and training 
of the American scientific workforce and for understanding how 
educational innovations can be most effectively implemented. The NSF's 
education portfolio impacts students at all levels, including K-12, 
undergraduate, graduate, and postgraduate. Importantly, the Foundation 
also offers programs focused on outreach to and engagement of 
underrepresented groups and of the general public.
    The Integrative Graduate Education and Research Traineeship (IGERT) 
program is just one example of NSF's commitment to education. IGERT is 
successful in fostering the development of novel programs that provide 
multidisciplinary graduate training. As discussed above, it is at the 
intersections of traditional disciplines that the greatest 
opportunities for scientific advancement can be found. The ASPB 
encourages expansion of the IGERT program in order to foster the 
development of a greater number of innovative science leaders for the 
future.
    Furthermore, ASPB urges the subcommittee to expand NSF's fellowship 
and career development programs--such as the Postdoctoral Research 
Fellowships in Biology, the Graduate Research Fellowship (GRF) and the 
Faculty Early Career Development (CAREER) programs--and, thereby, to 
provide continuity in funding opportunities for the country's most 
promising early career scientists. Additionally, such continuity and 
the broader availability of prestigious and well-supported fellowships 
may help retain underrepresented groups in the science, technology, 
engineering, and mathematics (STEM) fields. ASPB further encourages the 
NSF to develop ``transition'' awards that will support the most 
promising scientists in their transition from postdoctoral research to 
full-time, independent, tenure-track positions in America's 
universities. The NSF might model such awards after those offered by 
the National Institutes of Health and initially championed by private 
philanthropies such as the Burroughs Wellcome Fund.
    ASPB urges the NSF to further develop programs aimed at increasing 
the diversity of the scientific workforce by leveraging professional 
scientific societies' commitment to provide a professional home for 
scientists throughout their education and careers and to help promote 
and sustain broad participation in the sciences. Discreet focused 
training and infrastructure support programs for Hispanic Serving 
Institutions, Historically Black Colleges and Universities, and Tribal 
Colleges and Universities remain vitally important, as they foster a 
scientific workforce that reflects the U.S. population. These 
institutions are key producers of members of the STEM workforce; 
therefore ASPB recommends that distinct funding amounts be specified 
for Hispanic serving Institutions, Historically Black Colleges and 
Universities, and Tribal Colleges and Universities.
    ASPB urges support for education research that enhances our 
understanding of how educational innovations can be sustainably 
implemented most effectively in a variety of settings. NSF programs 
such as Transforming Undergraduate Education in STEM, Discovery 
Research K-12, and Research and Evaluation on Education in Science and 
Education provide opportunities to expand NSF's research and evaluation 
efforts to address scale-up and sustainability. Increasingly, the 
challenge is not only to understand what works but to determine how it 
can be best put into practice. ASPB encourages continued support for 
education research programs within NSF's Education and Human Resources 
portfolio with a focus on understanding how previous investments in 
educational strategies can be made most effective. ASPB also encourages 
support for implementation of the recommendations made in the recent 
NSF-sponsored report on ``Vision and Change in Undergraduate Biology 
Education: A Call to Action''.
    The National Research Council report A New Biology for the 21st 
Century has been cited numerous times in its first year in publication 
as a model of societal needs and describes our continuing need to press 
ahead. These challenges will not be resolved in a year, an 
administration, or a generation, but will take continued attention and 
investment at Federal research agencies, such as the NSF, over decades.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
us if we can be of any assistance in the future.
                                 ______
                                 
         Prepared Statement of the American Society for Quality
    Ms. Chairwoman and distinguished members of this subcommittee, my 
name is David Spong. I represent the Foundation for the Malcolm 
Baldrige National Quality Award, Inc., and I am a lifetime member as 
well as past chair of the Board of this Foundation. I am also the 
president of the American Society for Quality (ASQ) and would like to 
make you aware of a program that may seem small in size and funding but 
is very large in the way it affects our country, its citizens, 
companies, customers, and right now maybe most importantly, jobs.
    The Baldrige Performance Excellence Program is currently funded at 
$9.6 million annually based on the enacted fiscal year 2010 budget. 
President Obama's fiscal year 2012 budget recommends reducing funding 
for the program by $2.2 million from his fiscal year 2011 proposed 
level of $9.9 million or $1.9 million less than the fiscal year 2010 
enacted level. He further recommends a study during 2012 to explore 
alternative funding for the program. I am hopeful that the Congress 
doesn't make the same mistake in its budget. I will stress today how 
well the Baldrige program addresses the urgent need to make U.S. 
organizations stronger at the lowest-possible cost as well as the 
extent to which taxpayer's dollars are leveraged toward that goal in a 
way that is truly exemplary. So, my goal is to impress upon you that 
the Baldrige Program's funding should not be cut, and it should 
continue to be managed by NIST.
    The Baldrige Performance Excellence Program was established in 1987 
as a result of Public Law 100-107 with the purpose of strengthening 
U.S. competitiveness. To show the importance of strengthening our 
competitiveness, the Baldrige Program was set up within NIST, an agency 
of the Department of Commerce, which, for more than a century, has 
helped lay the foundation for innovation, economic development, and 
quality of life in America. Although the Baldrige office guides the 
overall program, the program involves a public-private partnership 
where significant contributions for the program come from the 
Foundation for the Malcolm Baldrige National Quality Award, leveraging 
current Government funding.
    The Federal funding is in fact, only a small measure of the total 
amount of hours, funding, and value contributing to the Program. Yet 
the Government support is significant as it provides the integrity, 
consistency and continuity the program needs and without an efficient 
and effectively managed program, the entire stakeholder system would 
collapse.
    As our country continues to discuss ways to meet the economic 
challenges and global competition facing our Nation and the necessity 
to make some concessions to help solve our national debt and deficit 
problems, we already have a program that benefits the United States by 
driving economic development through increasing business productivity, 
workforce efficiency, and job creation.
    The Baldrige Program was established to promote the awareness of 
performance excellence as an important element in competitiveness. It 
was envisioned as a standard of excellence that would help U.S. 
companies achieve world-class quality. From the outset, the Congress 
anticipated how applicable the Baldrige concepts would be for 
organizations beyond the business sector, and it since has expanded the 
Award to include the education, healthcare, and nonprofit sectors. The 
reach of the Program now expands to all sectors of the U.S. economy 
including Government, which I emphasize. I know our Government could 
improve and work more efficiently by using the Baldrige criteria. 
Baldrige is now accepted as a proven methodology to manage all types of 
organizations.
    It's the only U.S. public-private partnership dedicated to 
improving U.S. organizations so they can compete globally. It educates 
business, education, healthcare, and nonprofit organizations on best 
practices in performance excellence. In fact, studies by NIST, 
universities, business organizations, and the Government Accountability 
Office have found that the benefits to organizations using performance 
excellence approaches, such as the Baldrige Criteria, include increased 
productivity, improved profitability and competitiveness, and satisfied 
employees and customers. Award recipients have found that by applying 
the Baldrige Criteria they created a culture for change and excellence 
within their organizations that ultimately improved customer service, 
workforce morale, increased growth, profitability, and 
institutionalized a process for continuous learning and improvement.
    There is a misconception that the Baldrige Performance Excellence 
Program is primarily an awards program. While the Baldrige Performance 
Excellence Program is widely known for managing the Malcolm Baldrige 
National Quality Award, its main mission is to provide education and 
global leadership in promoting performance excellence. In fact, the 
awards are only the culmination of the evaluation process that scores 
of organizations undertake each year, both at the national level 
through the Baldrige Performance Excellence Program and through many 
nonfunded parallel State and local programs. These evaluations are 
supported by the efforts of thousands of volunteer experts who help 
these organizations improve their performance and competitiveness. It 
is estimated that these volunteers, leaders from all sectors or our 
economy, contribute more than 120 hours each annually, collectively 
149,000 hours, at a conservative estimate of value at $8.8 million, to 
improving U.S. organizations, as an act of patriotic service to their 
country. So, the Award may be the most visible part of the Program, but 
the intention was not to simply give out awards, but to establish role 
model organizations that would share their successful strategies with 
other U.S. businesses.
    The Baldrige is far more than just an awards program; it's a 
culture of performance excellence. While the Program has touched 
hundreds of thousands of American citizens in overwhelmingly beneficial 
ways, it directly provides a significant economic payback to America 
far in excess of the underlying cost of the program. An October 2001 
study of the economic impact of the Baldrige Program, prepared for NIST 
by economists Albert N. Link and John T. Scott, conservatively 
estimated the net private benefits associated with the Program to the 
economy as a whole at $24.65 billion. When compared to the social costs 
of the Program of $119 million, the Baldrige Program's social benefit-
to-cost ratio is 207-to-1 (Economic Evaluation of the Baldrige National 
Quality Program). In another 2004 study, ``Building on Baldrige: 
American Quality for the 21st Century'' it states, ``more than any 
other program, the Baldrige Award is responsible for making quality a 
national priority and disseminating best practices across the United 
States.'' The Baldrige Foundation has commissioned a reprise of the 
social benefit-to-cost ratio study this year, and it is expected that 
the ROI will be even significantly higher since the last time the study 
was done.
    The Baldrige Program is a very strong example of an appropriate use 
of taxpayer dollars, and has a long-term track record of excellent 
return on taxpayer investment for the greater good of our Nation. The 
Foundation would not be financially capable of achieving the goals and 
mission of the effort. Currently, the Foundation leverages the total 
program funding by providing to the NIST and the Federal Government 
funding on average of $1.2 million to $1.5 million annually for the 
training of examiners, printing of the criteria, the award crystals, 
and award ceremony. The Foundation cannot financially support the day-
to-day staffing required to administer all the educational benefits 
this program provides and still maintain the integrity and patriotic 
element of the program if it were privatized.
    Beyond this, countless other organizations use the Baldrige 
Performance Excellence Criteria as a framework for improving their 
operations. The program has been emulated by numerous national award 
programs throughout the world, which use the Baldrige Criteria for 
their own national quality programs. Criteria are distributed at the 
rate of more than 2 million downloads per year on the Baldrige Program 
Web site. With that in mind, the Government is contributing just $5 per 
user of the Criteria. With the network of State and local programs 
reaching thousands of organizations at the local level and the Award 
recipients sharing their best practices all across the country, the 
small Government investment is leveraged into a national network that 
helps U.S. organizations improve performance, increase innovation, and 
ensure sustainability.
    Baldrige recipients serve as model organizations from which 
everyone else can learn and emulate. Through Baldrige, ``best 
practice'' becomes something more than ``I like your idea.'' It becomes 
documented, data driven, evidence-based examples of performance 
excellence. These examples reach every sector of the economy--
manufacturing, small business, service, healthcare, education, and the 
nonprofit sector (including public service.)
    The Malcolm Baldrige National Quality Award and the Baldrige Award 
recipients constitute the visible centerpiece of the Baldrige Program. 
However, the Program's enabling legislation designates it as an 
outreach and education program designed to encourage performance 
excellence not only in applicants for the Award but also in a much 
broader base of organizations that do not apply for the Award.
    The Alliance for Performance Excellence, a 501(c)(3) nonprofit that 
represents 33 Baldrige-based State quality award programs nationwide, 
strongly supports the mission and continuity of the Baldrige 
Performance Excellence Program (BPEP) program. The number of State and 
local, regional, and sector-specific award programs has grown 
tremendously. In 1991, only eight State and local award programs 
existed. Today there are 37 State and local, regional, and sector-
specific quality award programs. These programs have been especially 
successful in reaching out to locally based small and medium-size 
organizations. The State and local programs have become a feeder system 
to the Baldrige Award. In the last 14 years, 45 out of the 60 Baldrige 
Award recipients also have won their State's highest-level quality 
award. The State and local programs greatly extend the reach and impact 
of the Baldrige Program. State and local programs have distributed tens 
of thousands of paper and electronic copies of the Baldrige Criteria, 
including 20,788 paper copies in 2009 alone. The criteria at the State 
level are Baldrige-based, with most being word-for-word copies. This 
has helped the Baldrige Performance Excellence Program reach a 
widespread audience.
    In addition to the State and local network, an international 
network has evolved and as of January 2010, there were 95 international 
quality/performance excellence awards (besides the Baldrige Program), 
most of which either use the Baldrige Criteria or some derivative of 
the Criteria.
    In keeping with the continuous improvement philosophy of the 
Baldrige Program, the Criteria are updated every 2 years through a 
consensus process to stay at the leading edge of validated management 
practice. The Criteria have evolved significantly over time to help 
organizations address a dynamic environment, focus on strategy-driven 
performance, and address concerns about customer and workforce 
engagement, governance and ethics, societal responsibilities, and long-
term organizational sustainability. The Criteria have continually 
progressed toward a comprehensive, integrated systems perspective of 
organizational performance management.
    It would send an unfortunate and misguided signal if we eliminated 
or reduced a program that our Government has supported for over two 
decades as the model in performance excellence. Certainly this is not 
the right message to our U.S. business organizations, educational 
institutions, healthcare organizations, and nonprofit/government 
agencies that have learned firsthand how beneficial the Program is. 
And, with the popularity the Program has gained globally, it would not 
be a positive message to other countries.
    I respectfully urge that you vote to invest in the Baldrige 
Program. The net return on the annual investment in the Program cannot 
only be measured in positive payback dollars, but in the sustainability 
of organizational performance excellence. Once you review the facts, 
I'm sure you will agree that the $10 million appropriation for the 
program is one of the best investments taxpayers can make to promote 
economic growth, improve America's competitiveness, and contribute to 
the goal of reducing our national debt and deficit.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    The Animal Welfare Institute very much appreciates this opportunity 
to offer testimony as the subcommittee considers fiscal year 2012 
funding priorities under the Commerce, Justice, Science, and Related 
Agencies Appropriations bill. This statement addresses activities under 
the Office of Justice Programs (OJP) of the Department of Justice 
(DOJ).
    We commend the DOJ's OJP for awarding, through its Bureau of 
Justice Assistance (BJA), a grant to the Association of Prosecuting 
Attorneys (APA) for its new program of training, technical support, and 
other assistance for prosecutors, members of the law enforcement 
community, and other involved parties to enhance the prosecution of 
animal abuse and animal fighting crimes. This is a very exciting 
development and we are proud to support APA in this new effort and to 
have been active participants in the two training conferences it has 
run so far. We respectfully urge the subcommittee to continue funding 
the BJA's National Animal Cruelty and Fighting Initiative and to 
encourage the Department's ongoing interest in addressing animal-
related crimes.
    The connection between animal abuse and other forms of violence has 
been firmly established through experience and through scientific 
studies. Among the most well-documented relationships is the one that 
exists between animal cruelty and domestic violence, child abuse, and 
elder abuse. For example, up to 71 percent of victims entering domestic 
violence shelters have reported that their abusers threatened, injured, 
or killed the family pet; batterers do this to control, intimidate, and 
retaliate against their victims. In just one recent case in Florida, a 
son brutally beat his elderly mother's dog in order to intimidate and 
manipulate her. Batterers threaten, harm, or kill their children's pets 
in order to coerce them into allowing sexual abuse or to force them 
into silence about abuse.\1\
---------------------------------------------------------------------------
    \1\ The study ``I'll only help you if you have two legs'', or Why 
human services professionals should pay attention to cases involving 
cruelty to animals by Loar (1999), as cited on the Web site of the 
National Coalition Against Domestic Violence (www.ncadv.org).
---------------------------------------------------------------------------
    It has also been shown that criminals and troubled youth have high 
rates of animal cruelty during their childhoods, perpetrators were 
often victims of child abuse themselves,\2\ and animal abusers move on 
to other crimes:
---------------------------------------------------------------------------
    \2\ ``Woman's Best Friend: Pet Abuse and the Role of Companion 
Animals in the Lives of Battered Women,'' by Flynn (2000), as cited at 
www.ncadv.org.
---------------------------------------------------------------------------
  --In 1997, the Massachusetts Society for the Prevention of Cruelty to 
        Animals (MSPCA) released the results of a review of animal 
        cruelty cases it had prosecuted between 1975 and 1996. Seventy 
        percent of the individuals involved in those cases had been 
        involved in other crimes, and animal abusers were five times 
        more likely to commit a violent offense against other people.
  --Researchers have found that pet abuse is 1 of 4 significant 
        predictors of intimate partner violence.\3\
---------------------------------------------------------------------------
    \3\ Walton-Moss, et al, ``Risk factors for intimate partner 
violence and associated injury among urban women''. Journal of 
Community Health, 30(5), 377-389 (2005).
---------------------------------------------------------------------------
  --In a 2010 study commissioned by the American Society for the 
        Prevention of Cruelty to Animals (ASPCA),\4\ 78 percent of the 
        law enforcement officers surveyed ``believe that animal abusers 
        are more likely to be involved in interpersonal violence and 
        other violent crimes.''
---------------------------------------------------------------------------
    \4\ ``Public and Professional Perspectives on Animal Cruelty'', 
December 2010 (www.aspca.org).
---------------------------------------------------------------------------
    Another all-too-common connection is the one between animal 
fighting (which includes both dog fighting and cockfighting) and gangs, 
drugs, illegal guns, and other offenses. The Animal Legal and 
Historical Center at the Michigan State University College of Law 
describes dog fighting in these stark terms:

    ``The notion that dogfighting is simply an animal welfare issue is 
clearly erroneous. Until the past decade, few law enforcement officials 
or government agencies understood the scope or gravity of dogfighting. 
As these departments have become more educated about the epidemic of 
dogfighting and its nexus with gang activity, drug distribution rings, 
and gambling networks, many have implemented well-designed, 
sophisticated task forces. The magnitude of criminal activity 
concurrently taking place at the average dogfight is of such a scope as 
to warrant the involvement of a wide range of agencies, including 
local, regional, and Federal law enforcement agencies and their 
specialized divisions such as organized crime units, SWAT teams, and 
vice squads, as well as animal control agencies and child protective 
services.''

    It is also worth noting that, as part of its Initiative, BJA will 
be publishing a monograph that will address prosecutors' interest in 
animal fighting, and will report the results of two End Dogfighting 
programs run by the Humane Society of the United States. Based on the 
premise that the early identification of and intervention in animal 
fighting can help prosecutors and law enforcement reduce crime and 
interrupt the cycle of violence, the End Dogfighting program seeks to 
identify and reduce animal fighting and gang influences in at-risk 
communities by fostering more positive relationships between at-risk 
youth (many of whom are already gang members) and their dogs.
    Animal fighting, whether involving dogs, roosters, or other 
animals, is barbaric and is a violent crime in the truest sense of the 
term. It causes immense suffering to countless numbers of innocent 
animals and its presence threatens the safety of the entire community. 
It is illegal under both State and Federal law, so it well serves the 
entire community for law enforcement to have the most powerful tools 
possible to eradicate it.
    At the same time, it must be remembered that animal abuse is more 
than a ``gateway'' behavior. It is also a crime in its own right. It is 
a crime everywhere in the United States, and certain egregious acts are 
felonies in 46 States and the District of Columbia. But not all laws 
are created equal; activity that constitutes a felony in one State may 
still only be a misdemeanor in another. In some States, cruelty rises 
to a felony only upon a second or third offense, or only if the animal 
dies; if he survives, no matter how severe his injuries, it is still a 
misdemeanor.
    The key to offering animals the most protection possible, however 
weak or strong the statute, lies in vigorous enforcement of the law and 
prosecution of violators. While there are many in law enforcement and 
the courts who recognize animal abuse for the violent crime that it is 
and act accordingly, there are those who do not take it seriously, 
treating it as no more urgent than a parking infraction. Others 
genuinely want to act decisively but may lack the necessary resources, 
support, or expertise. Moreover, enforcement can be complicated by the 
laws themselves--weak laws are bad enough, but additional problems may 
arise from confusion over jurisdiction or limitations in coverage--or 
by pressure to dispose of cases quickly.
    This is where BJA's National Animal Cruelty and Animal Fighting 
Initiative comes in. It recognizes that animal cruelty and animal 
fighting crimes not only victimize some of the most innocent and 
vulnerable members of society, but also create a culture of violence--
and a cadre of violent offenders--that affects children, families in 
general, and society at large. Therefore, preventing and prosecuting 
these crimes will benefit not only the animals, but the entire 
community as well by reducing the overall level of violence.
    In order to support and enhance the effectiveness of prosecutors in 
their efforts to achieve this goal, the Association of Prosecuting 
Attorneys, with BJA's support, is implementing a program to provide the 
following:
  --training conferences and webinars;
  --publications;
  --technical assistance; and
  --online resources, including:
    --a library of briefs;
    --motions;
    --search warrants;
    --legal memos; and
    --State-by-State case law.
    It has assembled an advisory council composed of prosecutors, 
investigators, law enforcement, veterinarians, psychologists, members 
of the animal protection and domestic violence communities, and others, 
to identify issues, resource needs, and strategies. It brings these 
same professionals together to provide its multidisciplinary training, 
and also calls on them individually for topic-specific Web-based 
training and materials.
    All of this is directed toward two audiences: those who still need 
to be convinced of the importance of preventing and punishing animal-
related crimes, for the sake both of the animals and of the larger 
community; and those who are dedicated to bringing strong and effective 
cases against animal abusers but may need assistance to do so.
    OJP/BJA showed great vision in recognizing that by identifying 
precursor crimes, such as animal cruelty and animal fighting, and 
ensuring adequate adjudication of such cases, our criminal justice 
system can reduce the incidence of family and community violence and 
change the paths of potential future violent offenders. The National 
Animal Cruelty and Animal Fighting Initiative sends a very strong 
message to prosecutors and law enforcement that crimes involving 
animals are to be taken seriously and pursued vigorously, and offenders 
must be held accountable.
                                 ______
                                 
    Letter From Captain Randy Boggs, For-hire Recreational Fisherman
                                                    April 14, 2011.
Hon. Barbara A. Mikulski,
Chairman, Senate Appropriations Subcommittee on Commerce, Justice, 
        Science, and Related Agencies, Washington, DC.
Hon. Kay Bailey Hutchison,
Ranking Member, Senate Appropriations Subcommittee on Commerce, 
        Justice, Science, and Related Agencies, Washington, DC.

RE: National Oceanic and Atmospheric Administration's fiscal year 2012 
        budget request
    Dear Chairman Mikulski and Ranking Member Hutchison: My name is 
Randy Wayne Boggs and I appreciate the opportunity to voice support for 
the National Oceanic and Atmospheric Administration's (NOAA) request 
for $54 million in funding for the National Catch Share Program in 
fiscal year 2012. I also oppose any effort to prohibit funding for new 
catch shares in the United States.
    As you may know, the for-hire industry, including charter and head 
boats, provides access to millions of individual anglers in the Gulf of 
Mexico every year. I own five charter boats of which I personally 
operate one. I also manage the sale of fuel, bait, and ice at SanRoc 
Cay Marina in Orange Beach, Alabama for the recreational and charter 
for hire boats. Three of our vessels are engaged in party boat/head 
boat type fishing; this is where we place an individual or a small 
group together on the boat to go fishing. Since it is a large volume of 
people, we provide access to the fishery for a very modest fee.
    In the past I have served on ad hoc and advisory panels to the Gulf 
of Mexico Fishery Management Council. I have also served as vice 
president of the Orange Beach Fishing Association, and I hold three 
college degrees. I participate in the rulemaking process for Gulf of 
Mexico fisheries as much as possible.
    Due to the Deepwater Horizon Oil Spill in April 2010 we are faced 
with an uncertain future. Millions of gallons of crude oil were 
released into the Gulf of Mexico in the summer months of 2010 when the 
reef fish that form the majority of our catch were spawning. It is 
unknown how the oil spill will effect or has affected the spawn of fish 
in the Gulf of Mexico. As a fisherman this is a great concern to me and 
many others. We are already facing the shortest fishing season on 
record.
    We have seen the fishing industry suffer on the Atlantic coast with 
multiple closures for the recreational and charter for hire sectors. At 
the urging of the Council we are trying to become more accountable in 
our fishery. We have been working with the Council to develop a plan 
for the charter for-hire and head boat sectors so that we will not have 
to participate in a derby style fishery where we fish 52 days 
regardless of weather, fatigue and at less than a premium price for the 
access to a premium fishery.
    We are afraid if we continue in this derby fishery our seasons and 
bag limits will become so restrictive that we will be unable to 
continue as professional fishermen and we will have to seek some other 
way to make a living.
    We have developed a plan for the head boats and are asking the 
Council for a voluntary, pilot Individual Fishing Quota (IFQ) Program, 
a type of catch share, which we have seen work in the commercial red 
snapper fishing fleet in the gulf. The price they receive for their 
fish has almost doubled. They have the freedom to manage their fish and 
fishery, work when sea conditions are safe and in a manner that 
promotes sustainable fishing for generations to come.
    It has taken many years to get these programs on the agenda with 
the Council and now with the budget crises we face an even more 
uncertain future if the administrations fiscal year 2012 catch share 
budget is not passed. The head boats certainly would not mind absorbing 
a portion of the cost of these programs, but if the administration has 
no money to monitor the programs all of our work would be in vain.
    An IFQ Program for the head boats would also improve the underlying 
data used for fisheries management by making the process computerized. 
Law enforcement fisheries management data would be provided in real 
time which has proven to be the saving grace of the commercial red 
snapper IFQ Program.
    Thank you for the opportunity to testify on this issue. If there is 
any additional information that I can provide I would welcome the 
opportunity to work with this subcommittee in any way possible. It is 
imperative that we keep the $54 million catch share budget that has 
been requested in the budget for 2012. There are far too many fishermen 
that have suffered through oil spills, hurricanes, bad weather, and a 
slow process in order to become accountable fishermen to let the 
funding for these programs fall to the way side.

                                               Captain Randy Boggs.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    The Columbia River Inter-Tribal Fish Commission (CRITFC) is pleased 
to share our views on the Department of Commerce National Oceanic and 
Atmospheric Administration (NOAA) Fisheries' fiscal year 2012 budget 
and has identified the following funding needs:
  --$26.6 million for the Columbia River Mitchell Act hatchery program 
        to implement reforms of which $6.7 million (or 25 percent of 
        the enacted amount) is directed to the tribes to enhance 
        supplementation (natural stock recovery) programs;
  --$11,603,000 for the Pacific Salmon Treaty Program, of which 
        $9,759,000 is for the implementation of the 2009-2018 
        Agreement, and previous base programs, and $1,844,000 is for 
        the Chinook Salmon Agreement Implementation;
  --$110 million for the Pacific Coastal Salmon Recovery Fund to 
        support on-the-ground salmon restoration activities.
    Background.--The Columbia River Inter-Tribal Fish Commission was 
founded in 1977 by the four Columbia River treaty tribes:
  --Confederated Tribes of the Umatilla Indian Reservation;
  --Confederated Tribes of the Warm Springs Reservation of Oregon;
  --Confederated Tribes and Bands of the Yakama Nation; and
  --Nez Perce Tribe.
    CRITFC provides coordination and technical assistance to the tribes 
in regional, national, and international efforts to protect and restore 
the fisheries and fish habitat.
    In 1855, the United States entered into treaties with the four 
tribes.\1\ The tribes' ceded millions of acres of our homelands to the 
United States and the United States pledged to honor our ancestral 
rights, including the right to fish. Unfortunately, a long history of 
hydroelectric development, habitat destruction and overfishing by non-
Indians brought the salmon resource to the edge of extinction with 12 
salmon and steelhead trout populations in the Columbia River basin 
listed under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes' are among the most successful fishery 
managers in the country leading restoration efforts and working with 
State, Federal, and private entities. CRITFC has, and is currently 
updating, a plan that outlines principles and objectives designed to 
halt the decline of salmon, lamprey, and sturgeon populations and 
rebuild the fisheries to levels that support tribal ceremonial, 
subsistence and commercial harvests. To achieve these objectives, the 
plan emphasizes strategies that rely on natural production, healthy 
rivers, and collaborative efforts.
    Several key regional agreements were completed in 2008. The 
Columbia Basin Fish Accords set out parameters for management of the 
Federal Columbia River Power System for fish passage. New agreements in 
United States v. Oregon and the Pacific Salmon Commission established 
fishery management criteria for fisheries ranging from the Columbia 
River to southeast Alaska. The United States v. Oregon agreement also 
contains provisions for hatchery management in the Columbia River 
Basin. The terms of all three agreements run through 2017. We have 
successfully secured other funds to support our efforts to implement 
these agreements, including funds from the Bonneville Power 
Administration (BPA), the Department of Interior, and the Southern Fund 
of the Pacific Salmon Treaty, to name just few. Continued Federal 
funding support is needed to accomplish the management objectives 
embodied in the agreements.
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River Mitchell Act hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $26.6 million 
is requested for the tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $6.7 million, or 25 
percent of enacted funding, will be made available to the Columbia 
River Treaty Tribes for supplementation (natural stock recovery) 
programs. The Mitchell Act program provides regional economic benefits. 
NOAA--Fisheries estimates that the program generates about $38 million 
in income and supports 870 jobs.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. In 1991 this subcommittee 
directed that ``Mitchell Act hatcheries be operated in a manner so as 
to implement a program to release fish in the upper Columbia River 
basin above the Bonneville Dam to assist in the rebuilding of upriver 
naturally spawning salmon runs.'' Since 1991, we have made progress in 
increasing the upstream releases of salmon including Mitchell Act fish 
that have assisted the rebuilding and restoration of naturally spawning 
of upriver runs of chinook and coho. These efforts need to continue.
    We now face the challenges of managing for salmon populations 
listed for protection under the ESA, while also meeting mitigation 
obligations. The Draft Environmental Impact Statement (DEIS) for 
operation of Columbia Rive basin hatcheries released by NOAA in 2010 
illustrates the conundrum we face. While the DEIS, which assumes level 
funding for Mitchell Act hatcheries, points out the need for hatchery 
reform, the implementation scenarios for the proposed alternatives to 
the status quo all call for substantial reductions in hatchery 
releases. From the tribal perspective the proposed alternatives will 
not result in the delisting of salmon populations or meet mitigation 
obligations. Under the proposed alternatives the future is increased 
regulation under the ESA, resulting in more constrained fisheries along 
the west coast. The funding for the Mitchell Act program should be 
increased along with natural stock recovery program reform 
(supplementation) so that we can make progress toward ESA delisting. 
This would transition the Mitchell Act program to a much more effective 
mitigation program.
    We support hatchery reform to aid in salmon recovery, while meeting 
mitigation obligations. The CRITFC tribes are leaders in designing and 
managing hatchery facilities to aid in salmon restoration and believe 
similar practices need to be implemented throughout the basin to reform 
current hatchery production efforts. Additional funding is necessary to 
reform Mitchell Act hatcheries to accomplish conservation and 
mitigation objectives. The administration's proposed fiscal year 2012 
funding level continues years of inadequate funding. The result is 
deteriorating facilities that do not serve our objectives.
    Evidence To Support Tribal Salmon Restoration Programs under the 
Mitchell Act.--The tribes' approach to salmon recovery is to put fish 
back in to the rivers and protect the watersheds where fish live. 
Scientific documentation of tribal supplementation success is available 
upon request. The evidence is seen by the increasing returns of salmon 
in the Columbia River Basin. Wild spring chinook salmon are returning 
in large numbers in the Umatilla, Yakima, and Klickitat tributaries. 
Coho in the Clearwater River are now abundant after Snake River coho 
were declared extinct. Fish are returning to the Columbia River Basin 
and it is built on more than 30 years of tribal projects.
    Once considered for listing under the Endangered Species Act where 
only 20,000 fall chinook returned to the Hanford Reach on the Columbia 
River in the early 1980s. This salmon run has been rebuilt through the 
implementation of the Vernita Bar agreement of mid-1980s combined with 
a hatchery program that incorporated biologically appropriate salmon 
that spawn naturally upon their return to the spawning beds. Today, the 
Hanford Reach fall chinook run is one of the healthiest runs in the 
basin. Supporting fisheries in Alaska, Canada, and the mainstream 
Columbia River, more than 200,000 Fall Chinook destined for the Hanford 
Reach returned to the mouth of the Columbia River 2010.
    In the Snake River Basin, fall chinook has been brought back from 
the brink of extinction. Listed as threatened under the Endangered 
Species Act, the estimated return of naturally spawning Snake River 
fall chinook averaged 328 adults from 1986-1992. In 1994, fewer than 
2,000 Snake River fall chinook returned to the Columbia River Basin. 
Thanks to the Nez Perce Tribe's modern supplementation program fall 
chinook are rebounding. Snake River fall chinook are well on their way 
to recovery and ESA delisting. More than 40,000 fall chinook made it 
past Lower Granite Dam in 2010. More than 10,000 of those fish were 
wild, nearly twice the previous record return since the dam was 
constructed in 1975.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. Section 
recommendation of $11,603,000 for Pacific Salmon Treaty implementation. 
Of this amount, $9,759,000 is for the Pacific Salmon Treaty base 
program with Alaska, Oregon, Idaho, Washington, and NOAA to share as 
described in the U.S. Section of the Pacific Salmon Commission's budget 
justification for fiscal year 2012. In addition, we support $1,884,000 
as first provided in 1997 to carry out necessary research and 
management activities to implement the abundance based management 
approach of the Chinook Chapter to the Treaty. The recommended amount 
represents an increase of about $4.1 million for the Pacific Salmon 
Treaty program for the States to implement the provisions and 
management and technical changes adopted by the United States and 
Canada in 1999 and continuing in the 2009-2018 agreement. These funds 
are subjected annually to a strict technical review process.
    Pacific Coastal Salmon Recovery Program (PCSRF)/Watershed 
Restoration.--Beginning in 1996, additional funding has been sought by 
the State of Alaska, the Pacific Northwest States, and the treaty 
tribes to serve critical unmet needs for the conservation and 
restoration of salmon stocks shared in these tribal, State, and 
international fisheries. The PCSRF program provides a significant role 
in accomplishing the goals of this shared effort. We recommend 
restoring the PCSRF fiscal year 2012 funding level to the fiscal year 
2002 appropriated level of $110 million. Long-term economic benefits 
can be achieved by making PCSRF investments on the ground to rebuild 
sustainable, harvestable salmon populations into the future.
    The State and tribal co-managers have responded to concerns raised 
by the Congress regarding accountability and performance standards to 
evaluate and monitor the success of this coast wide program. The co-
managers have developed an extensive matrix of performance standards to 
address these concerns which includes the use of monitoring protocols 
to systematically track current and future projects basin-wide. 
Tribally sponsored watershed projects are based on the best science, 
are competently implemented and adequately monitored, and address the 
limiting factors affecting salmon restoration. Projects undertaken by 
the tribes are consistent with CRITFC's salmon restoration plan and the 
programmatic areas identified by the Congress.
    Department of Justice.--The Justice Department maintains tribal 
government-specific grant programs administered by the Office of 
Justice Programs, the Office of Community Oriented Policing Services 
and the Office on Violence Against Women. These programs are critically 
important to the Commission's member tribes. The importance of theses 
programs was underscored by passage of the Tribal Law and Order Act, 
signed into law on July 29, 2010. Preserving the fiscal year 2010 
enacted budget for these programs is vital to maintaining law 
enforcement programs of the Commission and its member tribes. We also 
support the Yakama Nation request for a DOJ needs assessment grant in 
fiscal year 2012.
    In summary, the CRITFC and its four member tribes have developed 
the capacity and infrastructure to lead in restoring and rebuilding 
salmon populations of the Columbia Basin. Our collective efforts 
protect our treaty reserved fishing rights and we also partner with the 
non-Indian community to provide healthy, harvestable salmon populations 
for all citizens to enjoy. This is a time when increased effort and 
participation are demanded of all of us and we ask for your continued 
support of a coordinated, comprehensive effort to restore the shared 
salmon resource of the Columbia and Snake River Basins. We will be 
pleased to provide any additional information that this subcommittee 
may require.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization
    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization that represents the interests of the Governors of the 35 
coastal States, territories, commonwealths, and Washington, DC. 
Established in 1970, CSO focuses on legislative and policy issues 
relating to the sound management of coastal, Great Lakes, and ocean 
resources and is recognized as the trusted representative of the 
collective interests of the coastal States on coastal and ocean 
management. For fiscal year 2012, CSO supports the following coastal 
programs and funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):
  --Coastal Zone Management Program (Sec. Sec. 306/306A/309)--$70 
        million
  --Coastal and Estuarine Land Conservation Program--$25 million
    Every American, regardless of where he or she lives, is 
fundamentally connected to our coasts, oceans, and Great Lakes. These 
valuable resources are a critical framework for commerce, recreation, 
energy, environment, and quality of life. The U.S. economy is an ocean 
and coastal economy: though Federal investment does not reflect it, the 
oceans and coasts provide an irreplaceable contribution to our Nation's 
economy and quality of life. With sectors including marine 
transportation, tourism, marine construction, aquaculture, ship and 
boat building, mineral extraction, and living marine resources, the 
U.S. ocean-based sector alone provides $138 billion to U.S. Gross 
Domestic Product and more than 2.3 million jobs to our citizens. In 
addition, the annual contribution of coastal counties is in the 
trillions of dollars, from ports and fishing to recreation and tourism. 
In 2007, our Nation's coastal counties provided $5.7 trillion to the 
economy and were home to 108.3 million people on only 18 percent of the 
U.S. land area. If these counties were their own country, they would 
have the world's second- largest economy. Coasts and oceans also add to 
the quality of life of nearly one-half of all Americans who visit the 
seashore each year; the non market value of recreation alone is 
estimated at more than $100 billion.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing draw and economic vitality, 
we are exerting more pressure on our coastal and ocean resources. This 
demand, combined with an increase in natural hazards such as sea level 
rise, hurricanes and other flooding events, can be proven to show that 
the country is in danger of losing these invaluable assets. Despite the 
difficult budgetary times, we need to provide more funding and support 
for the key programs that are on the front lines of this daily battle, 
the programs utilizing the advances in coastal and ocean science, 
research, and technology to manage our coastal and ocean resources for 
future generations.
    Programs that are engaged in these important efforts and working to 
balance the protection of coastal and ocean resources with the need for 
sustainable development include the Coastal Zone Management Program and 
the Coastal and Estuarine Land Conservation Program. These programs 
reside within the National Oceanic and Atmospheric Administration 
(NOAA) and provide direct funding or services to the States and 
territories, which account for a small portion of the total NOAA 
Federal budget. The funding for these programs is very cost-effective, 
as these grants are matched by the States and are used to leverage 
significantly more private and local investment in our Nation's coasts. 
Increased funding for these programs that provide on-the-ground 
services to our local communities and citizens is well worth the 
investment.
        coastal zone management program (Sec. Sec. 306/306a/309)
    CSO requests that these grants be funded at a level of $70 million, 
an amount just above fiscal year 2010 enacted levels. This funding will 
be shared among the 34 States and territories that have approved 
coastal zone management programs. Pursuant to the Coastal Zone 
Management Act (CZMA), NOAA and the States partner to implement coastal 
zone management programs designed to balance protection of coastal and 
ocean resources with the need for sustainable development of coastal 
communities. States have the flexibility to develop programs, policies 
and strategies that are targeted to their State priorities while 
advancing national goals. Under the CZMA program, the States receive 
grants from NOAA that are matched by the States and are used to 
leverage significantly more private and local investment in our 
Nation's coastal areas. These grants have been used to reduce 
environmental impacts of coastal development, resolve conflicts between 
competing coastal uses, and provide critical assistance to local 
communities in coastal planning and resource protection.
    The CZMA State grants have essentially remained level-funded for 10 
years, resulting in a decreased capacity in the State coastal zone 
management programs and less funding being granted out to local 
communities. An increase in funding to $91 million would mean level 
funding that accounts for inflation over the last 10 years and would 
provide an additional $300,000-$800,000 for each State and territory; 
however, CSO recognizes that the fiscal climate makes this type of an 
increase difficult if not impossible. Under the requested level of $70 
million of funding, States and territories would receive between 
$850,000 and just more than $2,000,000 to carry out their coastal 
management programs based on a formula accounting for shoreline miles 
and coastal population. The additional funding would also account for 
the addition of Illinois as a State with an approved coastal program 
(which is likely during fiscal year 2012). Illinois would be eligible 
to receive the maximum allotted funds of $2,000,000. Without an 
increase, the remaining 34 States would receive less funding than in 
previous years because of the additional State demand. With an increase 
to $70 million, States would not be punished for the addition of 
Illinois and could focus on activities that address coastal water 
pollution, work to conserve and restore habitat, help plan with and 
educate communities, provide for public access to the shore and prepare 
to adapt to changing sea and lake levels and the threat of increasing 
storms. The following are a few examples of activities in Maryland and 
Texas that CZM State grants have funded over the last year. These types 
of examples and more can be found around the Nation.
Maryland
    CZMA funding was utilized to launch Maryland's Coastal Atlas, an 
online mapping and modeling tool used to inform management decisions 
for the Chesapeake Bay, and coastal and ocean uses. From finding the 
best location for renewable energy projects to locating sand resources 
needed for beach replenishment to helping local communities identify 
areas vulnerable to sea level rise and erosion, the Atlas will assist 
users in identifying potential conflicts so that they can then be 
avoided early in the planning process.
    In response to sea level rise concerns, Maryland invested CZMA 
funding to develop computer models to assist local communities in 
evaluation of and planning for shoreline change. They directly assisted 
Queenstown, the city of Annapolis and Worcester, Dorchester, Somerset, 
Caroline, and Ann Arundel counties to plan for the anticipated impacts 
of sea level rise. The program also conducted hands-on training for 
marine contractors on shoreline protection techniques.
Texas
    CZMA funding was used to purchase approximately 10 acres of 
woodlands, known as the Henderson Tract, for habitat preservation and 
public access and education. The Henderson Tract is adjacent to 
approximately 1,500 feet of the existing Tule Creek system, an improved 
earthen drainage conveyance that carries stormwater runoff from the 
adjacent FM 3036-North drainage basin of the Tule Creek watershed and 
from there to Little Bay and Aransas Bay. The property will be operated 
as a nature preserve, with natural, easily maintained trails, and 
features such as in-stream and off-channel pools, shallow upland ponds, 
grassy swales, and low-impact development techniques that harvest and 
beneficially use runoff for wildlife and habitat.
    The Texas General Land Office (GLO) established guidelines in 2010 
for the development of local Erosion Response Plans (ERPs) that can 
incorporate a building set-back line. The guidelines for ERPs include 
provisions for prohibition of building habitable structures seaward of 
the building set-back line, exemptions for certain construction seaward 
of the set-back line, stricter construction requirements for exempted 
construction, improvements to and protection of public beach access 
points and dunes from storm damage, and procedures for adoption of the 
plans. Development of ERPs by several local governments using CZMA 
funding is underway.
    Several years ago and appropriate at the time, a cap of 
approximately $2 million was instituted to allow for funding to spread 
more evenly across the States and territories, so as to prevent most of 
the funding from going entirely to the larger, more heavily populated 
States. But, now, more than one-half of the States have met the cap and 
no longer receive an increase in funding, despite increased overall 
funding for CZMA State grants. Therefore, CSO requests that language be 
included in the appropriations bill declaring that each State will 
receive no less than 1 percent and no more than 5 percent of the 
additional funds over and above previous appropriations. As was 
provided for in fiscal year 2010, CSO requests that language be 
included in the appropriations bill that directs NOAA to refrain from 
charging administrative costs to these grants. This is to prevent any 
undue administrative fees from NOAA from being levied on grants 
intended for States.
            coastal and estuarine land conservation program
    CSO requests $25 million for the Coastal and Estuarine Land 
Conservation Program (CELCP). Authorized by the Congress in 2002, CELCP 
protects ``those coastal and estuarine areas with significant 
conservation, recreation, ecological, historical, or aesthetic values, 
or that are threatened by conversion from their natural or recreational 
States to other uses.'' To date, the Congress has appropriated nearly 
$255 million for CELCP. This funding has allowed for the completion of 
more than 150 conservation projects, with more in progress. CELCP 
projects in 27 of the Nation's 35 coastal States have already helped 
preserve approximately 50,000 acres of the Nation's coastal treasures. 
All Federal funding has been leveraged by at least an equal amount of 
State, local, and private investments, demonstrating the broad support 
of the program, the importance of coastal protection throughout the 
Nation, and the critical role of Federal funding to its success.
    The preservation of coastal and estuarine areas is critical to both 
humans and the environment. These areas shield us from storms, protect 
us from the effects of sea-level rise, filter pollutants to maintain 
water quality, provide shelter, nesting and nursery grounds for fish 
and wildlife, protect rare and endangered species and provide access to 
beaches and waterfront areas. CELCP is the only program entirely 
dedicated to the conservation of these vital coastal areas.
    The demand for CELCP funding far outstrips what has been available 
in recent years. In the last 3 years, NOAA, in partnership with the 
States, has identified more than $270 million of vetted and ranked 
projects. As demand for CELCP funding has grown, the funding has not 
kept pace. Adequate funding is needed to meet the demand of the 
increasingly high-quality projects developed by the States and 
submitted to NOAA.
    This March, the CELCP program was formally authorized as part of 
H.R. 146, the Omnibus Public Lands Management Act of 2009, once again 
showing the broad, bi-partisan support for coastal and estuarine land 
conservation. In recognition of the significant demand for CELCP 
projects, H.R. 146 authorized the program at $60 million annually.
    CSO greatly appreciates the support the subcommittee has provided 
in the past. Its support has assisted these programs in working 
together to protect our coasts and sustain our local communities. We 
hope you will take our requests into consideration as you move forward 
in the fiscal year 2012 appropriations process.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests an appropriation of $7.80 billion for the 
National Science Foundation (NSF) in fiscal year 2012. This is the same 
funding level contained in the President's fiscal year 2012 budget 
request and recommended by the bipartisan America COMPETES 
Reauthorization Act of 2010.
    As a Federation of 23 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
`FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by NSF, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    NSF is the only Federal research agency dedicated to supporting 
basic research and education across all fields of science and 
engineering. With just 4 percent of the Federal research and 
development budget, NSF funds more than 60 percent of nonbiomedical 
life science research at academic institutions in fields such as 
mathematics, geosciences, computer science, and social sciences. NSF 
also plays a significant role in advancing biological research; 42 
Nobel Prizes have been awarded to NSF-funded scientists for 
contributions in physiology or medicine. One of these Nobel Prizes was 
awarded for work that led to the development of magnetic resonance 
imaging (MRI), which is now a key diagnostic tool in hospitals around 
the world. NSF-funded research truly creates the foundation from which 
new technologies and therapeutics emerge.
    Through its rigorous peer-review that enables experts to identify 
only the best and most promising research to be funded, NSF has a 
history of identifying scientific talent early and funding some of 
science's most important discoveries. For example, a team of 
researchers led by a NSF-funded synthetic biologist has genetically 
engineered yeast to produce a precursor to artemisinin, an effective 
anti-malaria drug. Before this scientific breakthrough, a slow and 
expensive process was required to extract the chemical from its natural 
source, the sweet wormwood plant. Researchers hope that scaled-up 
production of yeast-derived artemisinin will eventually provide an 
adequate and affordable supply of the drug to people worldwide. Using 
this groundbreaking technique, yeast and bacteria may soon be employed 
to synthesize other therapeutics, such as vaccines. Another example of 
NSF-funded research with medical applications is the use of robotics, 
information technology, and biomedicine to develop devices that 
revolutionize surgical procedures. Robotic arms remotely controlled 
through a system of levers and 3D high-resolution images of the 
operative site are enabling surgeons to execute more precise movements, 
reducing the physical impact of operations on patients, and shortening 
recovery time. The increased accuracy of robotically enhanced surgery 
has the potential to improve the effectiveness of treatments, such as 
the removal of cancerous tumors from the eye.
    NSF is also committed to achieving excellence in science, 
technology, engineering, and math education at all levels. The agency 
supports a wide variety of initiatives aimed at preparing science 
teachers, developing innovative curricula, and engaging students in the 
process of scientific discovery. One of many NSF programs to prepare 
future scientists, the Graduate Research Fellowship Program (GRFP) 
annually awards approximately 2,000 3-year fellowships to outstanding 
graduate students pursuing advanced degrees in science, technology, 
engineering, and or mathematics. NSF graduate research fellows are 
making important scientific contributions, including research to 
improve preclinical testing of artificial heart valves and a study to 
understand how neuronal networks enable the brain to carry out its 
problem-solving functions. Past recipients of NSF GRFP awards have gone 
on to become leading scientists and Nobel Prize winners. In this way, 
NSF helps foster creative thinking in science, engineering, and 
mathematics by supporting the next generation of researchers. Moreover, 
by funding research projects and education initiatives at institutions 
across the country, NSF ensures that future generations will be able to 
meet the technical demands of 21st century jobs.
    There is wide agreement that the Nation's future is inextricably 
linked to its capacity for innovation. The United States needs an 
educated populace, a cadre of world-class scientists and engineers, and 
a well-developed research infrastructure capable of supporting 
competitively funded research projects. Recent investment in NSF 
programs has resulted in new projects, increased graduate training, and 
an expanded capacity for innovation. Reduction of that effort would 
mean that fewer university researchers would receive support for 
critical research and education projects, jeopardizing the jobs of many 
scientists, engineers, and technical personnel. The NSF budget has both 
immediate and long-term consequences for the Nation's economy, 
security, and quality of life. Strong and sustained investment in NSF 
will enable the transformational research and training essential to the 
future success and competitiveness of the United States. Furthermore, 
because of the collaborative work of science agencies and the 
increasingly interdisciplinary nature of scientific research, support 
for the Federal research and development portfolio has never been more 
important to the Nation's prosperity.
    Thank you for the opportunity to offer FASEB's support for NSF.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GAS) urges the Congress to 
appropriate at least $7.767 billion for the National Science Foundation 
(NSF) in fiscal year 2012, an increase of $894 million or 13 percent 
compared with the fiscal year 2010 enacted level. This funding level is 
consistent with the President's fiscal year 2012 budget request for the 
NSF and the fiscal year 2012 authorized level of $7.8 billion under the 
America COMPETES Act.
    GSA supports strong and growing investments in Earth science 
research and education at NSF and other Federal agencies. Substantial 
increases in Federal funding for Earth science research and education 
are needed to ensure the health, vitality, and security of society and 
for stewardship of Earth. These investments are necessary to address 
such issues as energy resources, water resources, climate change, and 
natural hazards. Earth science research forms the basis for training 
and educating the next generation of Earth science professionals.
    GSA, founded in 1888, is a scientific society with more than 23,000 
members from academia, government, and industry in all 50 States and 
more than 90 countries. Through its meetings, publications, and 
programs, GSA enhances the professional growth of its members and 
promotes the geosciences in the service of humankind. GSA encourages 
cooperative research among Earth, life, planetary, and social 
scientists, fosters public dialogue on geoscience issues, and supports 
all levels of Earth science education.
                               rationale
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
scientific research pay substantial dividends. According to the 
National Academies' report Rising Above the Gathering Storm (2007), 
``Economic studies conducted even before the information-technology 
revolution have shown that as much as 85 percent of measured growth in 
U.S. income per capita was due to technological change.'' In 2010, the 
National Academies issued an updated report, Above the Gathering Storm, 
Revisited, which says:

    ``It would be impossible not to recognize the great difficulty of 
carrying out the Gathering Storm recommendations, such as doubling the 
research budget, in today's fiscal environment . . . with worthy demand 
after worthy demand confronting budgetary realities. However, it is 
emphasized that actions such as doubling the research budget are 
investments that will need to be made if the Nation is to maintain the 
economic strength to provide for its citizens healthcare, social 
security, national security, and more. One seemingly relevant analogy 
is that a non solution to making an over-weight aircraft flight worthy 
is to remove an engine.''

    Likewise, the National Commission on Fiscal Responsibility and 
Reform, headed by Erskine Bowles and Alan Simpson, said:

    ``Cut and invest to promote economic growth and keep America 
competitive. We should cut redtape and unproductive government spending 
that hinders job creation and growth. At the same time, we must invest 
in education, infrastructure, and high-value research and development 
to help our economy grow, keep us globally competitive, and make it 
easier for businesses to create jobs.''

    The Earth sciences are critical components of the overall science 
and technology enterprise. Growing investments in Earth science 
research are required to stimulate innovations that fuel the economy, 
provide security, and enhance the quality of life. Substantial 
increases in Federal funding for Earth science research are needed to 
ensure the health, vitality, and security of society and for Earth 
stewardship. Earth science research provides knowledge and data 
essential for developing policies, legislation, and regulations 
regarding land, mineral, energy, and water resources at all levels of 
government.
        broader impacts of earth science research and education
    It is critically important to significantly increase NSF's 
investments in Earth science research and education to meet challenges 
posed by human interactions with Earth's natural system and to help 
sustain these natural systems and the economy. Increased investments in 
NSF's Earth science portfolio are necessary to address such issues as 
natural hazards, energy, water resources, and climate change.
  --Natural hazards--such as earthquakes, tsunamis, volcanic eruptions, 
        floods, droughts, and hurricanes--remain a major cause of 
        fatalities and economic losses worldwide. An improved 
        scientific understanding of geologic hazards will reduce future 
        losses through better forecasts of their occurrence and 
        magnitude. The devastating earthquake in Haiti on January 12, 
        2010 that killed more than 200,000 people, the damaging 
        earthquake in New Zealand on February 21, 2011, and the small 
        volcanic eruptions in Iceland that disrupted global air travel 
        in April 2010 emphatically demonstrate the need for increased 
        NSF investments in fundamental Earth science research that 
        stimulate innovations in natural hazards monitoring and warning 
        systems.
  --Energy and mineral resources are critical to the functioning of 
        society and to national security and have positive impacts on 
        local, national, and international economies and quality of 
        life. These resources are often costly and difficult to find, 
        and new generations of geoscientists need the tools and 
        expertise to discover them. In addition, management of their 
        extraction, use, and residue disposal requires a scientific 
        approach that will maximize the derived benefits and minimize 
        the negative effects. Improved scientific understanding of 
        these resources will allow for their better management and 
        utilization while at the same time considering economic and 
        environmental issues. This is particularly significant because 
        shifting resource demands often reframe our knowledge as new 
        research--enabling technologies become available. For example, 
        widespread deployment of clean-energy technologies can reduce 
        greenhouse gas emissions, mitigate climate change, and reduce 
        dependence on foreign oil. Many emerging technologies--such as 
        wind turbines, solar cells, and electric vehicles--depend on 
        rare Earth elements and other scarce elements that currently 
        lack diversified sources of supply. China accounts for 95 
        percent of world production of rare Earth elements although it 
        has only 36 percent of identified world reserves (U.S. 
        Geological Survey, 2010). A renewed Federal commitment to 
        innovative research and education on minerals is needed to 
        address these issues.
  --The availability and quality of surface water and groundwater are 
        vital to the well-being of both society and ecosystems. Greater 
        scientific understanding of these critical resources--and 
        communication of new insights by geoscientists in formats 
        useful to decisionmakers--is necessary to ensure adequate and 
        safe water resources for the future. NSF's new program 
        solicitation on water sustainability and climate is designed to 
        address major gaps in our basic understanding of water 
        availability, quality, and dynamics, and the impact of both a 
        changing and variable climate, and human activity, on the water 
        system.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's history can 
        increase confidence in the ability to predict future States and 
        enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
  --Research in Earth science is also fundamental to training and 
        educating the next generation of Earth science professionals.
    Increased NSF investments in Earth science education at all levels 
are needed because knowledge of the Earth sciences is essential to 
science literacy and to meeting the environmental and resource 
challenges of the 21st century.
    Earth science research and education should be a component of 
broader initiatives to increase overall public investments in science 
and technology. For example, Earth science research should be included 
in a recommendation by the National Academies to ``increase the Federal 
investment in long-term basic research by 10 percent each year over the 
next 7 years . . .'' (Rising Above the Gathering Storm, 2007). 
Likewise, implementation of the America COMPETES Act, which authorizes 
a doubling of the budgets of key science agencies in 7 years, should 
encompass Earth science research and education.
      extraordinary scientific opportunities in the earth sciences
    In October 2009, NSF's Advisory Committee for Geosciences released 
a major report, GEO Vision: Unraveling Earth's Complexities Through the 
Geosciences. ``Society stands at a crossroads. With the growing 
problems of resource depletion, energy sustainability, environmental 
degradation, and climate change, we wonder if protecting the health of 
the planet while achieving widespread economic prosperity can become a 
reality,'' the report says.
    The NSF report provides a vision for the future of research in the 
geosciences as focused on fostering a sustainable future through a 
better understanding of our complex and changing planet. The report 
articulates a path to achieving its vision. It recommends a new 
emphasis on interdisciplinary research in order to achieve reasoned and 
scientifically sound insights for policymakers. The challenges ahead 
for the geosciences, the report says, are understanding and forecasting 
the behavior of a complex and evolving Earth; reducing vulnerability 
and sustaining life; and growing the geosciences workforce of the 
future. Substantial increases in resources are needed to meet these 
challenges.
    Extraordinary scientific opportunities in the Earth sciences have 
been summarized in a series of reports, including:
  --Understanding Earth's Deep Past: Lessons for Our Climate Future 
        (National Research Council, 2011)
  --Landscapes on the Edge: New Horizons for Research in Earth Surface 
        Processes (National Research Council, 2010)
  --GEO Vision: Unraveling Earth's Complexities Through the Geosciences 
        (NSF Advisory Committee for Geosciences, 2009)
  --Seismological Grand Challenges in Understanding Earth's Dynamic 
        Systems (Incorporated Research Institutions for Seismology, 
        2009)
  --Origin and Evolution of Earth: Research Questions for a Changing 
        Planet (National Research Council, 2008)
  --Hydrology of a Dynamic Earth (Consortium of Universities for the 
        Advancement of Hydrologic Science, 2007)
  --Future Research Directions in Paleontology (Paleontological Society 
        and Society for Vertebrate Paleontology, 2007)
    NSF's Earth Sciences Division regularly receives a large number of 
exciting research proposals that are highly rated for both their 
scientific merit and their broader impacts, but many meritorious 
projects have not been funded due to budget constraints. Additional 
investments in Earth science research can have significant positive 
impacts on society.
    EarthScope is producing transformative science while being 
developed on time and on budget. When this major project was being 
developed, it was widely expected that the NSF budget would experience 
a sustained period of robust growth as indicated by the NSF 
Authorization Act of 2002 and the America COMPETES Act. If NSF's budget 
growth is not robust, some members of the Earth science community are 
concerned that EarthScope expenses could put downward pressure on 
budgets and success rates for other time-sensitive research 
opportunities in the Earth sciences.
                               conclusion
    The America COMPETES Act set the stage to double the NSF budget 
over 7 years. Despite overwhelming bipartisan support for the America 
COMPETES Act, appropriations for NSF fell short of the authorized 
doubling path in the regular appropriations bills for fiscal years 
2007-2011. NSF received $3 billion in economic stimulus funds under the 
American Recovery and Reinvestment Act of 2009. This one-time injection 
of funding was very helpful, but sustained growth in NSF's budget is 
needed to achieve the objectives of the America COMPETES Act.
    GSA recommends an appropriation of at least $7.767 billion for NSF 
in fiscal year 2012, an increase of $894 million or 13 percent compared 
with the enacted level for fiscal year 2010. This funding level is 
consistent with the President's fiscal year 2012 budget request of 
$7.767 billion for the NSF and the authorized funding level of $7.800 
billion under the America COMPETES Act.
    GSA is grateful to the Senate Appropriations Subcommittee on 
Commerce, Science, Justice, and Related Agencies for its past 
leadership in increasing investments in NSF and other science agencies. 
Thank you for your thoughtful consideration of our recommendations.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
    Dear Madam Chairman: On behalf of the Institute of Makers of 
Explosives (IME), I am submitting a statement for inclusion in the 
subcommittee's hearing record regarding the proposed fiscal year 2012 
budget for the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) regulatory program for the commercial explosives industry.
                          interest of the ime
    IME is a nonprofit association founded in 1913 to provide accurate 
information and comprehensive recommendations concerning the safety and 
security of commercial explosive materials. IME represents U.S. 
manufacturers, distributors, and motor carriers of commercial explosive 
materials and oxidizers as well as other companies that provide related 
services. The majority of IME members are ``small businesses'' as 
determined by the U.S. Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, and 
other specialized applications begin with the use of commercial 
explosives. IME member companies produce 99 percent of these 
commodities. These products are used in every State and are distributed 
worldwide. The ability to manufacture, distribute, and use these 
products safely and securely is critical to this industry.
    The production, distribution, transportation, storage, and use of 
explosives are highly regulated by a myriad of Federal and State 
agencies. ATF plays a predominant role in assuring that explosives are 
identified, tracked, and stored only by authorized persons. We have 
carefully reviewed the administration's fiscal year 2012 budget request 
for ATF, and have the following comments about its potential impact on 
the commercial explosives industry.
           atf's explosives regulatory program budget request
    The administration's fiscal year 2012 budget request proposes to 
decrease resources devoted to ATF's regulation and oversight of 
explosives industries by 23 FTE, a 6 percent reduction, from 383 FTE 
and 360 FTE, for a savings of $5.9 million.\1\
---------------------------------------------------------------------------
    \1\ Fiscal Year 2012 ATF Budget Submission, page 41.
---------------------------------------------------------------------------
    We understand the current urgency to address the Federal budget 
deficit. We understand the shared sacrifice that all segments of the 
Government are asked to make to help the economy recover by spurring 
job growth and investment. Yet, Members of Congress understand that 
budgetary cuts to the bureaucracy should not cut essential services. By 
law, ATF must inspect explosives licensees and permittees at least once 
every 3 years. During the last full fiscal year, ATF conducted more 
than 4,000 such compliance inspections and identified 1,620 public 
safety violations.\2\ In addition to this workload, ATF must process 
applications for new explosives licenses and permits as well as those 
submitted for renewal of existing licenses and permits. Nearly 3,000 
applications were processed during the last full fiscal year.\3\ The 
agency must also conduct inspections of all new applicants. More than 
1,000 new applicants needed to be inspected last fiscal year.\4\ These 
are significant workload indicators. Without approved licenses and 
permits from ATF, the industry would collapse and with it major 
segments of the economy that are dependent on these products and 
materials.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2012 ATF Budget Submission, page 35.
    \3\ Fiscal Year 2012 ATF Budget Submission, page 35.
    \4\ Fiscal Year 2012 ATF Budget Submission, page 35.
---------------------------------------------------------------------------
    At the same time, the U.S. Government Accountability Office (GAO) 
recently released a report identifying unnecessary duplication in 
Government programs.\5\ Among the programs highlighted were those of 
the ATF and the Federal Bureau of Investigation (FBI) that relate to 
explosives incidents. As early as 2004, duplication and overlap were 
identified in the areas of investigations, training, information 
sharing and use of databases, and laboratory forensic analysis. While 
plans for consolidating and eliminating redundancies were begin last 
November, the GAO recommended that the Congress monitor progress to 
ensure that ``the plans have their intended effect and are enforced.''
---------------------------------------------------------------------------
    \5\ ``Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue,'' GAO, March 2011, 
pages 101-104, http://www.gao.gov/new.items/d11318sp.pdf.
---------------------------------------------------------------------------
    The costs attributable to these duplicative explosives enforcement 
activities far exceeds the cost-savings ATF expects to realize from the 
cuts to its regulatory compliance program for the explosives industry. 
As the subcommittee considers ATF's budget request, we ask that ATF's 
ability to perform its regulatory oversight of the explosives industry 
in a timely fashion not be compromised in the push for fiscal 
discipline when other areas of duplication and overlap are ripe for 
reform.
                       atf's regulatory workload
    In the last 10 years, ATF has issued nine rulemakings of importance 
to IME (including two interim final rules). It has finalized three and 
withdrawn one. Of the five rulemakings still pending, the oldest dates 
to 2001. In the absence of a process to ensure timely rulemaking that 
is capable of keeping up with new developments and safety practices, 
industry must rely on interpretive guidance and variances from outdated 
requirements in order to conduct business. While we greatly appreciate 
the ATF's accommodations, these stop-gap measures do not afford the 
continuity and protections that rulemaking would provide the regulated 
community, nor allow the oversight necessary to ensure that all parties 
are being held to the same standard of compliance. These regulatory 
tasks are critical to the lawful conduct of the commercial enterprises 
that the ATF controls. ATF should be provided the resources to make 
timely progress in this area.
                           industry standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements.\6\ We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered ATF 
recommendations that we believe will enhance safety and security 
through participation in the rulemaking process, in the ATF's important 
research efforts, and in other standard-setting activities.
---------------------------------------------------------------------------
    \6\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In this regard, IME has spent years developing and validating a 
credible alternative to strict interpretation of quantity-distance 
tables used to determine safe setback distances from explosives. IME 
collaborated with the Department of Defense Explosives Safety Board and 
Canadian and U.S. regulatory agencies, including ATF. The result is a 
windows-based computer model for assessing the risk from a variety of 
commercial explosives activities called IMESAFR.\7\ Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years experience in the United States and 
Canada and can be adjusted to account for different explosive 
sensitivities, additional security threats, and other factors that 
increase or decrease the base value. Following this effort, ATF is 
starting to recognize that this powerful assessment tool has potential 
to help the ATF meet its statutory mandate to ensure safety through 
quantity-distance limitations. ATF has taken advantage of opportunities 
to partner with IME and is evaluating existing locations with this 
risk-based approach. The benefits of risk-based modeling should be 
recognized and ATF should be provided resources to develop policies 
that allow the use such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \7\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
                               leadership
    The resolution of these issues may have to wait the appointment of 
a new ATF Director. ATF has been without a director since August 2006. 
We support President Obama's nomination of Andrew L. Traver for this 
position.\8\ We hope that the Senate will act timely on this 
nomination. ATF has been too long without permanent leadership.
---------------------------------------------------------------------------
    \8\ Received in the Committee on the Judiciary, United States 
Senate, January 5, 2011, PN44.
---------------------------------------------------------------------------
                               conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the critical 
role ATF plays in helping our industry achieve and maintain safe and 
secure workplaces. Industry and the public are dependent on ATF having 
adequate resources to fulfill its regulatory responsibilities. It is up 
to the Congress and, in particular, this subcommittee to ensure that 
ATF has the resources it needs. We strongly recommend full funding for 
ATF's explosives program.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    Thank you for the opportunity to submit testimony on behalf of the 
Innocence Project to the Senate Appropriations Subcommittee on 
Commerce, Justice, Science, and Related Agencies as it considers 
program funding for fiscal year 2012. Innocence Project respectfully 
requests funding for the following programs at the described levels:
  --Paul Coverdell Forensic Sciences Improvement Grant Program (the 
        ``Coverdell Program'') at $35 million through the Department of 
        Justice, National Institute for Justice (NIJ);
  --Kirk Bloodsworth Post-Conviction DNA Testing Program (the 
        ``Bloodsworth Program'') at $5 million through the NIJ; and
  --The Capital Litigation Improvement Grant Program at 12.5 million, 
        including $10 million for the Wrongful Conviction Review 
        Program, through the Department of Justice, Bureau of Justice 
        Assistance (BJA).
    The Innocence Project represents convicted persons who seek to 
prove their innocence through postconviction DNA testing. To date, 268 
men and women have been exonerated by such testing nationwide. The 
mission of the Innocence Project is to free innocent people and prevent 
wrongful convictions through reform. Yet it is important to note that 
this work has tremendous benefit for public safety. First, every time 
DNA identifies a wrongful conviction, it enables the identification of 
the real perpetrator of those crimes. Indeed, the true perpetrators 
have been identified in more than 40 percent of the DNA exoneration 
cases. There is a double benefit from the reforms that can prevent 
wrongful convictions: they also enhance the accuracy of criminal 
investigations and prosecutions, and thus strengthen them. Because 
these programs increase public safety and access to justice, Innocence 
Project requests continued funding in fiscal year 2012.
                           coverdell program
    Recognizing the need for independent government investigations in 
the wake of forensic problems, the Congress created the forensic 
oversight provisions of the Coverdell Program, which provides State and 
local crime laboratories and other forensic facilities with much needed 
Federal funds. Specifically, in the ``Justice for All Act'' (JFAA), the 
Congress required that [t]o request a grant under this subchapter, a 
State or unit of local government shall submit to the Attorney General 
. . . a certification that a government entity exists and an 
appropriate process is in place to conduct independent external 
investigations into allegations of serious negligence or misconduct 
substantially affecting the integrity of the forensic results committed 
by employees or contractors of any forensic laboratory system, medical 
examiner's office, coroner's office, law enforcement storage facility, 
or medical facility in the State that will receive a portion of the 
grant amount.\1\
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. 3797k(4).
---------------------------------------------------------------------------
    The congressional mandate under the Coverdell Program was a crucial 
step toward ensuring the integrity of forensic evidence. Now, more than 
ever, as forensic science budgets find themselves on the chopping block 
in State legislatures all over the country, their very survival may be 
dependent upon these Federal funds. With such import and capacity for 
positive action, we ask that you fund the Coverdell Program at $35 
million.
                          bloodsworth program
    The Bloodsworth Program provides hope to wrongfully convicted 
inmates who might otherwise have none by helping States pursue 
postconviction DNA testing for viable claims of innocence. These funds 
already have begun to demonstrate a positive impact that has led to 
much success, one measure of which is the fact that Bloodsworth program 
funds already have enabled the exoneration of two people, with many 
more cases being actively pursued by State partnerships under this 
funding stream. Many organizational members of the national Innocence 
Network have partnered with State agencies that have received 
Bloodsworth funding.\2\ According to the Innocence Network's President, 
Keith Findley, the Bloodsworth Program will dramatically improve the 
ability of Innocence Network members to meet the tremendous need for 
postconviction DNA testing. Many of the projects funded under the 
Bloodsworth Program will enable projects in various States to 
proactively search for . . . cases in which DNA testing can prove guilt 
or innocence, but which are otherwise overlooked or hidden.\3\
---------------------------------------------------------------------------
    \2\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
    \3\ Strengthening Our Criminal Justice System: Extending the 
Innocence Protection Act. 111th Cong., 1st Sess., 10 (2009) (testimony 
of Keith Findley, President of the Innocence Network).
---------------------------------------------------------------------------
    The Bloodsworth Program does not fund the work of Innocence 
Projects directly. In fact, the Office of Justice Programs has 
encouraged State applicants to draft proposals that fund a range of 
entities involved in settling innocence claims, from law enforcement 
agencies to crime laboratories. Additionally, the Bloodsworth Program 
has fostered the cooperation of innocence projects and State agencies. 
For example, with its fiscal year 2008 award, the Arizona Justice 
Project, in conjunction with the Arizona Attorney General's Office, 
began the Post-Conviction DNA Testing Project. Together, they have 
canvassed the Arizona inmate population, reviewed cases, worked to 
locate evidence and filed joint requests with the court to have 
evidence released for DNA testing. In addition to identifying the 
innocent, Arizona Attorney General Terry Goddard has noted that the 
``grant enables [his] office to support local prosecutors and ensure 
that those who have committed violent crimes are identified and behind 
bars.'' \4\ Such joint efforts have followed in Connecticut, Louisiana, 
Minnesota, North Carolina, and Wisconsin.
---------------------------------------------------------------------------
    \4\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-Federal-DNA-grant.htm 
(last visited March 11, 2011).
---------------------------------------------------------------------------
    The Bloodsworth program is a relatively small yet powerful 
investment for States seeking to identify and free innocent people who 
were erroneously convicted. As such, we ask that you fund the 
Bloodsworth Program at $5 million.
                   wrongful conviction review program
    Particularly when DNA isn't available, or when it alone isn't 
enough to prove innocence, being able to prove one's innocence to a 
level sufficient for exoneration is even harder than ``simply'' proving 
the same with DNA evidence. These innocents languishing behind bars 
require expert representation to help navigate the complex issues that 
invariably arise in their bids for postconviction relief. And the need 
for such representation is enormous; only a small fraction of cases 
involve evidence that could be subjected to DNA testing (for example, 
it is estimated that even among murders, only 10 percent of cases have 
the kind of evidence that could be DNA tested). Thus for the wrongfully 
convicted who have strong evidence of innocence, yet no ability to use 
postconviction DNA testing to enable their freedom, the effective 
review of their cases can enable a wrongful conviction to be righted, 
and pursuit of the real perpetrator to continue.
    Realizing the imperative presented by such cases, the BJA carved-
out of its Capital Case Litigation Initiative funding to create the 
Wrongful Prosecution Review (now the Wrongful Conviction Review) 
discretionary grant program.\5\ The program provides applicants--
nonprofit organizations and public defender offices focused on 
exonerating the innocent--with support for quality, efficient 
representation in order to pursue the strongest claims of wrongful 
conviction by those for whom postconviction DNA testing is not 
available to establish their innocence.
---------------------------------------------------------------------------
    \5\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    The program's benefits, in addition to exonerating the innocent, 
are significant: to alleviate burdens placed on the criminal justice 
system through costly and prolonged postconviction litigation and to 
identify, whenever possible, the actual perpetrator of the crime. Above 
all, though, this program forms a considerable piece of the 
comprehensive Federal package of innocence protection measures created 
in recent years; without it, a great deal of innocence claims might 
otherwise fall through the cracks. Accordingly, we urge you to fund the 
Wrongful Conviction Review Program through the BJA at $10 million.
 additional notes on the department of justice's requested budget for 
                            fiscal year 2012
    The Department of Justice's fiscal year 2012 budget request does 
not specifically include two of the above programs--the Coverdell and 
Bloodsworth Programs. It is unclear from the budget request whether 
these programs would be rolled into the much broader ``DNA Initiative'' 
for a requested funding level of $110 million. Regardless, it is 
crucial that these two programs be specifically identified and funded 
in fiscal year 2012.
    In addition to the critical need for funding for these programs, 
especially during this time of significant economic downturn for 
States, Innocence Project is concerned about the impact that ``block-
granting'' the Bloodsworth and Coverdell programs within DOJ's DNA 
Initiative would have on the requirements and incentives that these 
programs provide to prevent wrongful convictions and ensure the 
integrity of evidence.\6\ These incentives have proven significant for 
the advancement of State policies to prevent wrongful convictions. 
Indeed, the Coverdell program forensic oversight requirements have 
created in States nationwide entities and processes for ensuring the 
integrity of forensic evidence in the wake of the forensic scandals 
that have undermined public faith in forensic evidence. The Coverdell 
program oversight requirements are essential to ensuring the integrity 
of forensic evidence in the wake of identified acts of forensic 
negligence or misconduct.
---------------------------------------------------------------------------
    \6\ Of course, the other section 413 Programs once reauthorized and 
appropriated under section 413 will add to these incentives.
---------------------------------------------------------------------------
    Therefore, Innocence Project requests that the Congress maintain 
and specifically fund both the Bloodsworth and Coverdell programs in 
order to preserve their important incentive and performance 
requirements. Doing away with these requirements would thwart the 
intent of the Congress, which was to provide funding only to States 
that demonstrate a commitment to preventing wrongful convictions in 
those areas.
                               conclusion
    Thank you so much for your time and consideration of these 
important programs, and the opportunity to submit testimony. We look 
forward to working with the subcommittee this year.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team
    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian country. I am the lead 
judge representing the Independent Tribal Court Review Team. I am here 
today to provide justification for increased funding for Tribal Courts 
in the Department of Justice (DOJ), Office of Justice Programs for the 
Tribal Courts Assistance Program. We thank this subcommittee for the 
additional $10 million funding in fiscal year 2010. These funds were a 
blessing to tribes. Even minimal increases were put to good use. It is 
the strong recommendation of the Independent Tribal Courts Review Team 
that the Federal tribal courts budget be substantially increased in 
fiscal year 2012 to support the needs of tribal judicial systems.
Budget Priorities, Requests, and Recommendations
  --+$10 million increase for tribal courts above the fiscal year 2010 
        enacted level.
  --+$58.4 million authorized under the Indian Tribal Justice Act of 
        1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in 
        year 2000 Public Law 106-559 (no funds have been appropriated 
        to date).
    The increase will support:
  --Hiring and training of court personnel;
  --Compliance With the 2010 Tribal Law and Order Act;
  --Salary increases for existing judges and court personnel;
  --State-of-the-art technology for tribal courts;
  --Security and security systems to protect court records and privacy 
        of case information;
  --Tribal court code development; and
  --Financial code development.
Background
    DOJ provides funding to State, local, and tribal governments to 
supplement their justice systems for a broad array of activities 
including courts. Tribal courts play a ``vital role'' in tribal self-
determination and self-governance as cited in long-standing Federal 
policy and acts of the Congress. Funding levels from DOJ to support 
tribal justice systems have not met the Federal obligations.
    For the past 5 years, the Independent Court Review Team has been 
traveling throughout Indian country assessing how Tribal Courts are 
operating. During this time, we have completed approximately 73 court 
reviews. There is no one with more hands-on experience and knowledge 
regarding the current status of tribal courts than our Review Team.
    We have come into contact with every imaginable composition of 
tribe; large and small, urban and rural, wealthy, and poor. What we 
have not come into contact with is any tribe whose court system is 
operating with financial resources comparable to other local and State 
jurisdictions.
Justification for Request
    Hiring and Training of Court Personnel.--Tribal Courts make do with 
underpaid staff, under-experienced staff and minimal training. (We have 
determined that hiring tribal members limits the inclination of staff 
to move away; a poor excuse to underpay staff.)
    Compliance with the 2010 Tribal Law and Order Act.--To provide 
judges, prosecutors, and public defenders, who are attorneys and who 
are bared to do ``enhanced sentencing'' in tribal courts.
    Salary Increases for Existing Judges and Court Personnel.--Salaries 
should be comparable to local and State court personnel to keep pace 
with the nontribal judicial systems and be competitive to maintain 
existing personnel.
    Tribal Courts Need State-of-the-Art Technology.--Many tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant (software, computers, phone systems, tape recording machines). 
This is accompanied by training expenses and licensing fees which do 
not last after the grant ends.
    Security and Security Systems To Protect Court Records and Privacy 
of Case Information.--Most tribal courts do not even have a full-time 
bailiff, much less a state-of-the-art security system that uses locked 
doors and camera surveillance. This is a tragedy waiting to happen.
    Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with under-
developed codes. The Adam Walsh Act created a hardship for tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
tribal jurisdiction.)
    Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
Tribal Courts Review
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and Non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.
    Our research indicates tribal courts are at a critical stage in 
terms of need. Nationwide, there are 184 tribes with courts that 
received $24.7 million in Federal funding in 2010.
    Assessments have indicated that the Bureau of Indian Affairs only 
funds tribal courts at 26 percent of the funding needed to operate. 
tribes who have economic development generally subsidize their tribal 
courts. On the flip side, tribes who cannot afford to assist in the 
financial operations of the court are tasked with doing the best they 
can with what they have even at the expense of decreasing or 
eliminating services elsewhere. This while operating at a disadvantage 
with already overstrained resources and underserved needs of the tribal 
citizens. The assessment suggests that the smaller courts are both the 
busiest and most underfunded.
    The grant funding in the DOJ is intended to be temporary, but 
instead it is used for permanent needs; such as funding a drug court 
clerk who then is used as a court clerk with drug court duties. When 
the funding runs out, so does the permanent position. We have witnessed 
many failed drug courts, failed court management software projects (due 
to training costs) and incomplete code development projects. When the 
Justice funding runs out, so does the project.
    As a directive from the Office of Management and Budget, our 
Reviews specifically examined how tribes were using Federal funding. In 
the last 5 fiscal years through fiscal year 2010 there were only two 
isolated incidents of a questionable expenditure of Federal funds. It 
is speculated that because of our limited resources, we compromise 
one's due process and invoke ``speedy trials'' violations to save 
Tribal Courts money. Everyone who is processed through the tribal 
judicial system is afforded their constitutional civil liberties and 
civil rights.
    We do not wish to leave an entirely negative impression about 
Tribal courts. Tribal courts need an immediate, sustained and increased 
level of funding. True. However, there are strong indications that the 
courts will put such funding to good use.
    There are tribes like the Fort Belknap Tribe of Montana whose chief 
judge manages both offices and holds court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
Team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the tribes to fix the damaged ceilings.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets and if 
the defense advocate, or prosecutor, should leave, the replacement 
process is slow.
    I come here today to tell the Congress these things. We feel it is 
our duty to come here on behalf of tribes to advocate for better 
funding. Tribes ask us to tell their stories. They open their files and 
records to us and say, ``We have nothing to hide''. Tell the Congress 
we need better facilities, more law enforcement, more detention 
facilities, more legal advice, better codes . . . the list goes on and 
on. But, as we have indicated, it all involves more funding. This 
Congress and this administration can do something great. Put your money 
where your promises have been.
National Requests
    We support the requests and recommendations of the National 
Congress of American Indians.
    On behalf of the Independent Tribal Court Review Team: Charles D. 
Robertson Jr., Honorable Philip D. Lujan, Ralph E. Gonzales, Myrna R. 
Rivera and myself, Thank you.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Good morning to the distinguished subcommittee members. Thank you 
for this opportunity. I am honored to present the appropriations 
request of the Lummi Nation for fiscal year 2012 to the Department of 
Commerce. Today, I am presenting a long-term, strategic plan described 
in a sustainable set of coordinated proposals to address the prolonged 
economic and cultural disaster and the suffering of our people. This 
strategy is a comprehensive approach combining habitat restoration, 
environmental monitoring and assessment, with Lummi Hatchery 
infrastructure improvements.
          lummi nation specific total request is--$11,650,000
    This funding is being requested under the 1855 Treaty of Point 
Elliot, Secretarial Order No. 3206, entitled ``American Indian Tribal 
Rights, Federal-Tribal Trust Responsibilities, and the Endangered 
Species Act (ESA), and section 312(a) of the Magnuson-Stevens Fishery 
Conservation and Management Act.''
Lummi Nation 2012 Budget Requests
    +$750,000 Monitoring and Assessment Program to include:
    --Habitat restoration program support
    --Environmental and fisheries monitoring program
    --Lummi Natural Resources Department policy staff support
    +$10.9 million--Salmon/Shellfish Hatcheries:
    --$6,716,000 Lummi Bay and Skookum Hatchery Improvements
    --$4,184,000 Lummi Shellfish Hatchery Improvements
                           regional requests
    The Lummi Nation supports the fiscal year 2012 requests of the 
Northwest Indian Fisheries Commission.
                           national requests
    The Lummi Nation supports the fiscal year 2012 Requests of the 
National Congress of American Indians.
  justification of requests--lummi nation specific total request is: 
                              $11,650,000
    +$750,000 Monitoring and Assessment Program.
    +$10.9 Million for Lummi Hatchery Infrastructure: Stock Re-Building 
Program.--The Lummi Nation requests funding to support this strategic 
plan to eliminate the tribe's dependence upon the Frasier River Sockeye 
salmon stock and to account for lost fishing opportunities imposed by 
the ESA. The Lummi Nation appropriation requests represent an 
investment in a sustainable strategy to maintain a future moderate 
living for fishermen as guaranteed by the treaty 1855 Point Elliot 
Treaty, affirmed by the U.S. Supreme Court (1979).
    The Lummi Nation currently operates two salmon hatcheries and one 
shellfish hatchery that support tribal and nontribal fisheries in the 
region. Lummi Nation hatcheries were originally constructed utilizing 
Department of Commerce funding received from 1969-1971. Since that time 
Hatchery operations and maintenance funding from the Bureau of Indian 
Affairs has been used. At the time of construction, those hatcheries 
were cutting edge.
    Original Hatchery infrastructure needs to be repaired, replaced or 
completely modernized. Lummi Nation fish biologists estimate that these 
facilities are now operating at 40 percent of their productive 
capacity. Through the operation of these hatcheries, the tribe annually 
produces 1 million fall Chinook salmon, 2 million Coho salmon, and 6.5 
million shellfish seed and 300,000 pounds of clams. These production 
numbers simply do not provide the fishing opportunity and associated 
economic benefits necessary to offset the financial loss caused by the 
Sockeye Salmon Fisheries Disaster. To provide sufficient salmon stock 
resources and shellfish harvest opportunities on an annual basis to the 
Lummi Fishing Fleet, the hatchery operations and associated 
infrastructure require rehabilitation.
    The hatchery infrastructure improvement plan represents an 
investment that increases the immediate annual return and is a long-
term sustainable activity.
     detailed hatchery line-itemized descriptions are listed below
Lummi Nation Skookum Creek Hatchery--$725,000
    New Raceways $725,000.--Replace originally constructed 
infrastructure that is deteriorating and falling apart.
Lummi Bay Hatchery--$5,991,000
    Nooksack River Pump Station $5,536,000.--The project will increase 
annual production by 300 percent by providing additional water to the 
hatchery. The major limiting factor to production at this facility is 
lack of freshwater. This project will ensure adequate water supply to 
achieve needed production levels.
    Rearing Pond Improvements $455,000.--Repair and pave juvenile 
rearing pond and restructure adult ladder and attraction complex.
Lummi Shellfish Hatchery--$4,184,000
    Improvements at Shellfish Hatchery $484,000.--Repair and expand 
current facility to increase seed production by improving heating and 
cooling systems, live feed production, and growout tank space
    Build a Geoduck-Specific Hatchery $2,400,000.--The current facility 
could then be dedicated to oyster and manila clam production. Increased 
seed production will increase enhancement activities on Lummi tidelands 
to create jobs for tribal harvesters and support the west coast 
shellfish industry and associated businesses.
    Repair the Seapond Tidegates $1,300,000.--Improving circulation 
within the Lummi Bay Seapond will improve production at both the 
shellfish and Lummi Bay salmon hatcheries and production of manila 
clams in the seapond.
                         background information
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third-largest tribe in the State, serving a 
population of more than 5,200 people. The Lummi Nation is a fishing 
nation. We have drawn our physical and spiritual subsistence from the 
rivers, marine tidelands, and marine waters since time immemorial. 
Lummi has rights guaranteed by the 1855 Treaty of Point Elliot to 
harvest fish, shellfish, and game in our Usual and Accustomed area. The 
Boldt decision of 1974 re-affirmed that right, and designated Lummi as 
a co-manager of a once abundant salmon fishery. Now, the abundance of 
wild salmon is gone. In 1985, the Lummi fishing Fleet landed more than 
15 million pounds of finfish and shellfish. In 2001, the combined 
harvest was approximately 3.9 million pounds. The remaining salmon 
stocks do not support tribal fisheries, and the nation is suffering 
both spiritually and economically.
    In 1973, the Endangered Species Act (ESA) was passed. The ESA 
should have resulted in improved salmon habitat and more resources for 
salmon habitat restoration, but the ESA has become a ``double-edged 
sword''. Today, the ESA has impacted tribal hatchery production and 
tribal harvests for commercial, subsistence, and ceremonial purposes. 
Tribal dependence on salmon and the timing of economic development 
results in tribal members and tribal governments bearing a 
disproportionate burden for the conservation of listed species. Lummi 
Treaty fishers are directly impacted by the listing of Puget Sound 
Chinook, Bull trout, and Puget Sound steelhead. Secretarial Order 3206, 
entitled ``American Indian Tribal rights, Federal-Tribal Trust 
Responsibilities, and the Endangered Species Act'', specifically states 
that ``. . . the Departments will carry out their responsibilities in a 
manner that . . . strives to ensure that Indian tribes do not bear a 
disproportionate burden for the conservation of listed species . . . 
.'' The Lummi Nation is actively engaged in recovering listed salmon 
species in our watershed, restoring critical habitat, and monitoring 
listed population to determine which factors adversely affect those 
populations and other critical but nonlisted species. The Lummi Nation 
cannot, however, continue to recover salmon and maintain our way of 
life without appropriations from the Federal Government.
           continuous sockeye fisheries disaster declaration
    In 2008, the Department of Commerce reissued the sockeye fishery 
disaster declaration in a statement contained in a letter to Lummi 
Nation, (see letter from Secretary, Department of Commerce, November 3, 
2001). The declaration conforms with the findings of the Congressional 
Research Services--``CRS Report to Congress, Commercial Fishery 
Disaster Assistance'', (RL-34209). For more information, see CRS Report 
RS21312, by Eugene H. Buck.
    In 2010, the Fraser river sockeye salmon run was the largest is 
recorded history. After years of sitting on the beach, the Lummi 
sockeye fleet was able to harvest sockeye salmon again. One good year, 
however, does not make up for the previous years of continuous 
fisheries disasters and associated loss of financial and cultural 
benefits. To account for the lack of a consistent sockeye salmon 
fishery and to make up for the lost fishing opportunity attributed to 
habitat degradation and subsequent salmon population crashes, the Lummi 
Nation plans to bolster both finfish and shellfish production from its 
facilities.
    Hatcheries ensure future salmon stock populations large enough to 
support our families and our way of life, until such time as the 
habitat is able to sustain harvestable levels of salmon. The Lummi 
Nation recognizes that hatcheries alone will not restore salmon stocks 
to historical levels. The Lummi Natural Resources Department allocates 
a substantial amount of time, effort, and funding to improving and 
monitoring freshwater habitat, managing and monitoring tribal harvest 
activities, and is intent upon restoring ecosystem function in the 
Nooksack River Basin.
    By improving hatchery production of shellfish, chum salmon, coho 
salmon, and Chinook salmon, the Lummi Nation will create a reliable 
backup resource to salmon fishers; decreasing tribal dependence on the 
sockeye fishery. Additionally, we seek to raise the value of these 
harvests through advanced marketing, the introduction of a fisher's 
market and shellfish growout operations for shellfish products.
                           regional requests
    The Lummi Nation supports the fiscal year 2012 requests of the 
Northwest Indian Fisheries Commission.
                           national requests
    The Lummi Nation supports the fiscal year 2012 requests of the 
National Congress of American Indians.
    On behalf of the Lummi Nation, Hy'shqe.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute
    Madam Chairwoman and members of the subcommittee: Marine 
Conservation Biology Institute (MCBI), based in Bellevue, Washington, 
is a nonprofit conservation organization whose mission is to protect 
vast areas of the ocean. We use science to identify places in peril and 
advocate for bountiful, healthy oceans for current and future 
generations. I wish to thank the members of the subcommittee for the 
opportunity to submit written testimony on the fiscal year 2012 
appropriations for the Department of Commerce, National Oceanic and 
Atmospheric Administration (NOAA).
    America's oceans provide jobs, energy resources, food, recreation 
and tourism opportunities, as well as play a vital role in our Nation's 
economy, trade, and transportation. According to the National Ocean 
Economics Program, the U.S. ocean economy contributes more than $138 
billion to our Nation's Gross Domestic Product from living marine 
resources, tourism, recreation, transportation, construction, and 
mineral extraction. Additionally, more than 2.3 million jobs in the 
United States depend on the marine environment.
    Keeping in mind the hard economic times our Nation is in, I would 
like to highlight the importance of maintaining or moderately 
increasing funds for eight of NOAA's programs.
                      hawaiian monk seal recovery
    The Hawaiian monk seal is one of the most critically endangered 
marine mammals in the world. It is also the only marine mammal whose 
entire distribution range lies within our national jurisdiction; thus 
the United States has sole responsibility for its continued survival. 
Over the last 50 years, the Hawaiian monk seal population has declined 
to an all-time low of less than 1,200 individuals. The majority of the 
Hawaiian monk seals reside in the remote Papahanaumokuakea Marine 
National Monument; however, a smaller (but growing) population resides 
in the Main Hawaiian Islands (MHI). The MHI population may serve as the 
``insurance'' population for this species.
    The recovery program has benefited greatly from the subcommittee's 
decision to more than double the funds for the program since 2008. Your 
action has created crucial momentum to protect the Hawaiian monk seal 
from extinction by enabling NOAA to establish year-round research field 
camps, conduct outreach to fishermen and the general public concerning 
the seal's ecological and cultural importance, provide urgent care and 
supplies, and continue vital research studies on disease and mortality 
mitigation.
    The administration has recommended $2.5 million for the monk seal 
account. In order to guarantee that the seal recovery effort continue 
apace, MCBI strongly recommends a minimum of $5.5 million (current 
level of funding) for continued Hawaiian monk seal recovery efforts.
             deep sea coral research and technology program
    The discovery of widespread deep sea coral ecosystems within U.S. 
waters has challenged scientists to learn the extent of these important 
ecosystems and develop strategies on how to protect them. The Deep Sea 
Coral Research and Technology Program was established by NOAA under the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act (MSRA) of 2006. NOAA is charged with mapping and monitoring 
locations where deep sea corals are likely to occur, developing 
technologies designed to reduce interactions between fishing gear and 
deep sea corals, and working with fishery management councils to 
protect coral habitats.
    MCBI was pleased to see increased funding for the National Marine 
Fisheries Service Deep Sea Coral Program to a level of $2.5 million in 
fiscal year 2010 and would like to see that level sustained in fiscal 
year 2012. Previous funding has allowed for coral habitat mapping in 
the SE Atlantic region. Sustained funding will permit the continued 
mapping of coral areas off the west coast, as well as the initiation of 
coral mapping in Alaska waters. There is a great need for habitat 
assessments to inform management and development decisions; reduced 
funding levels would severely hamper the compilation of this 
information.
                         marine debris program
    Marine debris has become one of the most widespread pollution 
problems affecting the world's oceans and waterways. Recently, much 
attention has been given by the press to the huge floating garbage 
patch in the Pacific Ocean and its impacts on ocean life and places 
like Hawaii. Research has shown that debris has serious effects on the 
marine environment, wildlife, the economy, and human health and safety. 
An estimated 4.2 million pounds of debris was recovered from U.S. 
beaches in 2009.
    Marine debris in the northwestern Hawaiian Islands (NWHI) 
contributes to avian and marine wildlife decline through ingestion and 
entanglement, and is one of the chief causes of death for the 
critically endangered Hawaiian monk seals that live there. An estimated 
700 metric tons of marine debris, primarily derelict fishing gear, was 
removed from NWHI coral reefs and beaches by NOAA between 1996 and 
2006.
    The Marine Debris Research, Prevention and Reduction Act was 
enacted in 2006 to identify, assess, reduce, and prevent marine debris 
and its effects on the marine environment. The Marine Debris Program 
has been level funded at $4 million since 2008. MCBI recommends NOAA's 
Marine Debris Program receive a minimum of $4 million in fiscal year 
2012 to maintain marine debris removal and mitigation efforts. However, 
MCBI recommends the program receive an additional $1 million to ramp up 
efforts to prevent and reduce the loss of fishing gear by the industry. 
Greater than 30 tons of derelict fishing gear is removed annually in 
the NWHI every year which causes damage to coral reefs and threatens 
the survival of many key species.
                      national marine sanctuaries
    Presently, the Office of National Marine Sanctuaries is responsible 
for managing the Nation's 13 marine sanctuaries and Papahanaumokuakea 
Marine National Monument in the northwestern Hawaiian Islands. 
Collectively, these 14 units cover more area than the National Park 
System.
    MCBI recommends $64 million to operate and maintain management 
capabilities for the National Marine Sanctuary System. This amount 
maintains fiscal year 2010 funding levels, but funnels all funds to the 
Operations, Research, and Facilities (ORF) account. This increase in 
the ORF account will allow the Office of National Marine Sanctuaries to 
fulfill its responsibilities as a leader in ocean management and 
conservation. The funding would not only restore reduced operations, 
but would also support better monitoring and enforcement, education and 
outreach programs, vessel and visitor center operations, and scientific 
research, including climate monitoring and historical ecology.
                     marine protected areas program
    NOAA is charged with implementing Executive Order 13158, Marine 
Protected Areas, which directs Federal agencies to develop a national 
system of marine protected areas (MPAs). These areas are critical to 
maintaining biological diversity, protecting ocean habitats, and 
effectively managing fish populations.
    Given the ongoing loss of our marine resources, the implementation 
of the Executive order has moved too slowly, partly due to insufficient 
funding. MCBI recommends $4 million for the MPA Center in fiscal year 
2011, a slight increase above the enacted fiscal year 2010 level, but 
below the fiscal year 2004 enacted level of $4.9 million. Critical 
program needs to be addressed with these additional funds include 
developing and expanding the national system of MPAs, allowing for 
stakeholder involvement in gap analyses and regional planning efforts, 
and developing a methodology to collect data on human uses of the ocean 
throughout the country and prepare maps of where these uses occur, and 
how they conflict with one another or with marine conservation needs. 
This information is vital to decisions about managing ocean uses.
                    coral reef conservation program
    NOAA's Coral Reef Conservation (CRCP) Program manages NOAA's coral 
reef programs including both deep sea corals, as directed by the Deep 
Sea Coral Research and Technology Program, and shallow water corals.
    CRCP's shallow water coral activities focus on improving 
understanding of tropical coral reef ecosystems and minimizing the 
threats to their health and viability. Due to limited resources, CRCP 
has narrowed its efforts to better understand and address the top three 
global threats:
  --climate change;
  --fishing; and
  --pollution.
    MCBI recommends $32 million to sustain and enhance the Coral Reef 
Conservation Program. These funds will aid in addressing the top three 
global threats by monitoring and forecasting climate change impacts on 
coral reefs, reducing additional threats to coral reef ecosystems, and 
combating land-based sources of pollution.
                  coastal and marine spatial planning
    Coastal and marine spatial planning (CMSP) is the tool adopted to 
implement the President's National Ocean Policy (2010). CMSP is a 
comprehensive, integrated, ecosystem-based approach that addresses 
conservation, economic activity, user conflict, and the sustainable use 
of ocean, coastal, and Great Lakes resources. A strong National Policy 
will help our Nation rebuild overexploited fisheries, protect 
endangered species, restore vulnerable habitats, and develop measures 
to address marine impacts of climate change, all of which will 
strengthen our nation's economy.
    Coastal and marine spatial planning requires a long-term 
commitment, as well as adequate and sustained resources. MCBI is 
encouraged by the administration's recommendation of $6.7 million for 
coastal and marine spatial planning, but recommends an increased 
funding level of $10 million to ensure the proper set up of key 
programs. This funding will support habitat mapping and 
characterization using existing data sets at NOAA; human use patterns 
mapping and user conflicts analysis; identification of current 
management authorities and jurisdictions; development of decision 
support tools; initial regional planning; and coordination of multiple 
agency efforts.
                      regional ocean partnerships
    Regional Ocean Partnerships (ROP) are a component of the Framework 
for Coastal and Marine Spatial Planning. Coastal States have already 
established regional ocean partnerships, many of which will inform the 
regional planning bodies that will implement CMSP. These partnerships 
will be used as place-based lenses through which funding can be focused 
for marine and coastal priorities at a State and regional level. MCBI 
recommends $30 million for regional ocean partnerships to provide 
competitive grants to address priority marine and coastal issues within 
each region.
                          ocean acidification
    Ocean acidification is the process by which seawater becomes 
corrosive to calcium carbonate structures found in many of the shells 
and skeletons of marine organisms, such as oysters and corals. It is a 
major marine impact associated with elevated carbon dioxide levels in 
the atmosphere. Ocean acidification has already begun to negatively 
impact commercial and recreational fishing, as well as coastal 
communities and economies.
    The Federal Ocean Acidification Research and Monitoring (FOARAM) 
Act that passed in early 2009 calls upon NOAA to coordinate research, 
establish a monitoring program, identify and develop adaptation 
strategies and techniques, encourage interdisciplinary and 
international understanding of the impacts associated with ocean 
acidification, improve public outreach, and provide critical research 
grants to understanding the ecosystem impacts and socioeconomic effects 
of ocean acidification. Ocean acidification research was appropriated 
at $6 million in fiscal year 2010. MCBI supports the presidential 
recommendation of $11.6 million in fiscal year 2012 to more fully 
understand the impacts of ocean acidification on our coastal 
communities.
    In summary, MCBI respectfully requests that the subcommittee 
maintain or slightly augment funding for the conservation side of the 
NOAA's budget by the amounts discussed above.
                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network
    On behalf of the nearly 200 member groups nationally who are 
dedicated to conserving marine fish and achieving sustainable 
fisheries, the Marine Fish Conservation Network (Network, or MFCN) 
submits the following testimony for the record on the fiscal year 2012 
budget for National Marine Fisheries Service (NMFS) within the National 
Oceanic and Atmospheric Administration (NOAA), Department of Commerce. 
For fiscal year 2012, the Network is asking the subcommittee to 
increase funding for core fisheries conservation and management 
programs $21.2 million more than the President's fiscal year 2012 
request in the following program areas:

                      NETWORK RECOMMENDATIONS FOR CORE FISHERIES PROGRAMS, FISCAL YEAR 2012
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    President's     MFCN fiscal
           NOAA/NMFS Fisheries Research and Management              Fiscal year     fiscal year      year 2012
                                                                   2010 enacted    2012  request      request
----------------------------------------------------------------------------------------------------------------
Expand annual stock assessments.................................            50.9            67.1            67.1
Fisheries statistics/MRIP.......................................            21.0            24.4            24.4
Fishery observers...............................................            41.0            39.1            50.0
Fisheries cooperative research..................................            17.5             7.2            17.5
Survey and monitoring projects..................................            23.7            24.2            24.2
----------------------------------------------------------------------------------------------------------------

    The Network supports the President's requested increase of $16.2 
million above the fiscal year 2010 funding level to expand annual stock 
assessments as well as the $3.4 million increase for Fisheries 
Statistics to expand recreational fishery monitoring activities--both 
are critical to successful ACL implementation in U.S. fisheries in 2011 
and beyond. However, the Network also seeks additional funding of $9 
million above fiscal year 2010 for Fishery Observers and seeks level 
funding for Cooperative Research at the fiscal year 2010 level of $17.5 
million, for the reasons provided below. Investments in these 
interrelated activities are not only essential for stewardship of the 
Nation's fisheries resources, but for sustaining businesses and 
communities whose livelihoods depend on healthy fisheries.
    Information provided by these core programs reduces scientific and 
management uncertainty and enables fishery managers to make informed 
decisions when setting annual catch limits (ACLs), a new requirement 
for all U.S. fisheries in 2011 that is intended to provide a 
transparent accounting mechanism for measuring compliance with the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA or MSRA) 
requirements to prevent overfishing and rebuild overfished stocks.\1\ 
Therefore, we respectfully request the following amounts in NMFS 
Fisheries Management and Research programs for activities supporting 
baseline data collection, fishery monitoring, and stock assessment 
science which provide the basis for sustainable management and informed 
decisionmaking in the catch-setting process:
---------------------------------------------------------------------------
    \1\ Senate Report 109-229 on S. 2012 (April 4, 2006), p. 21.
---------------------------------------------------------------------------
      expand annual stock assessments--mfcn request: $67.1 million
    The requirement of the MSRA for ACLs in all U.S. fisheries by 2011 
increases the need for timely, reliable fisheries data and stock 
assessments. Quantitative stock assessments provide the scientific 
basis for setting numerical catch limits that prevent overfishing and 
optimize yield. Absent significant new funding for stock assessment 
development, many fishery ACLs will have to be specified without 
assessments or using assessments that are infrequently updated. Without 
a current knowledge base, fishery scientists and managers will have to 
exercise greater caution to account for higher uncertainty and risk of 
overfishing. Investments in stock assessments reduce uncertainty and 
enable managers to increase fishing opportunities safely.
    The President's fiscal year 2012 budget requests a significant 
increase of $16.2 million more than the fiscal year 2010 funding level 
of $50.9 million to expand annual stock assessments. The President's 
fiscal year 2012 request of $67.1 million for expanded stock assessment 
development will provide critically needed resources to assess priority 
stocks in the ACL implementation process, including additional 
resources in the southeast region to establish assessment benchmarks 
for post spill management of the Gulf of Mexico fisheries. Because the 
information provided by stock assessments is so vital to the MSA's 
near-term requirements and long-term goals for sustainable management 
of U.S. fisheries, the President's requested increase of $16.2 million 
to expand annual stock assessments should receive the highest priority 
for funding at the level of $67.1 million in fiscal year 2012.
           fisheries statistics--mfcn request: $24.4 million
    The President's fiscal year 2012 budget requests $24.4 million for 
the Fisheries Statistics line, an increase of $3.4 million more than 
the fiscal year 2010 enacted level. The increase is intended for the 
Marine Recreational Information Program (MRIP), the new and improved 
national data collection program for recreational saltwater fisheries 
that is intended to address the shortcomings identified in a review of 
existing recreational fisheries data collection programs by the 
National Research Council (NRC 2006).\2\ In response to this NRC review 
and new requirements in the reauthorized Magnuson-Stevens Act of 
2006,\3\ NMFS has launched a number of initiatives to implement 
improved recreational fisheries survey methods and is also completing 
the implementation of a new saltwater angler registry. Additional 
funding will be necessary to improve the precision and timeliness of 
recreational catch statistics for use in fishery management.
---------------------------------------------------------------------------
    \2\ National Research Council (2006). Review of Recreational 
Fisheries Survey Methods.
    \3\ MSA 16 U.S.C. Sec. 1881(g).
---------------------------------------------------------------------------
    The MRIP was funded at a level of approximately $9 million in 
fiscal year 2010, through the Fisheries Statistics and the Fisheries 
Research and Management budget lines. NMFS has indicated that 
approximately $20 million is needed to fully implement the program, and 
the Fisheries Statistics line has been identified as the appropriate 
place for additional funding for MRIP. The President's fiscal year 2012 
budget requests a funding level of $24.4 million for Fisheries 
Statistics, reflecting an increase of $3.4 million more than the fiscal 
year 2010 funding level to increase the MRIP budget from $9 million to 
$12 million. As an incremental step toward full implementation of the 
Marine Recreational Information Program that will provide additional 
resources for ACL implementation in recreational saltwater fisheries, 
the President's requested funding level of $24.4 million for Fisheries 
Statistics is strongly recommended in fiscal year 2012.
       fishery observers and training--mfcn request: $50 million
    At-sea observers are the most reliable source of information about 
fishery catch, bycatch and at-sea discards, and they are a central 
pillar of the national fishery bycatch strategy.\4\ \5\ Observers also 
monitor the incidental entanglement and mortality of protected marine 
mammals, seabirds and sea turtles. The President's fiscal year 2012 
budget requests $39.1 million to the national fishery observer program, 
a cut of nearly $2 million from the enacted fiscal year 2010 level. 
Current funding supports at-sea observer programs in 40 broadly defined 
fisheries nationwide, only 23 of which are considered by NMFS to have 
adequate levels of observer coverage. The agency's goal for observer 
coverage is approximately 85 fisheries, based on a 2004 national 
bycatch report.\6\ The President's fiscal year 2012 request for fishery 
observers would mean a significant loss in the already limited 
capability of the program to deploy observers where needed.
---------------------------------------------------------------------------
    \4\ NOAA/NMFS, Evaluating Bycatch: A National Approach to 
Standardized Bycatch Monitoring Programs, NOAA Technical Memorandum 
NMFS-F/SPO-66, October 2004. 108 pp.
    \5\ National Standard 9 (NS9) of the MSA requires fishery managers 
to minimize bycatch and to minimize the mortality of bycatch that 
cannot be avoided (16 U.S.C. 1851(9)). Section 303 of the MSA requires 
Fishery Management Plans to establish a standardized reporting 
methodology to assess the amount and type of bycatch occurring in the 
fishery, and to include measures consistent with NS9 to minimize 
bycatch (16 U.S.C. Sec. Sec. 1853(11)).
    \6\ See NOAA Fiscal Year 2010 Budget Request, President's 
Submission to Congress, Exhibit 13, p. 245. The full list of fisheries 
prioritized for observer coverage in 2004 can be found in: U.S. 
Department of Commerce/NOAA/NMFS, Evaluating Bycatch: A National 
Approach to Standardized Bycatch Monitoring Programs, NOAA Technical 
Memorandum NMFS-F/SPO-66, October 2004. 108 pp.
---------------------------------------------------------------------------
    To achieve adequate observer coverage in all high-priority 
fisheries and provide reliable estimates of catch and bycatch for 
management purposes in the ACL-setting process, the Network recommends 
an appropriation of at least $50 million ($9 million above the fiscal 
year 2010 enacted level) for fishery observers and observer training in 
fiscal year 2012.
         cooperative research--mfcn 2012 request: $17.5 million
    The Omnibus Appropriations Act of 2010 funded Cooperative Research 
at NOAA's requested fiscal year 2010 level of $17.5 million to expand a 
regionally based competitive grants program that funds partnerships 
between fishermen and scientists to advance the science and management 
of the Nation's fisheries. Grants awarded to qualifying projects 
leverage the expertise of fishermen to support the acquisition of 
fishery data, improve our understanding of fish populations, and test 
innovative fishing gear designs and other technologies which can 
increase fishery performance, reduce operational costs, enhance safety 
at sea, and save fishing jobs in coastal communities.\7\ Cooperative 
research partnerships can increase the confidence of fishermen in data 
used in decisionmaking and create employment opportunities in fishing 
communities. The President's fiscal year 2012 request would cut $10.3 
million from the fiscal year 2010 enacted funding level for Cooperative 
Research. The Network believes that substantial new opportunities for 
cooperative research remain untapped, and therefore the Network 
recommends an appropriation of $17.5 million for Cooperative Research 
in fiscal year 2012.
---------------------------------------------------------------------------
    \7\ For program details, go to: http://www.st.nmfs.noaa.gov/st4/
NationalCooperativeResearch
Coordination.html.
---------------------------------------------------------------------------
           survey and monitoring--mfcn request: $24.2 million
    The Omnibus Appropriations Act of 2010 funded this program at 
NOAA's requested fiscal year 2010 level of $23.7 million, and the 
President's fiscal year 2012 budget requests $24.2 million. This budget 
line supports the collection of fishery-independent resource survey 
data as well as fishery catch data needed for developing and updating 
stock assessments in some of the Nation's most iconic and important 
fisheries, including red snapper, bluefin tuna, bluefish, striped bass, 
and Alaska pollock. The President's fiscal year 2012 request would 
maintain essential resource survey and monitoring programs that support 
the management of highly valued fisheries, therefore an appropriation 
of $24.2 million for Survey and Monitoring is recommended for fiscal 
year 2012.
    Maintaining adequate public investments in the management of the 
Nation's fisheries is critical to realize their full potential.\8\ 
Increased investments in these fisheries programs will improve efforts 
to set sustainable catch limits and monitor compliance, facilitate the 
rebuilding of fisheries to meet their full economic and biological 
potential, and increase fishing industry confidence in the science 
being used to make management decisions.
---------------------------------------------------------------------------
    \8\ For instance, see: Somma (2003), Pew Oceans Commission (2003), 
Sumaila and Suatoni, (2005), Dyck and Sumaila (2010).
---------------------------------------------------------------------------
    Thank you for considering our request.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Thank you for the opportunity to provide written testimony on the 
Department of Commerce fiscal year 2012 appropriations. My name is 
Billy Frank, and I am the chairman of the Northwest Indian Fisheries 
Commission (NWIFC). The NWIFC is comprised of the 20 tribes party to 
the United States vs. Washington,\1\ and we support funding for NOAA-
National Marine Fisheries Service (NMFS) and the National Ocean Service 
(NOS) budgets. We are pleased that the budgets for these services 
continue to be given the serious attention they deserve by the 
administration and hope that the Congress will agree.
---------------------------------------------------------------------------
    \1\ United States vs. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
    In particular, we appreciate a number of the new National Ocean 
Policy initiatives that support key Federal, State, and tribal 
partnerships. The creation of the National Ocean Council and its 
Governance Advisory Coordinating Committee (GACC) represents the 
increased focus on oceans. The GACC includes three, at-large tribal 
representatives including one from the Washington Coastal Treaty Tribes 
represented by the NWIFC.
           summary of fiscal year 2012 appropriations request
NWIFC Specific Funding Requests
  --$110 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        National Marine Fisheries Service)
  --$20 million for the Regional Ocean Partnership Grants Program 
        (NOAA/National Ocean Service)
  --$3 million for the Pacific Salmon Treaty Chinook Annex (NOAA/
        National Marine Fisheries Service)
  --$16 million for the Mitchell Act Hatchery Program, plus funding 
        required for reform projects (NOAA/National Marine Fisheries 
        Service)
Justification of Requests
            $110 Million for the Pacific Coastal Salmon Recovery Fund
    The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-State, 
multi-tribe program established by the Congress in fiscal year 2000 
with a primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF seeks to aid the conservation, 
restoration and sustainability of Pacific salmon and their habitats by 
financially supporting and leveraging local and regional efforts. 
Recognizing the need for flexibility among tribes and the States to 
respond to salmon recovery priorities in their watersheds, the Congress 
initially provided funds for salmon habitat restoration, salmon stock 
enhancement, salmon research, and implementation of the 1999 Pacific 
Salmon Treaty Agreement between the United States and Canada. PCSRF is 
making a significant contribution to the recovery of wild salmon 
throughout the region.
    The tribes' overall goal in the PCSRF program is to ``restore wild 
salmon populations. The key tribal objective is to protect and restore 
important habitat that promotes the recovery of Endangered Species Act 
(ESA) listed species and other salmon populations in Puget Sound and 
along the Washington coast that are essential for western Washington 
tribes to exercise their treaty-reserved fishing rights consistent with 
United States vs. Washington and Hoh vs. Baldrige.\2\ These funds will 
also support policy and technical capacities within tribal resource 
management departments to plan, implement, and monitor recovery 
activities.
---------------------------------------------------------------------------
    \2\ Hoh vs. Baldrige--A Federal court ruling that required 
fisheries management on a river-by-river basis.
---------------------------------------------------------------------------
    It is for these reasons that the tribes strongly support the 
Pacific Coastal Salmon Recovery budget justification which reads, in 
part, ``. . . for necessary expenses associated with the restoration of 
Pacific salmon populations, . . . provided that of the funds provided 
herein the Secretary of Commerce may issue grants to the States of 
Washington, Oregon, Idaho, Nevada, California, and Alaska, and 
federally recognized tribes of the Columbia River and Pacific coast 
(including Alaska) for projects necessary for conservation of salmon 
and steelhead populations that are listed as threatened or endangered, 
or identified by a State as at-risk to be so-listed, for maintaining 
populations necessary for exercise of tribal treaty fishing rights or 
native subsistence fishing, or for conservation of Pacific coastal 
salmon and steelhead habitat, based on guidelines to be developed by 
the Secretary of Commerce.''
    The tribes have used these funds to support the scientific salmon 
recovery approach that makes this program so unique and important. 
Related to this scientific approach has been the tribal leadership and 
effort which has developed and implemented the ESA-listed Puget Sound 
Chinook Recovery Plan recently approved by NOAA.
    Unfortunately, the PCSRF monies have decreased over the past few 
years from the fiscal year 2002 amount of $110 million. Restoration of 
this line item in fiscal year 2012 to the $110 million level will 
support the original intent of the Congress and enable the Federal 
Government to fulfill its obligations to salmon recovery and the treaty 
fishing rights of the tribes.
            $20 Million for the Regional Ocean Partnership Grants 
                    Program
    The Hoh Tribe, Makah Tribe, Quileute Tribe, and the Quinault Indian 
Nation have deep connections to the marine resources off the coast of 
Washington. They have pioneered cooperative partnerships with the State 
of Washington and the Federal Government in an effort to advance the 
management practices in the coastal waters. However, to have an 
effective partnership, the tribes and their partners need additional 
funding.
    The four tribes, the State of Washington and NOAA's National Ocean 
Service, through the Marine Sanctuary Program, have formed the 
Intergovernmental Policy Council (IPC), which is intended to strengthen 
management partnerships through coordination and focus of work efforts. 
Through this partnership, the entities hope to maximize resource 
protection and management, while respecting existing jurisdictional and 
management authorities. In addition to this partnership with the Marine 
Sanctuary Program, the four tribes have proposed a mechanism by which 
they can effectively engage with the West Coast Governors' Agreement 
for Ocean Health to create a regional ocean planning group for the west 
coast that is representative of the States and sovereign tribal 
governments with an interest in the ocean.
    The four coastal tribes and the State also wish to engage in an 
ocean monitoring and research initiative to support and transition into 
an ecosystem-based fisheries management plan for the Washington coast. 
This tribal-State effort would be in collaboration with NOAA and 
consistent with regional priorities identified by a regional planning 
body. Effective management of the ocean ecosystem and its associated 
resources requires the development of baseline information against 
which changes can be measured. This initiative will expand on and 
complement existing physical and biological databases to enhance 
ecosystem-based management capabilities. In turn, this will support 
ongoing efforts by the State and tribes to become more actively engaged 
in the management of offshore fishery resources.
    For the tribes to participate in this regional ocean planning body, 
and for the tribes and State to conduct an ocean monitoring and 
research initiative off the Washington coast, they will need funding to 
support this effort. The Regional Ocean Partnership Grants program, 
within the National Ocean Service Coastal Management account, would be 
an ideal program to support tribal participation with the West Coast 
Governors' Agreement to address ocean governance and coastal/marine 
spatial planning issues.
            $3 Million for the Pacific Salmon Treaty 2008 Chinook Annex
    Adult salmon returning to most western Washington streams migrate 
through United States and Canadian waters and are harvested by 
fisherman from both countries. For years, there were no restrictions on 
the interception of returning salmon by fishermen of neighboring 
countries.
    In 1985, after two decades of discussions, the Pacific Salmon 
Treaty (PST) was created through the cooperative efforts of tribal, 
State, United States and Canadian governments, and sport and commercial 
fishing interests. The Pacific Salmon Commission (PSC) was created by 
the United States and Canada to implement the treaty, which was updated 
in 1999, and most recently in 2008.
    The 2008 update of the treaty gave additional protection to weak 
runs of Chinook salmon returning to Puget Sound rivers. The update 
provides compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
    As co-managers of the fishery resources in western Washington, 
tribal participation in implementing the PST is critical to achieve the 
goals of the treaty to protect, share and restore salmon resources. We 
support the fiscal year 2012 NOAA Fisheries budget which includes $3 
million to implement the 2008 Pacific Salmon Treaty Chinook Annex. 
Specifically, the funds would be used for Coded-Wire-Tag (CWT) Program 
Improvements ($1.5 million) and Puget Sound Critical Stocks 
Augmentation ($1.5 million).
            $16 Million for the Mitchell Act Hatchery Program, Plus 
                    Funding Required for Reform Projects
    Salmon produced by the Mitchell Act hatcheries on the lower 
Columbia River are critically important in that they provide 
significant harvest opportunities for both Indian and non-Indian 
fisheries off the coast of Washington. This hatchery production is 
intended to mitigate for the lost production caused by the hydropower 
dam system on the Columbia River. This hatchery production is also 
important in that it dampens the impact of Canadian fisheries under the 
terms of the PST Chinook Annex on Puget Sound and coastal stocks. This 
funding provides for the operations of this important hatchery program 
along with required reform projects. The funding is required to 
mitigate for the Federal hydropower system on the Columbia River.
                              our message
    We generally support the administration's fiscal year 2012 budget 
with the changes noted above. The tribes strive to implement their co-
management authority and responsibility through cooperative and 
collaborative relationships with the State and local communities. The 
work the tribes do benefits all the citizens of the State of 
Washington, the region and the Nation. But the increasing challenges I 
have described and the growing demand for our participation in natural 
resource/environmental management requires increased investments of 
time, energy and funding.
    We are sensitive to the budget challenges that the Congress faces. 
Still, we urge you to increase the allocation and appropriations that 
can support priority ecosystem management initiatives. For the sake of 
sustainable health, economies and the natural heritage of this 
resource, it is critically important for the Congress and the Federal 
Government to do even more to coordinate their efforts with State and 
tribal governments.
                               conclusion
    Clearly, western Washington tribes are leaders in protecting and 
sustaining our natural resources. The tribes possess the legal 
authority, technical and policy expertise, and effectively manage 
programs to confront the challenges that face our region and Nation.
    The tribes are strategically located in each of the major 
watersheds, and no other group of people is more knowledgeable about 
the natural resources. No one else so deeply depends on the resources 
for their cultural, spiritual and economic survival. Tribes seize every 
opportunity to coordinate with other governments and nongovernmental 
entities, to avoid duplication, maximize positive impacts, and 
emphasize the application of ecosystem management. We continue to 
participate in resource recovery and habitat restoration on an equal 
level with the State of Washington and the Federal Government because 
we understand the great value of such cooperation.
    We ask that the Congress help us in our efforts to protect and 
restore our great natural heritage and support our funding requests. 
Thank you.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2012 
appropriations for the National Science Foundation (NSF). We encourage 
the Congress to provide NSF with at least $7.767 billion in fiscal year 
2012.
    The NSF drives innovation and supports job creation by awarding 
research grants to scientists and institutions; assisting with the 
acquisition of research infrastructure and instrumentation; and 
training students and teachers. Collectively, these activities provide 
the foundation for the Nation's research enterprise, generating 
information that ultimately drives economic growth, improves human 
health, addresses energy needs, and enables sustainable management of 
our natural resources. These efforts, however, require a sustained and 
predictable Federal investment. Unpredictable swings in Federal funding 
can disrupt research programs, create uncertainty in the research 
community, and stall the development of the next great idea. The budget 
request for fiscal year 2012 would invest in these critical efforts by 
allowing NSF to fund nearly 2,000 additional research grants, thereby 
supporting more than 6,000 additional researchers and students.
    The Biological Sciences Directorate (BIO) within NSF is the primary 
Federal supporter of basic biological research, and serves a vital role 
in ensuring our Nation's continued leadership in the biological 
sciences. BIO provides roughly 68 percent of Federal grant support for 
fundamental biological research conducted at our Nation's universities 
and other nonprofit research centers, such as natural history museums. 
BIO's support of transformative research has advanced our understanding 
of complex living systems and is leading the way forward in addressing 
major challenges--conserving biodiversity, mitigating and adapting to 
climate change, and developing new bio-inspired technologies.
    Equally important, NSF provides essential support for our Nation's 
biological research infrastructure, such as natural science 
collections, university-based natural history museums, and field 
stations. These research centers enable scientists and students to 
study the basic data of life, conduct modern biological and 
environmental research, and provide undergraduate and graduate students 
with hands-on training opportunities.
    We strongly encourage the Congress to support the request for $10 
million to support the digitization of high-priority U.S. specimen 
collections. Collections play a central role in many fields of 
biological research, including disease ecology, biodiversity, and 
climate change. They also provide critical information about existing 
gaps in our knowledge of life on Earth. This investment would help the 
scientific community ensure access to and appropriate curation of 
irreplaceable biological specimens and associated data, and would 
stimulate the development of new computer hardware and software, 
digitization technologies, and database management tools. For example, 
this effort is bringing together biologists, computer and information 
scientists, and engineers in multi-disciplinary teams to develop 
innovative imaging, robotics, and data storage and retrieval methods. 
These tools will expedite the digitization of collections and, more 
than likely, contribute to the development of new products or services 
of value to other industries.
    The fiscal year 2012 budget would also continue efforts to better 
understand biodiversity. Funding is included for the Dimensions of 
Biodiversity program to support cross-disciplinary research to define 
the impacts of biodiversity on ecosystem services and human well being.
    The Directorate for Geosciences (GEO) also supports research and 
student training opportunities with natural history collections. GEO 
supports cross-disciplinary research on the interactions between 
Earth's living and nonliving systems--research that has important 
implications for our understanding of climate change, water and natural 
resource management, and biodiversity.
    Within the Directorate for Education and Human Resources, the 
Informal Science Education program is advancing our understanding of 
informal science, technology, engineering, and mathematics (STEM) 
learning. This program supports projects that create tools and 
resources for STEM educators working outside of traditional classrooms. 
The program also builds professional capacity for research, 
development, and practice in the field. We urge the Congress to support 
the administration's fiscal year 2012 budget request for this program.
                               conclusion
    Continued investments in natural history collections and the 
biological sciences are critical. The President's budget request for 
NSF will help spur economic growth and innovation and continue to build 
scientific capacity at a time when our Nation is at risk of being 
outpaced by our global competitors. Please support an investment of 
$7.767 billion in NSF for fiscal year 2012.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the NSF.
                           about nsc alliance
    The Natural Science Collections Alliance (NSC Alliance) is a 
nonprofit association that supports natural science collections, their 
human resources, the institutions that house them, and their research 
activities for the benefit of science and society. We are comprised of 
more than 100 institutions who are part of an international community 
of museums, botanical gardens, herbariums, universities, and other 
institutions that house natural science collections and utilize them in 
research, exhibitions, academic and informal science education, and 
outreach activities.
                                 ______
                                 
            Prepared Statement of the Pew Environment Group
    Dear Chairwoman Mikulski and Ranking Member Hutchison: We, the 
undersigned 137 organizations representing a diverse range of 
commercial and recreational fishing associations, commercial seafood 
dealers, the charter and for-hire industry, fishery dependent 
businesses and ocean conservation organizations, collectively urge the 
subcommittee and all Members of Congress to support the President's 
fiscal year 2012 NOAA budget request of $91.5 million for the Expand 
Annual Stocks Assessments and Fisheries Statistics line-items. We 
request that you make these data collection and analysis line items a 
top priority in fiscal year 2012.
    The National Marine Fisheries Service estimates that U.S. 
commercial and saltwater recreational fishing contributes more than 
$160 billion to the economy annually and supports nearly 2 million 
jobs. These industries rely on healthy fish populations, which provide 
food for our tables, offer recreational opportunities for millions of 
Americans and sustain jobs and communities on every coast. The Congress 
should invest in America's fish populations and fishing businesses by 
providing the funding necessary to ensure that managers use the best 
science possible to guide stewardship of our ocean fish resources.
     expand annual stock assessments ($67.1 million, as requested)
    Stock assessments provide the basic information that scientists use 
to determine the health of fish populations. Assessments provide 
estimates of abundance and catch levels that a fish population can 
support. Increased funding will reduce scientific and management 
uncertainty and will allow managers to set catch levels and 
accountability measures that maximize fishing opportunities while 
rebuilding those that have been determined to be overfished and 
maintaining healthy fish populations.
           fisheries statistics ($24.4 million, as requested)
    The 2006 amendments to the Magnuson Stevens Act required the 
agency, within 2 years, to improve the quality and accuracy of their 
primary private angler data collection program. These amendments led to 
the establishment of the Marine Recreational Information Program which 
is funded primarily through the Fisheries Statistics budget line. 
Investment of funds for this line item will improve data on 
recreational catch levels and participation, and will help scientists 
to better estimate recreational fishing mortality and set more accurate 
catch limits. This program will also result in more timely decisions 
that both the regional fishery management councils and the fishing 
industry need to improve management and potentially lead to more 
fishing opportunities.
    Thank you for your consideration of our requests. Rarely does such 
a diverse group of U.S. stakeholders agree on fishery-related issues, 
but on the need to adequately fund fisheries data collection there is 
no disagreement. If we are going to have abundant fisheries, the 
Congress must provide the resources to necessary to sustainably manage 
ocean fish by ensuring that management decisions are based on timely 
and accurate information and analysis. The health of America's ocean 
fish populations and the jobs, income, recreation, seafood, and 
communities that they sustain depend on your investments in fiscal year 
2012.
National:
Berkley Conservation Institute, Pure Fishing
Blue Ocean Institute
Bonefish and Tarpon Trust
Environment America
Center for Environment, Commerce & Energy, African American 
Environmentalist Association
Environmental Defense Fund
FishWise
Greenpeace USA
Interfaith Council for the Protection of Animals and Nature
International Game Fish Association
Marine Fish Conservation Network
National Audubon Society
National Marine Sanctuary Foundation
Natural Resources Defense Council
Ocean Conservancy
Ocean Conservation Research
OCEAN Magazine
Oceana
Pew Environment Group
Plant a Fish
Reef Relief
Republicans for Environmental Protection
Sailors for the Sea
Shark Savers
Sport Fishing Magazine
Waterkeeper Alliance
West Marine
Alabama:
AAA Charters
  
Alaska:
Alaska Marine Conservation Council
  
California:
Intersea Foundation
Reef Check California
World of Diving
Delaware:
Delaware Nature Society
  
Florida:
Eric Zamora Photography
Fantastic Endeavors
Gulf Coast Conservancy
Hernando Audubon Society
Indian Riverkeeper
Just-in-Time Charters
North Swell Media
Off the Bank Charters
Palm Beach County Reef Rescue
Sanibel Captiva Conservation Foundation
Snook Foundation
St. Lucie County Conservation Alliance
Hawaii:
Hawaii Fishing & Boating Association
SeaPics.com
Maine:
Island Institute
Maine Rivers
Midcoast Fishermen's Association
Midcoast Fishermen's Cooperative
Maryland:
Backwater Angler
Center for Chesapeake Communities
Chesapeake Bay Foundation
Environment Maryland
Prime Seafood
Massachusetts:
AL Cignoli Company
Alewives Anonymous
Bach Corp
Byson Investments
Capt. John Boats
Cence Cincotti Strategies
Conservation Law Foundation
Full Armor
FV Alyson Marie
FV Karen M.
Ipswich River Watershed Association
Johnston Associates
MD Group
New England Coastal Wildlife Alliance
O'Sullivan & Associates
Plymouth Area Chamber of Commerce
New Jersey:
Environment New Jersey
Great Egg Harbor Watershed Association
SandyHook SeaLife Foundation
New York:
Alpha Dive Training
Citizens Campaign for the Environment
Coastal Water Guides
Green Drinks NYC
Integrated Electronic Systems
North Flats Guiding
Ocean Blue Divers
Riverkeeper
Swim and Scuba Tiedemann's Diving Center
North Carolina:
NC Sierra Club
Lower Neuse Riverkeeper
Upper Neuse Riverkeeper
North Carolina League of Conservation Voters
Pamlico-Tar River Foundation
White Oak-New Riverkeeper Alliance
Ohio:
Deep Blue Adventures
  
Oregon:
Northwest Environmental Advocates
  
Pennsylvania:
Juniata Valley Audubon
PennEnvironment
Rhode Island:
Big Blue Aquatic Gifts
Snapper Charters
South Carolina:
South Carolina Coastal Conservation League
  
Texas:
Circle H Outfitters
Charter Fishermen's Association
Environment Texas
Geaux Fishing Charters
Hingle's Guide Service
Reel Threel Saltwater
Underwater Expeditions
Virginia:
5 Point Norfolk Farm Market
Alchemy Redefined
Alt Daily
And Design Collective
Batten Bay Farm
Beach Flavor
Central VA Wind Energy and Manufacturing
Cherry Brothers Railing Company
Chesapeake for Change
Counseling Interventions
Croc's Eco-Bistro
Dominion Fuels
Echelon Pavers
Eco Maniac
Green Alternatives
Green Jobs Alliance
Greener Results Virginia
Hampton Roads Green Caffeine
Hampton Roads Green Drinks
ModTra Corp
MoveOn.Org-Hampton Roads
Naro Expanded Cinemas
Nuckols Tree Care
Riehl Photography and Green Irene
Sabrosa Foods
Shenandoah Riverkeeper
Solar Services-Virginia Beach
Sunrise Solar and Wind
Terra-Scapes Environmental Consulting
Treehouse Magazine
Washington:
Sustainable Fisheries Foundation
  
                                 ______
                                 
              Prepared Statement of Pew Environment Group
    The Pew Environment Group (PEG) appreciates the opportunity to 
provide testimony on the National Oceanic and Atmospheric 
Administration (NOAA) fiscal year 2012 budget request, particularly as 
it relates to implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA). In order to meet the critical 
fisheries management requirements of the MSA, PEG supports the 
President's fiscal year 2012 budget request of $346.3 million for data 
collection and analysis programs at the National Marine Fisheries 
Service (NMFS). We are concerned that the current request does not 
represent the long-term investment level needed to maintain sustainable 
fisheries in the future and would like to discuss this further with the 
subcommittee. However, given current fiscal constraints we are prepared 
to support the proposed funding levels.
    In the 35 years since the law was enacted on April 13, 1976, the 
MSA has enjoyed strong bipartisan support, including the most recent 
2006 reauthorization, which was sponsored by the late Senator Ted 
Stevens and signed into law by President George W. Bush. The MSA 
provides the legal tools to sustainably manage ocean fish, one of 
America's most valuable natural resources. Healthy fish populations are 
the backbone of America's commercial and recreational saltwater fishing 
industries, which according to NMFS generated $163 billion in sales 
impacts and supported nearly 1.9 million full and part-time jobs in 
2008 alone.\1\ For this reason, diverse stakeholders including 
commercial fishermen, recreational anglers and environmental groups are 
united in advocating for data collection and analysis appropriations.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service (NMFS), 2010, ``Fisheries 
Economics of the United States, 2008'', http://www.st.nmfs.noaa.gov/
st5/publication/index.html.
---------------------------------------------------------------------------
    Data collection programs are the lifeblood of good fisheries 
management, generating information that helps managers make informed 
decisions, and fishermen and other fishery-related businesses plan 
their investments and business actions. The Congress should support the 
following line-item requests because they are critical for maintaining 
healthy fish populations that support stable and productive fisheries:
      Expand Annual Stock Assessments.--$67.1 million as requested, an 
        increase of $16.2 million more than the fiscal year 2010 
        enacted level. Fish stock assessments are critical for setting 
        science-based annual catch limits (ACLs), a key provision of 
        the 2006 amendments, which prevent overfishing and maintain 
        productive fisheries over time. This funding would provide NMFS 
        greater capability to assess the 230 commercially and 
        recreationally important fish stocks managed by the Federal 
        Government. Timely, updated stock assessments reduce the 
        scientific uncertainty associated with ACL-setting and can help 
        fishery managers increase commercial and recreational fishing 
        opportunities while minimizing the risk of overfishing. We 
        strongly support this critical increase in funding.
      Fisheries Statistics.--$24.4 million as requested, an increase of 
        $3.4 million more than the fiscal year 2010 enacted level. This 
        budget line item supports programs that provide advice, 
        coordination, and guidance on matters related to the 
        collection, analysis, and dissemination of statistics in both 
        commercial and recreational saltwater fisheries. The Marine 
        Recreational Information Program, created to improve the 
        quality and accuracy of recreational fishing data per the 2006 
        MSA amendments, is funded primarily through this budget line-
        item. Higher quality data on marine recreational fishing, which 
        contributes $59 billion in sales impacts to the U.S. economy 
        and supports 384,000 jobs, will allow scientists to better 
        estimate fishing mortality and set ACLs more accurately, thus 
        reducing the risk of overfishing.\2\ At a time when 
        recreational fishermen and scientists agree that better data 
        are critical for both restoring fish populations and increasing 
        recreational fishing opportunities, we urge the Congress to 
        support this increase in funding.
---------------------------------------------------------------------------
    \2\ NMFS, 2010, ``Fisheries Economics of the United States, 2008'', 
http://www.st.nmfs.noaa.gov/st5/publication/
fisheries_economics_2008.html.
---------------------------------------------------------------------------
      Survey and Monitoring Projects.--$24.2 million as requested, an 
        increase of $500,000 more than the fiscal year 2010 enacted 
        level. NOAA has stated that ``many fisheries lack adequate and 
        timely monitoring of catch and fishing effort''. \3\ Survey and 
        monitoring projects provide critical support for implementation 
        of the new ACL requirement. Increased funding will improve the 
        accuracy of ACLs and increase the percentage of stocks with 
        assessments.\4\ Additional funding for fishery-independent 
        surveys, monitoring and research will improve estimates of 
        ecosystem change, fishing mortality and population size.
---------------------------------------------------------------------------
    \3\ NOAA, ``Budget Estimates, Fiscal Year 2009, Congressional 
Submission'', p. 166. Available at http://
www.corporateservices.noaa.gov/nbo/fy09_rollout_materials/
OAA_FY09_Final_ CJ.pdf.
    \4\ NOAA, ``Technical Memorandum NMFS-F/SPO-56: Marine Fisheries 
Stock Assessment Improvement Plan: Report of the National Marine 
Fisheries Service National Task Force for Improving Fish Stock 
Assessments'', October 2001. Available at http://www.nmfs.noaa.gov/pr/
sars/improvement/pdfs/marine_fisheries_saip.pdf.
---------------------------------------------------------------------------
      Observers/Training.--$39.1 million as requested, a decrease of 
        $1.9 million from the fiscal year 2010 enacted level. Trained 
        fisheries observers provide essential data on the amount and 
        type of fish caught by fishermen, which is used for compliance 
        monitoring and scientific stock assessments.\5\ NOAA considers 
        at-sea observers the most reliable source of information about 
        fishing catch and bycatch (i.e., incidental catch of nontarget 
        ocean wildlife).\6\ Funding for observer coverage will improve 
        the quality and quantity of fisheries data, especially 
        estimates of bycatch mortality, information that is critical to 
        estimating population size and sustainable fishing levels. 
        While we have strong reservations about the proposed cut to the 
        Observers/Training line item because of the impact it will have 
        on these important programs, we support the proposed fiscal 
        year 2012 funding request of $39.2 million.
---------------------------------------------------------------------------
    \5\ NOAA, ``NOAA Fiscal Year 2012 President's Budget'', Chapter 2: 
National Marine Fisheries Service, p. 315-19. Available at http://
www.corporateservices.noaa.gov/nbo/fy12_presidents_ budget/
National_Marine_Fisheries_Service_FY12.pdf.
    \6\ NOAA/NMFS, Evaluating Bycatch: A National Approach to 
Standardized Bycatch Monitoring Programs, NOAA Technical Memorandum 
NMFS-F/SPO-66, October 2004. 108 pp.
---------------------------------------------------------------------------
      Cooperative Research.--$7.2 million as requested by the 
        President, a decrease of $10.3 million from the fiscal year 
        2010 enacted level. Cooperative research programs pay 
        fishermen, working under the direction of Federal scientists, 
        to collect fisheries data and test new sustainable fishing gear 
        and practices. These programs provide jobs for fishermen and 
        also enable managers to tap into their on-the-water knowledge 
        and expertise to conduct critical research programs. In 2003, 
        NMFS estimated that it would need $25.5 million for cooperative 
        research by fiscal year 2009.\7\ The President's request will 
        only meet a fraction of this identified need, and we are 
        concerned about the effect of the proposed reduction on this 
        critical program.
---------------------------------------------------------------------------
    \7\ NMFS' 2003 5-year assessment estimated the need for cooperative 
research to be $22.8 million more than fiscal year 2003 levels by 
fiscal year 2009, for a total of $25.5 million.
---------------------------------------------------------------------------
      In addition, the President's fiscal year 2012 budget request 
        transfers $6 million out of the cooperative research line item 
        and into the National Catch Share Program line item. We believe 
        that any increases for catch share programs should be made with 
        new money, not transferred from existing general research 
        programs that should be available for all fisheries. Although 
        NMFS asserts that the $6 million will be used for cooperative 
        research in catch share fisheries, there is no guarantee that 
        it will continue to be used for cooperative research in the 
        future. Taking funding from general cooperative research, where 
        it would be available for all fisheries, and restricting it to 
        only catch share fisheries, short changes the vast majority of 
        fisheries, which are not catch share fisheries.
      Fisheries Research and Management Programs.--Total of $184.3 
        million as requested, a $6.5 million decrease from the fiscal 
        year 2010 enacted level. Fisheries research and management 
        programs provide accurate and timely information and analysis 
        of the biology and population status of managed fish, as well 
        as the socioeconomics of the fisheries that depend on those 
        populations. Such information is critical for the development 
        of management measures to ensure an end to overfishing. Because 
        of their vital role, Fisheries Research and Management Programs 
        should be funded at no less than the fiscal year 2012 request 
        of $184.3 million. In NOAA's fiscal year 2012 budget request, 
        $11.4 million is transferred from the Fisheries Research and 
        Management Programs line item into the National Catch Share 
        Program line item. As with Cooperative Research, no funds from 
        this line item should be transferred to the National Catch 
        Share Program because those funds would become permanently 
        unavailable to support research and management of the vast 
        majority of federally managed fisheries that are not currently 
        in a catch share program, and may not be included in one in the 
        future.
    Good fisheries management leads to healthy fish populations, a 
stable and productive fishing industry and robust recreational 
fisheries--a win-win for conservation, anglers and marine-related 
businesses. Today, because of the MSA, fishery managers are using 
science-based catch limits that do not allow overfishing and rebuild 
depleted fish populations to healthy levels. These requirements are 
working, providing economic benefits to fishing communities and the 
Nation as a whole, and promise to provide even greater returns in the 
future.
    We cannot afford to leave the job of bringing our fish populations 
back to healthy levels unfinished--our Nation's fishermen and our fish 
resources depend on it. NMFS data indicate that 39 of the 190 assessed 
commercially and recreationally important fish stocks (about 20 
percent) are still subject to overfishing, and another 43 populations 
remain at unhealthy levels.\8\ The relatively modest investments that 
we are requesting today will lead to healthy U.S. fish populations in 
the future, which according to NMFS will catalyze a $31 billion 
increase in annual sales and support for 500,000 new U.S. jobs.\9\
---------------------------------------------------------------------------
    \8\ NMFS (December 2010). 2010 Status of U.S. Fisheries: Fourth 
Quarter Update, www.nmfs.noaa.gov/sfa/statusoffisheries/SOSmain.htm.
    \9\ Testimony of Eric Schwaab on Implementation of the Magnuson-
Stevens Conservation and Management Act before the U.S. Senate 
Committee on Commerce, Science and Transportation Subcommittee on 
Oceans, Atmosphere, Fisheries and the Coast Guard, p. 3, March 8, 2011: 
http://www.legislative.noaa.gov/112testimony.html.
---------------------------------------------------------------------------
    We ask the subcommittee to continue its support of the MSA and 
invest at least $346.3 million in fiscal year 2012 in one of America's 
most valuable natural resources, our ocean fish populations, so that 
they can continue to provide significant and growing benefits for U.S. 
taxpayers through fishing jobs, healthy oceans, local seafood, and 
vibrant coastal communities.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems Program
    The Regional Information Sharing Systems (RISS) Program was 
established more than 30 years ago by the law enforcement community for 
law enforcement agencies and officers to close the gap on information 
sharing and to serve as a force multiplier in the areas of secure 
communications, intelligence sharing, and investigative support. RISS 
is a proven and cost-effective program that leverages funding to 
support thousands of local, State, Federal, and tribal law enforcement 
agencies across the Nation. It is respectfully requested that the 
Congress appropriate $45 million to RISS for fiscal year 2012. This 
amount is level with fiscal year 2010 funding.
    RISS consists of six regional centers that tailor their services to 
meet the needs of their unique regions while working together on 
nationwide initiatives. The RISS Centers provide investigative services 
to more than 8,700 law enforcement and criminal justice agencies in all 
50 States, the District of Columbia, U.S. territories, Australia, 
Canada, England, and New Zealand. Hundreds of thousands of officers 
utilize RISS resources and services each year. RISS supports efforts 
against organized and violent crime, gang activity, drug activity, 
terrorism, human trafficking, identity theft, and other regional 
priorities, while promoting officer safety.
    Through RISS's timely and accurate intelligence information and 
critical investigative support services, law enforcement and criminal 
justice agencies have increased their success exponentially. These 
results are measured in the number of career criminals that are removed 
from our communities and the reduction of illicit drugs available on 
our streets. With level funding, RISS will continue to maintain the 
following critical services and programs:
  --Operate the six RISS Centers and the RISS Technology Support 
        Center;
  --Provide investigative support services, including analytical 
        services, equipment loans, and research assistance;
  --Operate and maintain the RISS Secure Intranet (RISSNET);
  --Operate, maintain, and enhance the RISS Criminal Intelligence 
        Databases (RISSIntel) and the RISS National Gang Intelligence 
        Database (RISSGang);
  --Operate and maintain the RISS Officer Safety Event Deconfliction 
        System (RISSafe);
  --Participate in and implement goals of the sensitive but 
        unclassified(SBU)/controlled unclassified information (CUI) 
        Interoperability Initiative (SII);
  --Operate and maintain the RISS Automated Trusted Information 
        Exchange (ATIX);
  --Operate the Pawnshop Database and identify strategies to expand the 
        application; and
  --Continue to support partnerships with fusion centers.
    The Bureau of Justice Assistance (BJA), Office of Justice Programs, 
U.S. Department of Justice, provides oversight and program management 
for the RISS Program. The RISS Centers have adopted appropriate 
operational policies as well as a privacy policy that fully complies 
with the Criminal Intelligence Systems Operating Policies (28 Code of 
Federal Regulations [CFR] Part 23). RISS firmly recognizes the need to 
ensure that an individual's constitutional rights, civil liberties, 
civil rights, and privacy interests are protected throughout the 
intelligence process.
    RISSNET is an existing and proven infrastructure that connects 
disparate systems and enables users to query connected systems 
simultaneously. RISSNET resources include RISSIntel, RISSafe, RISSGang, 
RISS ATIX, the RISS Investigative Leads Bulletin Board (RISSLeads), a 
data-visualization and link-analysis tool (RISSLinks), the RISS Search 
Engine (RISSearch), the RISS Center Web sites, and secure e-mail. More 
than 600 resources from a variety of sources are available to 
authorized users via RISSNET. The owners of these resources rely on 
RISS for its secure infrastructure and communications.
    In fiscal year 2010, more than 3.4 million records were available 
in RISSIntel. In addition, RISS experienced more than 4 million 
inquiries to RISS resources. Users query RISSIntel to obtain 
information on subjects, weapons, and addresses. Users select one or 
all connected systems and conduct a federated search. In addition to 
RISSIntel, member agencies have access to various State, regional, 
Federal, and specialized criminal justice intelligence systems 
connected to RISSNET. Almost 100 agencies are connected or pending 
connection to RISSNET, including 31 High Intensity Drug Trafficking 
Areas (HIDTAs), 38 State agency systems, and 22 Federal and other 
systems, such as the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF); the Federal Bureau of Investigation (FBI) Law 
Enforcement Online; the FBI National Gang Intelligence Center; the 
National Virtual Pointer System; Nlets--The International Justice and 
Public Safety Network; and many others. RISS continually strives to 
maximize information sharing among these systems and increase the 
number of systems connected to RISSNET. By connecting agencies and 
systems to RISSNET, rather than funding the build-out of infrastructure 
for new stand-alone information systems, hundreds of millions of 
dollars are saved and millions of data records are easily and quickly 
accessed by law enforcement at little or no cost to the user.
    RISSafe stores and maintains data on planned law enforcement 
events, with the goal of identifying and alerting affected agencies and 
officers of potential conflicts impacting law enforcement efforts. 
RISSafe helps prevent undercover and other operations from conflicting 
and prevents officer injuries and deaths that might otherwise have 
occurred. RISSafe was honored as 1 of 10 2010 Honorable Mention winners 
at the 23d Annual Government Computer News Awards for ``Outstanding 
Information Technology Achievement in Government.'' In addition, in 
February 2011, RISSafe achieved a milestone with the 300,000th 
operation being entered into the application. Since RISSafe's 
inception, close to 100,000 conflicts have been identified.
    The RISS Officer Safety Web site serves as a nationwide repository 
for issues related to officer safety, such as concealments, hidden 
weapons, armed and dangerous threats, officer safety videos, special 
reports, and training opportunities. At the recent International 
Association of Chiefs of Police conference, the U.S. Attorney General 
addressed officer safety, specifically announcing the VALOR Program, 
which is designed to promote officer safety and prevent injuries and 
deaths to law enforcement officers in the line of duty. RISSafe and the 
RISS Officer Safety Web site are two RISS resources available to 
support the VALOR Program's efforts.
    The RISSGang Program consists of a criminal intelligence database, 
a Web site, informational resources, and secure communications to aid 
and support gang-related investigations. The RISSGang database provides 
access to gang information, including suspects, organizations, weapons, 
photographs of gang members, and graffiti. Like RISSIntel, the RISSGang 
database provides for a federated search, including the CalGang 
database. RISS is working to connect other gang intelligence databases 
to RISSNET, such as the ATF GangNet.
    RISS ATIX is available to thousands of law enforcement and public 
safety agencies. RISS ATIX resources include Web pages that contain 
general and community-specific information. The RISS ATIX Bulletin 
Board provides secure online conferences for users to collaborate and 
post information. The Document Library provides informational and 
educational materials. ATIX secure e-mail enables the distribution of 
alerts, SBU/CUI, and other information.
    In addition to its information sharing resources, RISS offers a 
full complement of investigative support services and resources to 
criminal justice agencies, setting RISS apart from other information 
sharing programs. The following summarizes RISS's investigative support 
services.
    Analysis.--RISS analysts developed 37,832 analytical products in 
fiscal year 2010 for investigators and prosecutors to help increase 
their ability to identify, detect, and apprehend suspects as well as 
enhance prosecutorial success in court. These products include link-
analysis charts, crime scene diagrams, telephone toll analysis and 
financial analysis reports, digital forensics analysis, and audio and 
video enhancement services.
    Investigative Support.--RISS intelligence research staff responded 
to 102,761 requests in fiscal year 2010 to conduct database searches 
and research numerous resources.
    Equipment Loans.--Pools of highly specialized investigative and 
surveillance equipment are available for loan to member agencies for 
use in support of multijurisdictional investigations. In fiscal year 
2010, 4,992 pieces of equipment were borrowed by member agencies.
    Confidential Funds.--RISS provides funds to purchase contraband, 
stolen property, and other items of an evidentiary nature or to provide 
for other investigative expenses. RISS provided $393,186 in 
confidential funds in fiscal year 2010.
    Training.--RISS Centers sponsor or cosponsor training classes, 
meetings, and conferences that build investigative expertise for 
member-agency personnel. In fiscal year 2010, 80,204 criminal justice 
professionals received RISS training.
    Publications.--Each center develops and distributes numerous 
publications, bulletins, and reports focusing on local and nationwide 
issues. In fiscal year 2010, the RISS Centers developed 317 documents 
and distributed thousands of copies of each to law enforcement 
personnel.
    Field Services Support.--The integration of field services is 
unique to RISS, whereby individuals regularly contact law enforcement 
and public safety agencies to ensure that RISS is meeting their needs. 
RISS field staff conducted 25,653 on-site visits in fiscal year 2010 to 
train, support, and help integrate RISS services. This one-on-one 
support has resulted in trusted relationships and a program prized 
among its members.
    All criminal justice entities throughout the country are facing 
tightened budgets and limited resources. RISS's structure and diverse 
services help augment their efforts. With the assistance of RISS 
services, agencies arrested 4,563 individuals during fiscal year 2010. 
In addition, agencies seized or recovered more than $23 million in 
narcotics, property, and currency.
    RISS seeks new and strengthens existing partnerships with other law 
enforcement entities and participates on regional and national 
committees to further expand and enhance information sharing. One 
critical initiative involving RISS is the SBU/CUI Interoperability 
Initiative. RISSNET is 1 of 4 SBU/CUI networks/systems participating in 
the initiative under the auspices of the White House and the Office of 
the Program Manager, Information Sharing Environment. The goal of this 
initiative is to provide single sign-on and access to a variety of 
system-to-system enhancements within an interoperable and protected 
SBU/CUI network/system environment for local, State, Federal, and 
tribal law enforcement, regardless of agency ownership of the 
individual network/system.
    RISS also supports a number of other programs and initiatives and 
provides the secure infrastructure for law enforcement to share 
information, including the Nationwide Suspicious Activity Reporting 
(SAR) Initiative, the National Center for Missing & Exploited Children, 
the National Motor Vehicle Title Information System, the United States 
Attorneys' Offices, and the FBI's National Gang Intelligence Center. In 
addition, information is shared on threats against elected officials 
and dignitaries through the U.S. Secret Service Targeted Violence 
Information Sharing System. RISS is supported by all national law 
enforcement organizations, such as the International Association of 
Chiefs of Police, the National Sheriffs' Association, and the National 
Narcotic Officers' Associations' Coalition, as well as numerous State 
associations.
    Each RISS Center has developed partnerships and programs to meet 
the needs of its unique region. Some examples include the Project Safe 
Neighborhoods Mapping and Analysis Program, the National Identity 
Crimes Law Enforcement Network, the Cold Case Locator System, the 
Metals Theft Initiative, the Master Telephone Index, the Pawnshop 
Database, the Combat Meth Project, and the Cold Hit Outcome Project.
    RISS is recognized in the National Criminal Intelligence Sharing 
Plan and the Law Enforcement Information Sharing Program Strategy as a 
mechanism to facilitate secure information sharing. RISS has become the 
program of choice for law enforcement and criminal justice agencies 
from across the Nation.
    It is respectfully requested that the Congress appropriate $45 
million for fiscal year 2012 to enable RISS to continue to serve the 
law enforcement community by providing resources, services, and 
programs they have come to rely on. It would be counterproductive to 
require local and State RISS members to self-fund match requirements, 
as well as to reduce the amount of BJA discretionary funding. Local and 
State agencies require more, not less, funding to fight the Nation's 
crime problem. RISS is unable to make up the decrease in funding that a 
match would cause, and it has no revenue source of its own. Cutting the 
RISS appropriation by requiring a match should not be imposed on the 
program.
    RISS provides resources and capabilities to share critical 
information nationwide, serves as a secure platform for other criminal 
justice entities to share and exchange their information, and provides 
investigative support services that, in many cases, agencies would not 
otherwise receive. RISS is essential in promoting officer safety and 
creating a safer work environment for our Nation's law enforcement. 
Appropriate funding and support will enable RISS to continue its 
programs while effectively serving the criminal justice community. For 
additional information on the RISS Program, visit www.riss.net. RISS 
appreciates the support this subcommittee has continuously provided to 
the RISS Program and is grateful to provide this testimony.
                                 ______
                                 
   Prepared Statement of Southern CATCH--South Atlantic Fishermen's 
                              Association
    Dear Chairman Mikulski, Ranking Member Hutchinson, and members of 
the subcommittee: I write on behalf of the South Atlantic Fishermen's 
Association, a new and growing organization made up of fishermen and 
seafood lovers from North Carolina to the Florida Keys. We work to 
protect the Southeast's fishing heritage by advocating for sustainable 
year-round fishing rules, collecting better fishery science, and 
connecting consumers and businesses with fishermen, to improve the 
abundance and accessibility of local seafood. We also want to pass our 
fishing heritage on to future generations.
    We strongly support the $54 million in funding for the National 
Oceanic and Atmospheric Administration's (NOAA) National Catch Share 
Program in fiscal year 2012. We oppose recent efforts to prohibit 
fishermen from considering catch share programs, because commercial 
fishermen should have the option to implement catch share programs if 
they so choose.
    Commercial fishing in the South Atlantic is an important part of 
the economy, and local fishing supports jobs and the seafood industry, 
generating more than $7 billion in annual sales and supporting 137,000 
jobs. But, current management isn't working and the commercial fishing 
industry is facing difficult times.
    What we want is management that gives commercial fishermen 
flexibility and more time on the water. Catch share programs could 
provide this freedom by enabling fishermen to stabilize their 
businesses and helping to ensure a sustainable fishery for future 
generations.
    After implementing catch shares, fishermen in the Gulf of Mexico 
were able to fish year-round and provide local, fresh product to 
consumers. Catch shares helped Gulf of Mexico fishermen cut operating 
costs and avoid market gluts that drove fish prices down. This resulted 
in a sustainable commercial fishery and profitable fishing businesses.
    South Atlantic commercial fishermen should have the opportunity to 
develop catch share programs, and a portion of the $54 million in 
funding in fiscal year 2012 for NOAA's National Catch Share Program 
would help us to do this.
    We would also like to reiterate our opposition to a recent 
amendment offered by Representative Walter Jones (R-NC) that is 
included in the final fiscal year 2011 budget agreement. This amendment 
would prohibit funding for approval of new catch share programs by the 
Gulf of Mexico, South Atlantic, Mid-Atlantic, and New England Regional 
Fishery Management Councils.
    Taking away fishermen's access to catch shares is not going to end 
the loss of fishing jobs, or put an end to fisheries closures or 
consolidation. This amendment is going to lengthen the struggle for our 
fisheries, which we cannot afford. Fishermen already feel like they 
don't have a voice in the process and this is just one more step that 
will distance fishermen from the fishery management process.
    The future of our region's commercial fishing industry is at stake. 
We need a sustainable fishery and strong fishing businesses that will 
attract future generations of fishermen. Catch shares are a management 
tool that could help us achieve this. We need the Congress to provide 
funding and the flexibility for fishermen to work with the South 
Atlantic Fishery Management Council on catch shares.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
                              introduction
    Mr. Chairman and members of the subcommittee, my name is Susan 
Amara, Ph.D. I am the Thomas Detre Professor of Neuroscience and Chair 
of the Department of Neurobiology as well as Co-Director of the Center 
for Neuroscience at the University of Pittsburgh and President of the 
Society for Neuroscience (SfN). My major research efforts have been 
focused on the structure, physiology, and pharmacology of a group of 
proteins in the brain that are the primary targets for addictive drugs 
including cocaine and amphetamines, for the class of therapeutic 
antidepressants, known as reuptake inhibitors, and for methylphenidate, 
which is used to treat attention deficit hyperactivity disorders.
    On behalf of the more than 41,000 members of SfN and myself, I 
would like to thank you for your past support of neuroscience research 
at the National Science Foundation (NSF). Over the past century, 
researchers have made tremendous progress in understanding cell 
biology, physiology, and chemistry of the brain. Research funded by NSF 
has made it possible to make advances in brain development, imaging, 
genomics, circuit function, computational neuroscience, neural 
engineering, and other disciplines. In this testimony, I will highlight 
how these advances have benefited taxpayers and why we should continue 
to strengthen this investment, even as the Nation makes difficult 
budget choices.
                    fiscal year 2012 budget request
    SfN supports the President's request of $7.7 billion for NSF in 
fiscal year 2012, a 13 percent increase more than fiscal year 2010. 
This level of funding will enable the field to serve the long-term 
needs of the Nation by continuing to advance science, improve health, 
and promote America's near-term and long-range economic strength by 
investing in the proven economic engine of discovery.
    Continued investment in basic research at NSF is essential to 
laying the groundwork for discoveries that will inspire scientific 
pursuit and technological innovation for future generations. Also, as 
reflected in the America COMPETES Act, aggressive investment in 
technology and scientific research is crucial to ensure America 
sustains its global leadership and competitiveness. Science is now a 
truly global enterprise that has the potential to revolutionize human 
knowledge, health, and wellness--the question is whether America will 
maintain its role leading the next generation of scientific advances.
    Resources provided to NSF will go to support the Nation's best and 
brightest researchers at the forefront of promising discoveries, to 
deserving graduate students at the start of their careers, and to 
developing advanced scientific tools and infrastructure that will be 
broadly available to the research community.
                  what is the society for neuroscience
    SfN is a nonprofit membership organization of basic scientists and 
physicians who study the brain and nervous system. Its mission is to:
  --Advance the understanding of the brain and the nervous system by 
        bringing together scientists of diverse backgrounds, by 
        facilitating the integration of research directed at all levels 
        of biological organization, and by encouraging translational 
        research and the application of new scientific knowledge to 
        develop improved disease treatments and cures.
  --Provide professional development activities, information and 
        educational resources for neuroscientists at all stages of 
        their careers, including undergraduates, graduates, and 
        postdoctoral fellows, and increase participation of scientists 
        from a diversity of cultural and ethnic backgrounds.
  --Promote public information and general education about the nature 
        of scientific discovery and the results and implications of the 
        latest neuroscience research. Support active and continuing 
        discussions on ethical issues relating to the conduct and 
        outcomes of neuroscience research.
  --Inform legislators and other policymakers about new scientific 
        knowledge and recent developments in neuroscience research and 
        their implications for public policy, societal benefit, and 
        continued scientific progress.
                          neuroscience and nsf
    Neuroscience is the study of the nervous system. It advances the 
understanding of human thought, emotion, and behavior. Neuroscientists 
use tools ranging from computers to special dyes to examine molecules, 
nerve cells, networks, brain system, and behavior. From these studies, 
we learn how the nervous system develops and functions normally and 
what goes wrong in neurological and psychiatric disorders.
    SfN supports the President's proposed increase for NSF because NSF 
research is indispensable to studying how the brain functions, how it 
controls behavior and health, and how to develop new tools to treat 
many debilitating diseases and disorders. The field of neuroscience is 
deeply interdisciplinary and interdisciplinary collaboration is the 
hallmark of NSF research. For example, NSF-funded biologists and 
neuroscientists are discovering fundamental mechanisms important to 
understanding how humans and other animals behave, develop, 
communicate, learn, and process information. Understanding the 
neuroscience of animal diversity is necessary as we confront 
environmental and agricultural changes in the future. Also, NSF-funded 
physicists, mathematicians, computer scientists, and engineers have 
conducted groundbreaking work that enables the analysis of EEG data, 
the development of advanced brain prosthetic devices, and other 
technologies that will assist in the rapid diagnosis and treatment of 
epilepsy and stroke. NSF-funded statisticians are developing new 
methods for analysis of the large amounts of genome data, on humans and 
other organisms, and developing better statistical tools for looking at 
the effects of the environment on human and animal populations. NSF-
funded chemists have developed new methods that allow for the extremely 
accurate measurement of very small amounts of brain hormones.
    As the subcommittee works to set funding levels for critical 
research initiatives for fiscal year 2012 and beyond we need to do more 
than establish a budget that is ``workable'' in the context of the 
current fiscal situation. We ask you to help establish a national 
commitment to advance the understanding of the brain and the nervous 
system--an effort that has the potential to transform the lives of 
thousands of people living with brain-based diseases and disorders. 
Help us to fulfill our commitment to overcoming the most difficult 
obstacles impeding progress, and to identifying critical new directions 
in basic neuroscience.
                     brain research and discoveries
    The power of basic science unlocks the mysteries of the human body 
by exploring the structure and function of molecules, genes, cells, 
systems, and complex behaviors. Every day, neuroscientists are 
advancing scientific knowledge and medical innovation by expanding our 
knowledge of the basic makeup of the human brain. In doing so, 
researchers exploit these findings and identify new applications that 
foster scientific discovery which can lead to new and ground-breaking 
medical treatments.
    Basic research funded by the NSF continues to be essential to 
ensuring discoveries that will inspire scientific and medical progress 
for future generations. We know from past experience that it is not 
always clear where the next critical breakthrough or innovative 
approach will come from--progress in science depends on imaginative 
curiosity-driven research that makes leaps in ways no one could have 
anticipated, and it is often identified through basic research funded 
at NSF. Where would neuroscience and cell biology be without a rainbow 
of fluorescent proteins from jellyfish? The original discovery of green 
florescent protein earned three researchers the Nobel Prize for 
Chemistry in 2008 and their work is now illuminating pathways of study 
for neurological diseases and disorders. Where would cutting edge work 
in systems neuroscience be today without research on channel rhodopsins 
from algae? This discovery has blossomed into the burgeoning field of 
optogenetics and now holds promise for novel, noninvasive treatments 
for brain disorders. More than ever is it important to support and fund 
research at many levels from the most basic to translational, from the 
biological to the physical, in pursuit of human understanding and 
scientific advances.
    Indeed, many of the new findings in neuroscience can be traced back 
to fundamental work in diverse research fields that has contributed to 
new technologies of all kinds. This allows us to carry out new kinds of 
experiments not imaginable even 5-10 years ago. These discoveries have 
great potential to improve the lives of Americans and almost certainly 
would not have been made without the strong commitment to 
interdisciplinary research at NSF. The following are a few additional 
basic research success stories in neuroscience research.
Nicotine Addiction
    Although tobacco has been used legally for hundreds of years, 
nicotine addiction takes effect through pathways similar to those 
involving cocaine and heroin. During addiction, drugs activate brain 
areas that are typically involved in the motivation for other 
pleasurable rewards such as eating or drinking. These addictions leave 
the body with a strong chemical dependence that is very hard to get 
over. In fact, almost 80 percent of smokers who try to quit fail within 
their first year. The lack of a reliable cessation technique has 
profound consequences. Tobacco-related illnesses kill as many as 
440,000 Americans every year, and thus the human and economic costs of 
nicotine addiction are staggering. One out of every five U.S. deaths is 
related to smoking.
    Past Federal funding has enabled scientists to understand the 
mechanisms of nicotine addiction, enabling them develop successful 
treatments for smoking cessation. The discoveries that lead to these 
findings started back in the 1970s, when scientists identified the 
substance in the brain that nicotine acted on to transmit its 
pleasurable effects. They found that nicotine was hijacking a receptor, 
a protein used by the brain to transmit information. This receptor, 
called the nicotinic acetylcholine receptor, regulates the release of 
another key transmitter, dopamine, which in turn acts within reward 
circuits of the brain to mediate both the positive sensations and 
eventual addiction triggered by nicotine consumption. This knowledge 
has been the basis for the development of several therapeutic 
strategies for smoking cessation: nicotine replacement, drugs that 
target nicotine receptors, as well as drugs that prevent the reuptake 
of dopamine have all been shown to increase the long-term odds of 
quitting by several fold.
    More recently, using mice genetically modified to have their 
nicotinic acetylcholine receptors contain one specific type of subunit, 
scientists determined that some kinds of receptor subunits are more 
sensitive to nicotine than others, and because each subunit is 
generated from its own gene, this discovery indicated that genetics can 
influence how vulnerable a person is to nicotine addiction. Further 
research to spot genetic risk factors and to generate genetically 
tailored treatment options is ongoing. Other studies are also testing 
whether a vaccine that blocks nicotine's effects can help discourage 
the habit. Since people who are able to quit smoking immediately lower 
their risk for certain cancers, heart disease and stroke, reliable and 
successful treatments are clearly needed. Today's continued research 
funding can make it possible for these emerging therapies to ultimately 
help people overcome the challenges of nicotine addiction.
Brain-machine Interface
    The brain is in constant communication with the body in order to 
perform every minute motion from scratching an itch to walking. 
Paralysis occurs when the link between the brain and a part of the body 
is severed, and eliminates the control of movement and the perception 
of feeling in that area. Almost 2 percent of the U.S. population is 
affected by some sort of paralysis resulting from stroke, spinal cord 
or brain injury as well as many other causes. Previous research has 
focused on understanding the mechanisms by which the brain controls a 
movement. Research during which scientists were able to record the 
electrical communication of almost 50 nerve cells at once showed that 
multiple brain cells work together to direct complex behaviors. 
However, in order to use this information to restore motor function, 
scientists needed a way to translate the signals that neurons give into 
a language that an artificial device could understand and convert to 
movement.
    Basic science research in mice lead to the discovery that thinking 
of a motion activated nerve cells in the same way that actually making 
the movement would. Further studies showed that a monkey could learn to 
control the activity of a neuron, indicating that people could learn to 
control brain signals necessary for the operation of robotic devices. 
Thanks to these successes, brain-controlled prosthetics are being 
tested for human use. Surgical implants in the brain can guide a 
machine to perform various motor tasks such as picking up a glass of 
water. These advances, while small, are a huge improvement for people 
suffering from paralysis. Scientists hope to eventually broaden the 
abilities of such devises to include thought-controlled speech and 
more. Further research is also needed to develop noninvasive interfaces 
for human-machine communication, which would reduce the risk of 
infection and tissue damage. Understanding how neurons control movement 
has had and will continue to have profound implications for victims of 
paralysis.
    A common theme of both these examples of basic research success 
stories is that they required the efforts of basic science researchers 
discovering new knowledge, of physician scientists capable adapting 
those discoveries into better treatments for their patients and of 
companies willing to build on all of this knowledge to develop new 
medications and devices.
             the next generation of science--and scientists
    Finally, another key aspect of NSF is its support for science 
education and training. SfN recognizes the leadership role that NSF 
plays in driving innovation in science education. Investment in pre-
college and collegiate science-technology-engineering-math instruction 
is vital to providing a strong pipeline of knowledgeable and motivated 
young people who will make future discoveries. Additionally, I must 
emphasize that NSF is a leading force in the development of the next 
generation of scientists through its support of training. Through NSF 
grants and cooperative agreements with colleges, universities, K-12 
school systems, and other research organizations throughout the United 
States, neuroscientists can continue to conduct the basic research that 
advances scientific knowledge and leads to tomorrow's treatments and 
cures, while mentoring and training students of all levels.
    As the subcommittee considers this year's funding levels and in 
future years, I hope that the members will consider that significant 
advancements in the biomedical sciences often come from younger 
investigators who bring new insights and approaches to bear on old or 
intractable problems. Without sustained investment, I fear that flat or 
falling funding will begin to take a toll on the imagination, energy 
and resilience of younger investigators and I wonder about the impact 
of these events on the next generation. America's scientific 
enterprise--and its global leadership--has been built over generations, 
but without sustained investment, we could lose that leadership 
quickly, and it will be difficult to rebuild.
                               conclusion
    The field of neuroscience research holds tremendous potential for 
making great progress to understand basic biological principles and for 
addressing the numerous neurological and psychiatric illnesses that 
strike more than 100 million Americans annually. While we have made 
great strides toward understanding molecules, cells and brain 
circuitry, scientists continue to unearth how these circuits come 
together in systems to do things like record memories, illuminate sight 
and produce language. We have entered an era in which knowledge of 
nerve cell function has brought us to the threshold of a more profound 
understanding of behavior and of the mysteries of the human body and 
mind. However, this can only be accomplished by a consistent and 
reliable funding source.
    An NSF appropriation of $7.7 billion for fiscal year 2012 is 
required to take the research to the next level in order to improve the 
health of Americans and to sustain America's global leadership in 
science. Thank you for this opportunity to testify.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2012 by providing NSF with $7.767 billion. In particular, 
we urge you to provide the request level for key applied mathematics 
and computational science programs in the Division of Mathematical 
Sciences and the Office of Cyberinfrastructure.
    Written Testimony.--We are submitting this written testimony for 
the record to the Subcommittee on Commerce, Justice, Science, and 
Related Agencies of the Committee on Appropriations of the U.S. Senate 
on behalf of the Society for Industrial and Applied Mathematics (SIAM).
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has more than 400 institutional members, including colleges, 
universities, corporations, and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2012 and beyond. In particular, we request that 
you provide NSF with $7.767 billion, the level requested for this 
agency in the fiscal year 2012 budget request.
    As we are reminded every day, the Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields:
  --medicine;
  --engineering;
  --technology;
  --biology;
  --chemistry; and
  --computer science.
    Furthermore, in the face of economic peril, Federal investments in 
mathematics, science, and engineering create and preserve good jobs; 
stimulate economic activity; and help to maintain U.S. pre-eminence in 
innovation, upon which our economy depends.
                      national science foundation
    The National Science Foundation (NSF) provides essential Federal 
support of applied mathematics and computational science, including 
more than 60 percent of all Federal support for basic academic research 
in the mathematical sciences. Of particular importance to SIAM, NSF 
funding supports the development of new mathematical models and 
computational algorithms, which are critical to making substantial 
advances in such fields as climate modeling, energy technologies, 
genomics, analysis and control of risk, and nanotechnology. In 
addition, new techniques developed in mathematics and computing 
research often have direct application in industry. Modern life as we 
know it, from search engines like Google to the design of modern 
aircraft, from financial markets to medical imaging, would not be 
possible without the techniques developed by mathematicians and 
computational scientists. NSF also supports mathematics education at 
all levels, ensuring that the next generation of the U.S. workforce is 
appropriately trained to participate in cutting-edge technological 
sectors and that students are attracted to careers in mathematics and 
computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
                 nsf division of mathematical sciences
    The NSF's Division of Mathematical Sciences (DMS) provides the core 
support for all mathematical sciences. DMS supports areas such as:
  --algebra;
  --analysis;
  --applied mathematics;
  --combinatorics;
  --computational mathematics;
  --foundations;
  --geometry;
  --mathematical biology;
  --number theory;
  --probability;
  --statistics; and
  --topology.
    In addition, DMS supports national mathematical science research 
institutes; infrastructure, including workshops, conferences, and 
equipment; and postdoctoral, graduate, and undergraduate training 
opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, the human body, and 
energy efficient building systems. SIAM strongly urges you to provide 
DMS with the budget request level of $260.4 million to enable sustained 
investment by NSF in critical mathematical research and related 
mathematical education and workforce development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. NSF, 
with its support of a broad range of scientific areas, plays an 
important role in bringing U.S. expertise together in interdisciplinary 
initiatives that bear on these challenges. DMS has traditionally played 
a central role in such cross-NSF efforts, with programs supporting the 
interface of mathematics with a variety of other fields, such as 
geosciences, biology, cyber discovery, and solar energy.
    SIAM supports DMS's role in enabling interdisciplinary work and 
draws your attention to the proposed Research at the Interface of 
Biological, Mathematical, and Physical Sciences and Engineering 
(BioMaPS) initiative, which would support research in mathematical and 
computational biology to expand our understanding of biological 
processes and inspire potentially transformative new technologies for 
manufacturing and energy. This effort is particularly timely in light 
of the challenges outlined in the 2009 National Research Council report 
on ``A New Biology for the 21st Century.'' The report emphasizes the 
need for development of new information technologies and sciences and 
creation and implementation of interdisciplinary curricula, graduate 
training programs, and educator training in order to create a 
quantitative approach in biological and other sciences to tackle key 
challenges in food, environment, energy, and health.
                   nsf office of cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Office of 
Cyberinfrastructure (OCI) focus on providing research communities 
access to advanced computing capabilities to convert data to knowledge 
and increase our understanding through computational simulation and 
prediction.
    SIAM strongly urges you to provide OCI with the budget request 
level of $236 million to invest in the computational resources and 
science needed to solve complex science and engineering problems. In 
addition, SIAM strongly endorses OCI's efforts to take on the role of 
steward for computational science across NSF, strengthening NSF support 
for relevant activities and driving universities to improve their 
research and education programs in this multidisciplinary area.
    The programs in OCI that support work on software and applications 
for the next generation of supercomputers and other cyberinfrastructure 
systems are very important to enable effective use of advances in 
hardware, to facilitate applications that tackle key scientific 
questions, and to better understand increasingly complex software 
systems. SIAM strongly supports the proposed fiscal year 2012 increase 
in funding for OCI software activities, particularly for the Software 
Institutes program, which is aimed at supporting a community of 
partnerships among academia, government laboratories, and industry for 
the development and stewardship (expansion, hardening, and maintenance) 
of sustainable end-to-end software systems. SIAM also supports the 
proposed increase in OCI data activities including data infrastructure, 
tools, and repositories. The explosion in data available to scientists 
from advances in experimental equipment, simulation techniques, and 
computer power is well known, and applied mathematics has an important 
role to play in developing the methods and tools to translate this 
shower of numbers into new knowledge.
    SIAM also supports the new agency-wide initiative, 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21). This proposed program would develop comprehensive, integrated, 
sustainable, and secure cyberinfrastructure to accelerate research and 
capabilities in computational and data-intensive science and 
engineering.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step that the Federal 
Government can take to ensure the future prosperity and welfare of the 
United States. Currently, the economic situation is negatively 
affecting the job opportunities for young mathematicians--at 
universities, companies, and other research organizations. It is not 
only the young mathematicians who are not being hired who will suffer 
from these cutbacks. The research community at large will suffer from 
the loss of ideas and energy that these graduate students, postdoctoral 
fellows, and early career researchers bring to the field and the 
country will suffer from the lost innovation.
    In light of this situation, SIAM strongly supports NSF's proposed 
fiscal year 2012 increases in the Graduate Research Fellowship (GRF) 
program and the Faculty Early Career Development (CAREER) program. The 
GRF program would receive $198 million which would support 2,000 new 
graduate student awards. This funding would also allow NSF to increase 
the cost of education allowance in fiscal year 2012 from $10,500 to 
$12,000, as mandated in the America COMPETES Reauthorization Act. The 
CAREER program would receive $222 million and would support an 
additional 60 CAREER awards, totaling 606 new awards for fiscal year 
2012 if funded.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
United States. NSF needs sustained annual funding to maintain our 
competitive edge in science and technology, and therefore we 
respectfully ask that you continue robust support of these critical 
programs by providing $7.767 billion for NSF for fiscal year 2012.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM. SIAM looks forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2012 appropriations process.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to offer the recommendations of The 
Nature Conservancy (TNC) on the fiscal year 2012 budget for the 
National Oceanic and Atmospheric Administration (NOAA).
    The devastating gulf oil spill last year reminded us of the immense 
human, economic, and ecological value of healthy coastal and marine 
systems. As part of the response to the spill, President Obama 
established a comprehensive national policy for the stewardship of our 
ocean, coasts, and Great Lakes, to include a framework for effective 
marine spatial planning. NOAA's programs and products directly 
contribute to this national vision. By ensuring the sound management 
and conservation of our natural resources while supporting the 
functions of major industries including transportation, energy, 
tourism, and recreational and commercial fishing, NOAA provides a vital 
service to the country.
    TNC urges the subcommittee to dispense appropriations for NOAA as 
requested in the President's budget for fiscal year 2012. As our top 
priorities, TNC supports the following funding levels for specific NOAA 
efforts:

                        [In millions of dollars]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Regional Spatial Planning and Partnerships.............             26.8
Coral reefs............................................             27
Coastal and estuarine land conservation................             25
Habitat restoration....................................             29.9
Fisheries management:
    National Catch Share Program.......................             54
    Expand annual stock assessments....................             67.1
Pacific salmon and protected species conservation......             88.8
------------------------------------------------------------------------

                    noaa and the nature conservancy
    At more than 100 marine sites around the world, TNC has used a 
variety of strategies for marine and coastal conservation including 
habitat restoration, removal of invasive species, coastal land 
acquisition, private conservation of submerged lands, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems.
    Over the years, and across many of these sites, NOAA has been an 
invaluable partner to TNC. NOAA programs that provide practical, 
community-oriented approaches to restoration, resource management and 
conservation are natural fits for the Conservancy's mission. The 
Coastal Services Center and National Estuarine Research Reserve 
programs educate hundreds of local community officials and 
practitioners to better ways to apply tools and science. In addition, 
NOAA's data, research and monitoring of coastal and marine systems 
directly provide data and decision-support tools that inform the safe 
operations of industry, prioritize habitats for restoration, and 
advance science-based management decisions.
    The following detailed funding recommendations highlight critical 
programs that support marine, estuarine, and coastal conservation and 
restoration.
Regional Spatial Planning and Partnerships ($26.8 million)
    Coastal and Marine Spatial Planning ($6.8 million).--We need a 
coordinated approach and thoughtful planning that resolves conflicts, 
enhances our ability to most fully utilize oceans, and maintains 
healthy marine habitats. Coastal and Marine Spatial Planning (CMSP) is 
a decisionmaking process that creates a blueprint for ocean use and 
conservation by bringing together diverse oceans users; mapping ocean 
activities, marine species, and habitats; providing a forum to 
proactively make informed decisions about how to best use our shared 
marine resources; and creating a coordinated way to allocate marine 
spaces and assess tradeoffs to simultaneously achieve multiple goals. 
The fiscal year 2012 President's budget proposes $6.8 million to 
develop agency capability to implement CMSP, including creating maps of 
important areas and existing area-based management authorities, 
developing decision support tools, facilitating data integration, and 
supporting interagency coordination. TNC supports funding to conduct 
habitat mapping and characterization in high priority areas. Without 
adequate information on habitat types and distributions, science-based 
decisionmaking will be severely limited. In addition, funding is needed 
to identify and map existing human uses, as well as to analyze 
potential conflicts between uses and how certain uses may impact 
ecological factors.
    Regional Ocean Partnerships ($20 million).--The fiscal year 2012 
President's budget requests $20 million for grants to Regional Ocean 
Partnerships (ROPs). The proposed funding would provide support to 
implement priority actions identified by existing and developing ROPs, 
including the Northeast Regional Ocean Council, the Mid-Atlantic 
Regional Council on Oceans, the South Atlantic Alliance, the Gulf of 
Mexico Alliance, the West Coast Governors' Agreement on Ocean Health, 
and the Council of Great Lakes Governors. These multi-state 
collaborations originated to address regional priorities such as 
habitat conservation and restoration, energy siting, coastal resilience 
to severe storms, coastal water quality, and regional data and science 
needs. Additional funding should be provided to support State and 
regional engagement in the development of CMSP, including stakeholder 
processes and consensus building tools, analysis of data and 
information, and facilitation of broad public participation in the CMSP 
process. Up to 5 percent of the funding should be available to pay for 
administration of the ROPs so that these entities can guide regional 
efforts.
Coral Reef Conservation ($27 million)
    The decline of coral reefs has significant social, cultural, 
economic, and ecological impacts on people and communities in the 
United States and around the world. As the ``rainforests of the sea'', 
coral reefs provide services estimated to be worth as much as $375 
billion each year.
  --Coral Reef Conservation Program ($27 million).--TNC works with the 
        NOAA Coral Reef Conservation Program under a competitively 
        awarded, multi-year cooperative agreement to address the top 
        threats to coral reef ecosystems:
  --climate change;
  --overfishing and
  --land-based sources of pollution.
    Together we work on developing place-based strategies; developing 
resilient marine protected area networks; measuring the effectiveness 
of management efforts; and building capacity among reef managers at the 
global scale. NOAA has undertaken a coral reef conservation priority 
setting exercise in all seven of the U.S. jurisdictions with coral reef 
resources. The $27 million would provide funding to support 
implementation of these locally driven conservation priorities and 
efforts to provide for more comprehensive mapping and data compilation 
and analysis on cold water corals in U.S. waters.
Coastal and Estuarine Land Conservation ($25 million)
    Coastal and Estuarine Land Conservation Program (CELCP).--The 
Conservancy supports funding CELCP at $25 million for fiscal year 2012. 
To date, the Congress has appropriated funds to complete more than 150 
conservation projects, with more in progress. These projects have taken 
place in 28 of the Nation's 35 coastal States have already conserved 
more than 45,000 acres of the Nation's coastal treasures. Federal 
funding has been issued on a competitive basis and leveraged by at 
least an equal amount of State, local, and private investments. Over a 
3-year period, $230 million of vetted ranked projects were identified, 
yet only $74 million in funding was available. Funding for CELCP needs 
to accommodate a greater percentage of the overall demand for coastal 
acquisition projects.
Habitat Restoration ($29.9 million)
    Fisheries Habitat Restoration.--This level of funding will provide 
$23.9 million for the Community-based Restoration Program and $6 
million for the Open Rivers Initiative. These programs restore 
important natural systems that provide long-term ecological and 
economic benefits. In 2010, the Congress provided $167 million for NOAA 
habitat restoration under the American Recovery and Reinvestment Act 
(ARRA). These funds were successful in creating hundreds of jobs--an 
estimated 20.3 jobs per $1 million--and restoring important habitats 
such as oyster reefs that communities rely upon for their culture and 
economy. The competitive call for projects under the ARRA generated 
more than 800 requests for funding and showed a demand of $3 billion in 
community-driven ecological and economically significant projects. To 
address this overwhelming backlog of restoration work, we ask the 
subcommittee to support this program.
Fisheries Management ($121 million)
    The provisions of the reauthorization of the Magnuson-Stevens 
Fisheries Conservation and Management Act (MSA) in 2007 were intended 
to provide a more aggressive approach to ending overfishing in the 
United States and address destructive fishing practices in U.S. waters. 
Most U.S. fisheries have traditionally been managed under an open 
access quota system that for decades encouraged and subsidized fleet 
expansion, heavy dependence and investment on particular fishing gear, 
and shorter fishing seasons--all contributors to overfishing and other 
challenges. The requirements of the MSA have aided the United States in 
making strides in addressing these challenges and strengthening 
fisheries management; however, improvements need to continue. For 
example, the administration has recognized the need to look beyond 
traditional open-access management and in some regions implemented 
limited-entry programs. To recover fish stocks so that they provide 
food and jobs to struggling fishermen now and in the future, we need to 
move beyond limited entry and toward innovative management practices 
that consider both the impacts of fishing practices on the marine 
environment, as well as the needs of local communities that depend on 
fishing for their livelihood. Moreover, the design of many existing 
limited access fisheries in the United States need improvements to 
increase environmental and economic performance.
      National Catch Share Program ($54 million).--By giving 
        participating fishermen a stake in the benefits of a well-
        managed fishery, NMFS aims to align the incentives for resource 
        stewardship with the natural incentive for fishermen to 
        increase their earnings with a sustainable business model. 
        Getting the design and implementation of these new catch share 
        programs right is crucial to their success. For example, 
        improved fishery monitoring is imperative to successful catch 
        share systems and to meeting fundamental requirements of the 
        MSA. Better monitoring leads to better science, better science 
        leads to better management, and better management leads to 
        better, and more consistent, economic outcomes for fishing 
        communities. Monitoring, combined with clear environmental 
        goals and provisions for access for communities to adjacent 
        fishing grounds, will allow catch share programs to drive the 
        sustainable use of a public resource.
      Expand Annual Stock Assessments ($67.1 million).--The MSA 
        mandates the establishment, by 2011, of annual catch limits in 
        all fisheries to prevent overfishing. However, current lack of 
        information and assessment capacity for many fish stocks makes 
        this impossible, putting at risk both valuable fisheries and 
        the livelihoods of fishing communities across the United 
        States. Incomplete scientific information for many fish stocks 
        resulting from lack of adequate stocks assessments forces 
        fishery managers to resort to setting annual catch limits in an 
        overly conservative manner, thus limiting fishing opportunity. 
        Adequate stock assessments are essential for the sound 
        management of fisheries and the sustainability of fishing 
        resources.
Pacific Salmon and Protected Species Conservation ($88.8 million)
    Pacific Coastal Salmon Recovery Fund ($65 million).--The Pacific 
Coast Salmon Recovery Fund (PCSRF) has funded hundreds of successful, 
on-the-ground salmon conservation efforts. PCSRF projects are matched 
at a 3:1 ratio (Federal/non-Federal) and have resulted in significant 
progress in protecting and restoring salmon across their range.
    Species Recovery Grants ($23.8 million).--Through this program, 
NMFS provides grants to States to support conservation actions that 
contribute to recovery or have direct conservation benefits for listed 
species, recently de-listed species, and candidate species that reside 
within that State. We support the President budget's request for $23.8 
million.
    Thank you for this opportunity to share with the subcommittee the 
Conservancy's priorities in NOAA's fiscal year 2012 budget.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I submit this testimony to the Appropriations Subcommittee on 
Commerce, Justice, Science and Related Agencies for the subcommittee 
record. UCAR is a consortium of more than 100 research institutions 
including 76 doctoral-degree granting universities, that manages and 
operates the National Center for Atmospheric Research (NCAR) for the 
National Science Foundation (NSF).
    On behalf of the geosciences research community represented by 
UCAR, I urge the subcommittee to support the President's request for 
science funding in the fiscal year 2012 Commerce, Justice, Science and 
Related Agencies Appropriations Act, including $7.767 billion for the 
NSF, $5.017 billion for the Science Mission Directorate of the National 
Aeronautics and Space Administration (NASA), and at least $5.498 
billion for the National Oceanic and Atmospheric Administration (NOAA).
    National Science Foundation (NSF).--Last December, I was on a team 
to evaluate China's agency equivalent to NSF. My experience was eye-
opening. The budget of the National Natural Science Foundation of China 
has increased by more than 20 percent annually since its founding in 
1986. In 1949, about 600 Chinese citizens were engaged full time in 
R&D--by 2009, there were 51 million. This Asian power now has the 
world's fastest supercomputer and its students have the world's top 
scores in reading, mathematics and science. China has launched 10 
weather satellites in the past 20 years and plans to launch 18 more by 
2020. China is investing in R&D and education in the same aggressive 
manner in which the United States invested in science and science 
education decades ago--and by doing so, we created the world's largest 
and most successful economy. If we abandon that approach to economic 
growth at the same time our competitors are adopting it, the 
consequences could be dire.
    For evidence of how NSF investments affect the economy and jobs, 
one need look no further than the example of Sergey Brin, co-founder of 
Google, who began his work on search engines as an NSF-funded graduate 
fellow. The President's $7.767 billion fiscal year 2012 budget request 
for NSF keeps the agency on track to reach the funding commitment 
authorized in the America COMPETES Act, passed with bipartisan 
congressional support in 2010. I urge you to support this overall NSF 
request and to fund the $979 million request for NSF's Geosciences 
Directorate (GEO).
    GEO supports a broad and diverse academic field that contributes to 
our understanding of long-term weather, extreme weather, dynamics of 
water resources, effects of the Sun on the Earth, effects of space 
weather on global communications, interactions of the Earth's systems, 
energy resources, geologic hazards, and all aspects of the global 
oceans. GEO's Atmospheric and Geospace Science (AGS) program supports 
research that saves lives and property through better prediction and 
understanding of weather-related and other natural hazards such as 
tornados, hurricanes, snow storms, droughts, and solar storms. Cities, 
communities, and businesses use this research to prepare for and 
mitigate the effects of these and other hazards.
    Within GEO, I urge you to support the President's AGS fiscal year 
2012 request of $286.3 million and the $100 million request for the 
National Center for Atmospheric Research (NCAR). NCAR is the national 
hub for research for the atmospheric sciences community, and the entire 
community depends on having access to its facilities, data, and 
research collaborations. While we are supportive of NSF's efforts to 
create interdisciplinary cross-directorate programs, without adequate 
overall funding these activities come at the expense of base programs 
like NCAR. Thus, we urge you to support the President's full request of 
$100 million for NCAR as well as the requested additional funds to 
support cross-directorate activities.
    NASA--Science Mission Directorate.--The research conducted and data 
collected by NASA's Science Mission Directorate are essential to 
atmospheric sciences research and global Earth observations. I urge the 
subcommittee to support the President's fiscal year 2012 budget request 
of $5.017 billion for NASA's Science Mission Directorate, including 
$1.653 billion for earth science.
    The Orbiting Carbon Observatory 2 (OCO-2), Landsat Data Continuity 
Mission (LDCM), and the Global Precipitation Measurement (GPM) Mission, 
are in preparation for launches in fiscal year 2013, and fiscal year 
2012 funding must be sustained to ensure that prior taxpayer 
investments are leveraged for the full benefit of society.
    Fiscal year 2012 will initiate the first two decadal survey 
missions, the Soil Moisture Active and Passive (SMAP) Mission, which 
will map soil moisture and freeze/thaw states from space, and the Ice, 
Cloud, and Land Elevation Satellite-2 (ICESat-2), which will quantify 
polar ice sheet contributions to sea level change and collect better 
data on the characteristics of sea ice. At the same time, it is a 
disappointment that a delay is proposed for two critical probe 
missions: the Deformation, Ecosystem Structure and Dynamics of Ice 
(DESDynI) Mission, a dedicated U.S. InSAR and LIDAR mission optimized 
for studying hazards and global environmental change; and the Climate 
Absolute Radiance and Refractivity Observatory (CLARREO) Mission, which 
will monitor the pulse of the Earth to better understand changes in 
long-term weather trends. We urge speedy development of these valuable 
probes.
    National Oceanic and Atmospheric Administration (NOAA).--NOAA 
operations save lives, protect valuable natural resources and property, 
and serve many industrial sectors. Despite these critical functions, 
year after year, NOAA is faced with an uncertain budgetary outlook. 
Now, in addition to a request that is sub-critical, the agency is 
having difficulty getting approval to simply organize itself in a 
manner that is responsive to the needs of Americans. We must have 
information to deal with changes in long-term weather patterns that 
cause droughts and floods, hurricanes and blizzards, and affect all 
aspects of the economy, including national security. On behalf of UCAR, 
I ask that the subcommittee allow NOAA to implement the planned no cost 
reorganization that will provide this country with a much needed 
Climate Service.
    Further, I ask the subcommittee to fund NOAA at the fiscal year 
2012 request level of $5.498 billion at a minimum. This will allow NOAA 
to make progress in replacing aging weather satellites with the Joint 
Polar Satellite System (JPSS). Imagine the impacts of a single day 
without the ability to predict the weather several days out, forecasts 
upon which the economy and safety of the American people depend. JPSS 
is a national priority, with the capacity to meet civil and military 
needs for weather-forecasting, storm tracking and the study of long-
term weather trends. This investment will improve warning lead times 
for severe storms, information used by sectors such as agriculture, 
transportation, and energy production. The fiscal year 2011 budget 
eliminates funding to keep JPSS on schedule, putting the country's 
weather forecasting abilities at risk. NOAA originally planned to 
launch the first two JPSS satellites in 2014 and 2018, however, both 
launches are already delayed by at least 18 months due to the lack of 
funding in fiscal year 2011. NOAA has stated that delay will cost as 
much as $3 to $5 for every $1 not received for JPSS in fiscal year 
2011. In addition to these added costs, data gaps will exist, 
undoubtedly, beginning in 2017. To meet the increasingly dire needs of 
the Nation, JPSS must ramp up immediately before current systems fail. 
I urge the subcommittee to provide the requested $1.07 billion for JPSS 
in fiscal year 2012 within NOAA's National Environmental Satellite 
Service (NESS).
    JPSS instruments will provide critical atmospheric measurements of 
sulfur dioxide, nitrous oxide, water vapor, methane, ozone, soot, 
carbon dioxide, aerosols, and solar energy reaching the Earth's 
atmosphere and the Earth's reflected and radiated energy. These data 
were identified in 2007 as the top priority by the joint NOAA-NASA 
climate assessment of the National Research Council. The Total Solar 
Irradiance Sensor, the Clouds and Earth's Energy System and the Ozone 
Mapping and Profiler Suite-Limb sensors will provide critically 
important continual data to researchers and decisionmakers. I urge you 
to support the fiscal year 2012 request of $30.4 million within NESS 
for JPSS instruments.
    Also within NESS, the COSMIC program is an example of a cost 
effective means of improving weather forecasts. The COSMIC-1 
constellation of six small satellites using GPS Radio Occultation has 
proven so successful in improving weather forecasts since its launch 5 
years ago, that NOAA is committed to transitioning it to operational 
use. Currently, approximately 1,000 weather balloons are launched in 
the world each day, typically over land. COSMIC-1 provides more global 
coverage with an additional 2,000 soundings per day that have an even 
distribution and accuracy rate over the ocean and land. COSMIC-2 will 
provide at least 8,000 soundings per day, resulting in significantly 
more accurate long-range forecasts, including tracks and intensity of 
hurricanes and typhoons. I urge the subcommittee to appropriate the 
requested $11.3 million for COSMIC-2 in fiscal year 2012. This program 
is extremely cost effective, with our partner Taiwan providing one-half 
of the costs. However, it has been delayed considerably because the 
proposed NOAA start in 2011 was not funded. Further delay could 
jeopardize the funding provided by Taiwan. This is an excellent 
leveraging opportunity that must not be lost.
    The proposed Climate Service line office will manage the 
Competitive Research Program in which NOAA funds climate science to 
advance understanding of the Earth's climate system and its 
atmospheric, oceanic, land, and snow and ice components. Grants in the 
fiscal year 2012 budget will address priority research topics in the 
areas of climate monitoring; Earth system science; modeling, analysis, 
predictions, and projections; and climate and societal interactions. I 
urge the subcommittee to provide $64 million in fiscal year 2012 for 
NOAA's Competitive Research Program.
    Office of Oceanic and Atmospheric Research (OAR).--Among OAR's 
responsibilities is the successful extramural U.S. Weather Research 
Program (USWRP). The university community plays a pivotal role in this 
research program that works in close collaboration with the National 
Weather Service (NWS) to transition research to useful weather and air 
quality applications. University collaboration in this work leverages 
what OAR can accomplish with minimal resources. The fiscal year 2011 
request for USWRP was $5.5 million. I urge the subcommittee to 
appropriate $5.5 million in fiscal year 2012 for the U.S. Weather 
Research Program.
    NWS--NWS is a 24/7 operation and the Nation's sole authoritative 
source for issuing warnings and forecasts related to weather, severe 
weather, and long-term weather trends. Every day for the United States, 
its territories, adjacent waters, and ocean areas the NWS provides 
vital information regarding transportation safety, marine conditions, 
fire weather, air quality, agriculture, and flooding. I urge the 
Congress' continued strong support for the critical activities of the 
NWS.
    Space Weather Prediction Center (SWPC).--In coming years, solar 
activity, including flares that release immense magnetic energy that 
can harm power grids, electronic communication, and satellite systems, 
is predicted to peak. NOAA's SWPC, part of the NWS, is the Nation's 
official source of space weather forecasts, alerts, and warnings. With 
a solar maximum expected in 2013, this is a critical time when NOAA 
must continue to provide alerts, watches, warnings, and forecasts to 
customers to ensure the Nation's infrastructure is not disrupted. I ask 
the subcommittee to provide the requested $11.6 million for NOAA's 
space weather activities in fiscal year 2012.
    I want to thank the subcommittee for its past support of Global 
Learning and Observations to Benefit the Environment (GLOBE) at $5 
million and ask that you fund its inclusion in both the NASA and NOAA 
fiscal year 2012 budgets. This proven, experiential program supports 
the collaboration of students, teachers, and scientists on inquiry-
based investigations of the environment and the Earth system involving 
more than 1 million students, 50,000 teachers and 20,000 schools around 
the world. NASA and NOAA have both supported this important program for 
many years. In fiscal year 2011, NOAA was willingly directed by the 
Congress to rejoin the program. This renewed partnership between NASA 
and NOAA has been critical for the program and for the fulfillment of 
both agency missions relating to education. However, NOAA was directed 
to treat GLOBE as a congressionally directed project and to zero out 
NOAA's $3 million commitment to NASA for fiscal year 2012. We ask that 
those GLOBE funds of $3 million, preferably as a stand-alone item, or 
be restored from NOAA's Competitive Education Grants Program in order 
to keep this proven global education program operating.
    Mr. Chairman, we know that we must all become more economical, and 
I believe we are up to making the sacrifices that task entails. But I 
urge the subcommittee to give high priority to funding for science 
agencies that support our Nation's R&D, contribute to the continued 
global competitiveness of the Nation, and promote economic and job 
growth. Thank you for your attention and for this opportunity to speak 
to the Nations' scientific needs.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                            Commission (PSC)
    Mr. Chairman, my name is Jeffrey Koenings, and I serve as a U.S. 
Commissioner on the Pacific Salmon Commission (PSC). The PSC was 
established in 1985 to oversee implementation of the Pacific Salmon 
Treaty (Treaty) between the United States and Canada. In May 2008, the 
PSC concluded bilateral negotiations that developed revised 10-year 
salmon fishing regimes to replace regimes that were expiring at the end 
of 2008. The provisions of the new fisheries agreements were approved 
by the United States and Canadian governments and are being implemented 
for the 2009-2018 period. The U.S. Section recommends that the 
Congress:
  --Fund the Pacific Salmon Treaty Line Item of the National Marine 
        Fisheries Service at $9,708,000 for fiscal year 2012 an 
        increase in funding compared to $5,600,000 in recent-year 
        budgets. This funding provides support for the States of 
        Alaska, Washington, Oregon, and Idaho and the National Marine 
        Fisheries Service to conduct the salmon stock assessment and 
        fishery management programs required to implement the Treaty's 
        conservation and allocation provisions for coho, sockeye, 
        Chinook, chum, and pink salmon fisheries. Included within the 
        total amount of $9,708,000 is $400,000 to continue a joint 
        Transboundary River Salmon Enhancement Program as required by 
        the Treaty.
  --Fund the Pacific Salmon Treaty Chinook Salmon Agreement Line item 
        of the National Marine Fisheries Service for fiscal year 2012 
        at $1,844,000, level funding from what has been provided by the 
        Congress in recent years and is included in the President's 
        fiscal year 2012 request. This funding is necessary to acquire 
        the technical information to fully implement the abundance-
        based Chinook salmon management program provided for under the 
        Treaty.
    The funding identified above is for ongoing annual programs and 
does not include new funding specifically needed for full application 
of the revised agreement for 2009-2018 that was negotiated by the PSC 
and accepted by the Governments of the United States and Canada on 
December 23, 2008. This funding was part of the National Marine 
Fisheries Service fiscal year 2010 budget, which the U.S. PSC 
Commissioners recommend be continued in the fiscal year 2012 Federal 
budget.
    The base Treaty implementation projects included in the Pacific 
Salmon Treaty Line Item consist of a wide range of stock assessment, 
fishery monitoring, and technical support activities for all five 
species of Pacific salmon in the fisheries and rivers from southeast 
Alaska to those of Washington, Oregon, and Idaho. The States of Alaska, 
Washington, Oregon, Idaho, the Federal National Marine Fisheries 
Service (NMFS), and the 24 treaty tribes of Washington and Oregon are 
charged with carrying out the salmon fishery stock assessment and 
harvest management actions required under the Treaty. Federal funding 
for these activities is provided through NMFS on an annual basis. The 
agency projects carried out under PSC funding are directed toward 
acquiring, analyzing, and sharing the information required to implement 
the salmon conservation and sharing principles of the Treaty. A wide 
range of programs for salmon stock size assessments, escapement 
enumeration, stock distribution, and catch and effort information 
collection from fisheries are represented. The information from many of 
these programs is used directly to establish fishing seasons, harvest 
levels, and accountability to the provisions of Treaty fishing regimes.
    The base Treaty implementation funding of approximately $5.6 
million in the fiscal year 2010 budget has essentially remained at this 
low level since the early 1990s. Since that time, the growing 
complexity of conservation-based (Federal Endangered Species Act 
compliant) fishing regimes has required vastly more stock assessment, 
fishing compliance monitoring, and technical support activities. In 
order to continue to implement the Federal PST, the States have had to 
augment Federal funding with other Federal and State support. For 
example, additional sources of funding have included Federal Anadromous 
Fish Grants, Federal Pacific Coast Salmon Recovery Funds (PCSRF), 
Federal Dingell-Johnson dollars, and State general funds. However, the 
Anadromous Fish Grants were eliminated in the Federal fiscal year 2010 
budget, use of PCSRF monies was constrained in fiscal year 2010 by new 
appropriations language, and State dollars and Dingell-Johnson grants 
were cut significantly during the current economic recession.
    The economic impact of commercial and sport fisheries has been 
measured by the U.S. Fish and Wildlife Service at approximately $2-$3 
billion per year to the States involved in the PST. To continue to 
implement the Federal PST conservation-based fishing regimes that 
contribute to the sustainability of salmon stocks and the large 
economic return to the States, the U.S. PSC members recommend an 
increase in base treaty implementation funding from the current $5.6 
million to $9,708,000.
    Effective, science-based implementation of negotiated salmon 
fishing arrangements and abundance-based management approaches for 
Chinook, southern coho, Northern Boundary and Transboundary River 
salmon fisheries includes efforts such as increased annual tagging and 
tag recovery operations and application of other emerging stock 
identification techniques. The U.S. PSC members recommend that 
$9,708,000 be provided for the NMFS Pacific Salmon Treaty Line Item in 
fiscal year 2012 for Treaty technical support activities. The $400,000 
that has been provided in the separate International Fisheries 
Commissions line item since 1988 for a joint Transboundary River 
enhancement program with Canada is now included in this amount. The 
recommended amount for the combined projects represents an approximate 
increase of $4,108,000 more than the amount appropriated for fiscal 
year 2010.
    Beginning in fiscal year 1998, the Congress provided $1,844,000 to 
allow for the collection of necessary stock assessment and fishery 
management information to implement a new abundance-based management 
approach for Chinook salmon coast-wide in the Treaty area. Through a 
rigorous competitive technical review process for project approval, the 
States of Alaska, Washington, Oregon, and Idaho, and the 24 treaty 
tribes are using the funding to support research and data collection 
needed for abundance-based Chinook management. The U.S. Section 
recommends level funding of $1,844,000 for fiscal year 2012 to support 
the abundance-based Chinook salmon management.
    The United States and Canada agreed in 1988 to a joint salmon 
enhancement program on the Transboundary Rivers, which are rivers 
rising in Canada and flowing to the sea through southeast Alaska. Since 
1989, the Congress has provided $400,000 annually for this effort 
through the National Marine Fisheries Service International Fisheries 
Commission line item under the Conservation and Management Operations 
activity. Canada provides an equal amount of funding and support for 
this bilateral program. The funding for the U.S. share is included in 
the $9,708,000 the U.S. Section is recommending for the fiscal year 
2012 NMFS Pacific Salmon Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your subcommittee. We wish to thank the 
subcommittee for the support that it has given us in the past. I will 
be pleased to answer any questions the subcommittee members may have.
  summary of program funding for the u.s.-canada pacific salmon treaty

         DEPARTMENT OF COMMERCE--PACIFIC SALMON TREATY LINE ITEM
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Fiscal year 2009 appropriation..........................      $5,610,000
Fiscal year 2010 appropriation..........................       5,600,000
Fiscal year 2012 U.S. Section recommendation............      9,708,000
------------------------------------------------------------------------
The recommended fiscal year 2012 amount includes $400,000 provided for
  the Joint Transboundary River Enhancement Program currently funded
  under the NMFS International Fisheries Commission account.


        PACIFIC SALMON TREATY--CHINOOK SALMON AGREEMENT LINE ITEM
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Fiscal year 2009 appropriation..........................      $1,844,000
Fiscal year 2010 appropriation..........................       1,844,000
Fiscal year 2012 U.S. Section recommendation............       1,844,000
------------------------------------------------------------------------


</pre></body></html>
